<html>
<title> - FOREIGN OPERATIONS, EXPORT FINANCING, AND RELATED PROGRAMS APPROPRIATIONS FOR 2000</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
      FOREIGN OPERATIONS, EXPORT FINANCING, AND RELATED PROGRAMS 
                        APPROPRIATIONS FOR 2000

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS
                              FIRST SESSION
                                ________

   SUBCOMMITTEE ON FOREIGN OPERATIONS, EXPORT FINANCING, AND RELATED 
                                PROGRAMS
                    SONNY CALLAHAN, Alabama, Chairman

 JOHN EDWARD PORTER, Illinois       NANCY PELOSI, California
 FRANK R. WOLF, Virginia            NITA M. LOWEY, New York
 RON PACKARD, California            JESSE L. JACKSON, Jr., Illinois
 JOE KNOLLENBERG, Michigan          CAROLYN C. KILPATRICK, Michigan
 MICHAEL P. FORBES, New York        MARTIN OLAV SABO, Minnesota
 JACK KINGSTON, Georgia
 JERRY LEWIS, California            

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
     Charles Flickner, John Shank, and Christopher J. Walker, Staff 
                              Assistants,
                     Lori Maes, Administrative Aide
                                ________

                                 PART 4

               TESTIMONY OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              <snowflake>

                                ________
         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 56-751                     WASHINGTON : 1999




                        COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                    DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California               JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois          NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky               MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico                 JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia               STENY H. HOYER, Maryland
 TOM DeLAY, Texas                      ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                    MARCY KAPTUR, Ohio
 RON PACKARD, California               NANCY PELOSI, California
 SONNY CALLAHAN, Alabama               PETER J. VISCLOSKY, Indiana
 JAMES T. WALSH, New York              NITA M. LOWEY, New York
 CHARLES H. TAYLOR, North Carolina     JOSE E. SERRANO, New York
 DAVID L. HOBSON, Ohio                 ROSA L. DeLAURO, Connecticut
 ERNEST J. ISTOOK, Jr., Oklahoma       JAMES P. MORAN, Virginia
 HENRY BONILLA, Texas                  JOHN W. OLVER, Massachusetts
 JOE KNOLLENBERG, Michigan             ED PASTOR, Arizona
 DAN MILLER, Florida                   CARRIE P. MEEK, Florida
 JAY DICKEY, Arkansas                  DAVID E. PRICE, North Carolina
 JACK KINGSTON, Georgia                CHET EDWARDS, Texas
 RODNEY P. FRELINGHUYSEN, New Jersey   ROBERT E. ``BUD'' CRAMER, Jr., 
 ROGER F. WICKER, Mississippi            Alabama
 MICHAEL P. FORBES, New York           JAMES E. CLYBURN, South Carolina
 GEORGE R. NETHERCUTT, Jr.,            MAURICE D. HINCHEY, New York
Washington                             LUCILLE ROYBAL-ALLARD, California
 RANDY ``DUKE'' CUNNINGHAM,            SAM FARR, California
California                             JESSE L. JACKSON, Jr., Illinois
 TODD TIAHRT, Kansas                   CAROLYN C. KILPATRICK, Michigan
 ZACH WAMP, Tennessee                  ALLEN BOYD, Florida
 TOM LATHAM, Iowa
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama
 JO ANN EMERSON, Missouri
 JOHN E. SUNUNU, New Hampshire
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania     

                 James W. Dyer, Clerk and Staff Director

                                  (ii)


      FOREIGN OPERATIONS, EXPORT FINANCING, AND RELATED PROGRAMS 
                        APPROPRIATIONS FOR 2000

                              ----------                              


 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              

                                           Thursday, March 4, 1999.

                 Chairman Callahan's Opening Statement

    Mr. Callahan. Good afternoon. We are going to start off 
with the members of Congress who we want to come ahead and 
testify. Welcome to our Committee.
    Mr. Portman. Thank you, Mr. Chairman.
    Mr. Callahan. Thank you for appearing before us. Good 
morning.

              TROPICAL FOREST CONSERVATION ACT OF FY 2000

                                WITNESS

HON. ROB PORTMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF OHIO

    Mr. Portman. Thank you, Mr. Chairman, members of the 
Subcommittee, for letting me appearing before you and for your 
help already on the Conservation Act.
    This was the bill, Chairman Callahan knows, that John 
Kasich, Lee Hamilton, and I introduced in November of 1997. 
John Porter of this Subcommittee was very involved in the 
development of the legislation and over the years, and the 
development of the context in the legislation as well. It was 
followed by legislation that was introduced in the Senate by 
Senators Lugar, Biden, Chafee, and Leahy.
    It expands on the Bush Enterprise for the Americas 
Initiative, EAI. And it provides a creative market-oriented 
approach to protect the world's most threatened tropical 
forests on a sustained basis.
    The legislation was overwhelmingly approved by the House 
last March by a vote of 356 to 61, including, I believe, all 
members of the Subcommittee and maybe all members of the 
Committee. It was then signed into law last summer, on July 
29th, 1998.
    Although the bill authorized $50 million to be spent in 
Fiscal Year 1999, you may recall, Mr. Chairman, that it was too 
late in the process. The Subcommittee had already completed its 
work by the time the bill was finally enacted into law in July. 
And although the Subcommittee gave us a lot of suggestions in 
the process, in the end, we were not able to have it included 
in the Fiscal Year 1999 budget. It authorizes $50 million for 
Fiscal Year 1999 and then $125 million in Fiscal Year 2000 that 
you are looking at now.
    The President's recent budget request is for $50 million 
for this year, so, in essence, going back to the amount for the 
first year of the program. I hope the Subcommittee will be 
receptive to funding it because it is a very important 
environmental issue that is market-oriented. It really makes 
sense, and I think fits in with your overall approach that you 
take in the Subcommittee.
    As all of us are learning, these tropical forests do 
provide a wide array of benefits, literally affecting the air 
we breathe, the food we eat, and the medicines that cure 
disease. They harbor, we believe, 50 to 90 percent of the 
Earth's terrestrial biodiversity. Among other things, they act 
as carbon sinks, absorbing massive quantities of carbon dioxide 
from the atmosphere, thereby reducing in a cost-effective way 
greenhouse gases.
    They regulate rainfall, which is something those of you 
from California, Mr. Packard and Ms. Pelosi, can appreciate. 
And we know enough about that now to know that it has an impact 
on our climate as well as reducing greenhouse gases.
    They are also breeding grounds for new drugs that can cure 
disease. And most of the new drugs that come from this 
biodiversity we talked about earlier. Just since 1950, we are 
told that half the rain forests have been destroyed, again just 
since 1950. And between 1980 and 1990, there were, on average 
every year, 30 million acres lost.
    So rain forests the size of the State of Pennsylvania were 
destroyed every year between 1980 and 1990. As far as we know, 
that has continued into the '90s. So every year we are having a 
huge amount of rain forests being destroyed, which affects all 
of us.
    This legislation builds on the success of the Enterprise 
for the Americas Act, again enacted in the Bush administration, 
because it links two important facts of life. One is that these 
very important tropical rain forests are disappearing at a very 
rapid rate. And, second, they happen to be located in countries 
that have a lot of debt to the United States. They tend to be 
less developed countries that have a real hard time repaying 
that debt.
    In fact, half the tropical forests are located in just four 
countries: Indonesia, Peru, Brazil, and the Congo. And, in the 
aggregate, these countries have over $5 billion of outstanding 
U.S. debt. So it gives us an opportunity, and that is what we 
are trying to seize upon in a constructive and conservative 
way.
    It does give the President authority to cancel U.S. AID or 
Public Law 480 debt owed by an eligible country in exchange for 
creation of a fund in local currency. And that would preserve, 
maintain, or restore tropical forests.
    It is different from Enterprise for the Americas because it 
enables any qualified country of the world with PL480 and U.S. 
aid debt to take advantage of this, which we think makes a lot 
of sense and not just in Latin America or the Caribbean. It 
also narrows the criteria of the Enterprise for Americas so the 
protection of tropical forests is the primary focus. We want to 
coordinate the resources as much as we can to protect what we 
think is in all of our interests.
    The Debt for Nature Exchanges achieves a number of 
important goals. I will mention two of them. First--I think 
this is very important as you look at the jurisdiction that you 
had, which is so broad in development issues--it gets at the 
underlying cause of so much of this deforestation by helping 
their economies.
    And just to go in and solve environmental problems that can 
come up again and again is not as effective as actually getting 
some of that debt off their books which helps them to relieve 
some of the economic pressures that are enforcing this rain 
forest deforestation that we talked about.
    Second, it provides funds for tangible conservation efforts 
in the eligible country. And it does so through leveraging. So 
one dollar of debt reduction that we have to score based on the 
1990 Credit Reform Act here in the Congress, one dollar of 
subsidy from your Subcommittee, frankly, will end up with 2, 3, 
4, 5, 6, up to 10 or 15 dollars of conversation effort 
depending on how it is structured. We can talk about it later 
if you are interested, but that is kind of the magic of this 
approach. And you can get a much better bang for the buck.
    The local governments end up putting in in local currency a 
lot more to protect the forests than it costs to the U.S. 
government. For a country to qualify, Mr. Chairman, it has to 
meet the same criteria established by Congress under the 
Enterprise for Americas Act so it cannot be a country that is 
not democratically elected.
    It has to cooperate on international narcotics control, 
cannot support terrorism, or violate internationally recognized 
human rights. We have taken care of that issue.
    It also has to meet minimum financial criteria to meet its 
new obligations under the new restructured terms of the debt. 
And it must meet the same criteria in Enterprise for Americas 
regarding progress on economic reforms.
    In preparing the legislation, we looked a lot at the issue 
of accountability because we wanted to be sure that these funds 
would actually be used in an appropriate way.
    There is a pretty good track record under the Enterprise 
for the Americas. It facilitates debt matrix exchanges in 7 
Latin American and Caribbean countries, providing up to $154 
million in conservation efforts in, again, local funds. And 
these funds had been used for reforestation, soil and water 
conservation, and so on.
    Overall we think it is working pretty well. The Tropical 
Forest Conservation Act we think again is an accountable cost-
effective way to respond directly to the global crisis that we 
face in tropical forests. And the groups that have had the most 
experience in preserving these forests agreed.
    This was supported by the Nature Conservancy, here today, 
Conservation International, World Wildlife Fund, and so many 
others who have worked on this effort for years. They will 
benefit also from this in the sense that third parties are able 
to buy down the debt as well as the direct subsidy on a country 
by country basis, as done in Peru.
    Mr. Chairman, I just again hope that you will consider the 
request from the administration favorably and at least do what 
they have done.
    Mr. Callahan. We will give it certain rights. And I 
congratulate you on giving this Committee some direction. It is 
so seldom that we get legislation passed through the House and 
Senate signed by the President that gives this Committee 
direction that it is rewarding to see that you did take the 
initiative to bring this matter to the attention of the House 
and the Senate and to provide us with justification through 
authorization.
    Ms. Pelosi. Mr. Chairman, I know that we are on a tight 
schedule, but I just want to commend this gentleman for his 
leadership on this issue. I was pleased to speak on the floor 
and commend you publicly for this important legislation. So 
hopefully Mr. Chairman can help Mr. Portman on this.
    Thank you, Mr. Portman.
    Mr. Callahan. Any other questions?
    Mr. Portman. Thank you very much.
    Mr. Callahan. Mr. Visclosky? As you know, we have I think 
20 to 25 witnesses and people wanting to get out of town. So we 
are asking people to limit their appearances to five minutes.
    [The information follows:]


[The official Committee record contains additional information here.]

                                           Thursday, March 4, 1999.

                           SOUTHERN CAUCASUS


                                WITNESS

HON. PETER J. VISCLOSKY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA
    Mr. Visclosky. Mr. Chairman, I am here to talk about your 
favorite subject. And that is the South Caucasus. I understand 
that my entire statement is entered into the record.
    Mr. Callahan. Definitely.
    [The information follows:]

[The official Committee record contains additional information here.]


    Mr. Visclosky. I want to stress to you, Ms. Pelosi, and the 
other members of this Subcommittee, the importance I attach to 
not repealing Section 907. Armenia has been blockaded for ten 
years, and it has been destructive. And I think it would not be 
constructive as far as the peace process. It would send a 
negative signal if we eliminated that program.
    My testimony also refers to the funding levels. But, again, 
I recognize that your time is limited. The entire statement is 
entered into the record. But I do appreciate the fairness and 
open-mindedness with which you have approached this issue in 
the past. And I know you are very familiar with it, as is Ms. 
Pelosi.
    Mr. Callahan. We are familiar with it. And certainly 907 
you and I disagree on, whether or not that has been 
constructive to the peace process or not. We have done 
everything as a Committee to facilitate that peace process, 
even creating a slush fund, availability of monies, in the 
event that we could finally reach some agreement that would 
lift 907 and at the same time facilitate and have money 
positioned for reconstruction efforts, primarily in Armenia, in 
Karabach, but we will look very seriously at your 
recommendations and certainly respect them. But I just 
respectfully disagree that continuation of 907 is a way to 
achieve peace.
    Mr. Visclosky. I recognize----
    Mr. Callahan. There will be ample time for debate on that 
issue, I am sure, either in the full Committee or if a repeal 
is put in there, there certainly will be opportunity, as there 
was last year, for full debate on the----
    Mr. Visclosky. I understand.
    Mr. Callahan. We certainly respect your position and know 
where you are coming from and appreciate very much your 
appearing.
    Ms. Pelosi. Mr. Chairman, do not think I am going to 
respond on every witness because I am not, but 907 is an area 
where we are in disagreement. And I support Mr. Visclosky's 
position and thank him for his strong leadership on this on the 
floor. And we make this fight in the Subcommittee, on the full 
Committee.
    And I think now that the price of oil is so low and the 
premium that is being placed in oil in the Caspian Sea being 
diminished, more than ever, it is necessary for us to continue.
    Mr. Visclosky. Mr. Chairman, I do appreciate your fairness. 
You have been absolutely fair.
    Ms. Pelosi. He has been very fair.
    Mr. Callahan. Thank you.
    Mr. Visclosky. Sure.
    Mr. Callahan. Any other members of the panel?
    [No response.]
    Mr. Callahan. Thank you very much.
    Mr. Visclosky. Thank you very much.
    Mr. Callahan. Mr. Walsh?
                              ----------                              

                                           Thursday, March 4, 1999.

                        CHILD SURVIVAL PROGRAMS


                                WITNESS

HON. JAMES T. WALSH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Walsh. Thank you, Mr. Chairman. I always get nervous 
when people say, ``I will be brief,'' but I will be brief.
    Mr. Callahan. You are going to be brief. [Laughter.]
    Mr. Walsh. That is a medieval instance of torture.
    Thank you very much for giving me the opportunity to come 
in and say what I always say when I come in before this 
Subcommittee about certain issues. Let me also congratulate 
you, sir, and ranking member Nancy Pelosi on the effort that 
you put into this Child Survival Program. I think it is a great 
investment. It has become a program that both of you are 
recognized for, and it is very effective.
    I also, as Chairman of the Friends of Ireland, would like 
to put in a statement in support of the international fund for 
Ireland. We are not out of the woods yet in Ireland on the 
peace process. It is close. Hopefully within the next month or 
so, we will see the final waltz in that long dance. But it is 
not over yet. And these funds really have helped to create an 
economic stability within the north. And it is critical to the 
success of this process.
    I would also like to put in a strong word of support for 
UNICEF and for the work that they do and also for the Peace 
Corps. I had the occasion to return to my village in Nepal this 
past December and meet with some volunteers while I was there. 
And it is really, really great to see a new generation with the 
same level of altruism and idealism and commitment and to see 
that they can make a difference.
    We can see here in our own country when these folks come 
back. They get involved. They roll up their sleeves. And they 
help us solve problems here, too. I know you have budget caps 
and priority difficulties. We all do. But if you would give 
these programs consideration, I would appreciate it.
    [The information follows:]

[The official Committee record contains additional information here.]


    Mr. Callahan. We certainly will. As you know, with our 
child survival account, we now are very happy that the 
administration is even recognizing----
    Ms. Pelosi. The Callahan----
    Mr. Callahan. If it will get more money, we will call it 
the Bill Clinton----
    [Laughter.]
    Mr. Callahan. We are happy now that the administration 
agrees with the Committee, which is where the Child Survival 
Fund actually was born. And we certainly also agree with you on 
the importance of the Peace Corps and UNICEF as well. And I do 
not think you are going to be disappointed at all with how this 
Committee handles your requests.
    Mr. Walsh. Thank you, Mr. Chairman.
    I do not need to say anything more.
    Ms. Pelosi. Ditto. I guess I should say I might put up with 
the Chairman's remarks.
    Mr. Callahan. Thank you. Thank you very much.
    Mr. Walsh. Thank you very much.
    Mr. Callahan. Martin, do you want to bring up Mr. Salzberg?
    Mr. Sabo. Sure. Mr. Chairman, if I might put my statement 
in the record. Let me introduce Mr. John Salzberg, who is here 
representing the Center for Victims of Torture, which is 
located in Minneapolis and they do great work. I will turn it 
over to John so you can hear from him.
    Mr. Callahan. Mr. Salzberg, you are very fortunate to be 
introduced by a member of this Subcommittee. You have already 
won, no matter what you say.
    Mr. Salzberg. Well, thank you, Mr. Chairman.
    Mr. Callahan. We will submit your entire statement for the 
record.
    [The information follows:]

[The official Committee record contains additional information here.]


                                           Thursday, March 4, 1999.

                     CENTER FOR VICTIMS OF TORTURE


                                WITNESS

JOHN SALZBERG, CENTER FOR VICTIMS OF TORTURE
    Mr. Salzberg. I want to thank Congressman Sabo for his kind 
remarks. We feel at the center especially fortunate and proud 
of him as our member of Congress. His support for our work is 
very much appreciated.
    Mr. Sabo's statement describes some of the work that we do 
in Minneapolis. I would not, however, want you to think this 
problem is peculiar to Minnesota. In fact, we estimate there 
may be as many as 400,000 victims of foreign governmental 
torture residing in the United States.
    As Ms. Pelosi knows and Congressman Porter knows, these are 
not abstract statistics. Ms. Pelosi has in her district a 
treatment center Survivors International in San Francisco. Mr. 
Porter has near his district the Kovler Center Chicago.
    We know, however, that most victims of torture remain in 
the country of origin. The U.N. Special Rapporteur on Torture 
states that torture exists in more than 70 countries.
    Frequently governments target grassroots leaders who are 
defending human rights and democratic practices. They single 
out people, such as opposition party representatives, trade 
unions, religious leaders, and human rights defenders.
    Repressive governments seek to disable these courageous 
leaders and, in addition, in still fear in the nation. Torture 
is the single most effective weapon against democracy.
    United States under both Democratic and Republican 
administrations has been unequivocal in their opposition to 
torture and their resolves to take measures to prevent its 
occurrence. We believe that assisting foreign treatment centers 
for victims of torture is not only morally right but is an 
effective method to lessen the incidence of torture and promote 
human rights and democracy abroad.
    The centers provide irrefutable medical and psychological 
evidence to tortures occurring. Domestic courts, international 
human rights mechanisms, and diplomatic representations utilize 
such efforts. Our own Department of State's annual country 
reports is a good example. These reports help to shame 
governments in relenting in their use of torture.
    We also believe these centers provide a strategic purpose 
of restoring faith in the principles of human rights and 
democracy and the legitimacy of their leaders. These leaders 
who have been tortured or threatened with torture are better 
able to resolve their advocacy of human rights and democracy.
    These views are not just our own. They are those of the 
United States Congress. In the 105th Congress, you adopted, 
those of you who were members of the 105th Congress, the 
Torture Victims Relief Act, Public Law 104, 105-320, which 
affirmed the principles I just described.
    Bipartisan congressional sponsorship of this legislation 
led to its enactment. I am pleased to say Ms. Pelosi and 
Congressman Sabo were some of the members who sponsored that 
legislation.
    The act authorizes in Fiscal Year 2000 $7.5 million for AID 
to support foreign treatment centers, $3 million as the 
contribution to the U.N. voluntary fund for victims of torture, 
and also $7.5 million for the Department of Health and Human 
Services to support treatment services for victims of torture.
    On October 30th, the President signed the legislation into 
law and stated, ``This act authorizes continued and expanded 
contributions to treatment centers, both in the United States 
and around the world, for persons who suffer from the mental 
and physical anguish of having been tortured.''
    Furthermore, on Human Rights Day, December 10th, the 
President committed $3 million in Fiscal Year 1999 money as the 
U.S. contribution to the U.N. voluntary fund for victims of 
torture.
    Finally, in his budget for Fiscal Year 2000, the President 
requested the full amount authorized by the act for the U.N. 
Fund and for the Department of Health and Human Services.
    At this time, it is unclear whether AID has requested funds 
to implement the Torture Victims Relief Act. However, Congress 
authorized funds to AID for this purpose because it knew that 
the U.N. Fund would not bring sufficient resources to meet the 
international need.
    Our request is that this Subcommittee appropriate for 
Fiscal Year 2000 the amount authorized in the Torture Victims 
Relief Act: $7.5 million for AID to support foreign treatment 
centers, and $3 million for the contribution to the U.N. Fund. 
We also ask the Committee to ask the administration to file a 
report by January 15th, 2000 on implementing these 
appropriations.
    While the $7.5 million to support treatment services in the 
United States is under the jurisdiction of another 
subcommittee, we urge each of you individually to support 
request as well. By supporting those who have suffered so much, 
we are affirming our belief in their efforts to achieve 
democracy in their own countries.
    I thank you for giving me your time and attention and 
sincerely appreciate your consideration of our request.
    [The information follows:]

[The official Committee record contains additional information here.]


    Mr. Callahan. I thank you. Who has the $7.5 million 
jurisdiction?
    Mr. Salzberg. Which? For U.S. programs?
    Mr. Callahan. Yes.
    Mr. Salzberg. That is Mr. Porter's subcommittee.
    Mr. Callahan. Porter's subcommittee?
    Ms. Pelosi. Where he is holding forth there. And I may have 
to run up in a little bit. I have mentioned that this came up 
here.
    Mr. Callahan. Thank you.
    Well, once again we appreciate having some direction from 
the Congress in the form of an authorization bill, but that 
makes our decision a little easier. So we appreciate it very 
much.
    Ms. Pelosi. I would want to commend you, Mr. Salzberg, for 
your leadership in all of this. As you know, they say that to 
victims of torture the most excruciating form of torture is to 
tell them that nobody cares; while they are being tortured, 
nobody knows or cares; or nobody will care later on. And we 
have to do everything we can to make sure that that is not 
real. And so thank you for your leadership in all of this, Dr. 
Salzberg.
    Mr. Salzberg. I appreciate it. Thank you.
    Mr. Callahan. Thank you.
    Mr. Hall? We will receive your written testimony.
    Mr. Hall. Good.
                              ----------                              --
--------

                                           Thursday, March 4, 1999.

                         UNITED NATIONS FUNDING


                                WITNESS

HON. TONY P. HALL, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF OHIO
    Mr. Hall. It is rather long. Thank you for allowing me to 
come before your Committee, Mr. Chairman, Mrs. Pelosi, and 
members of the Committee. I consider this Subcommittee one of 
the most important committees in Congress.
    Ms. Pelosi. We share that view.
    Mr. Callahan. We agree so far, Congressman.
    Ms. Pelosi. You are off to a good start.
    Mr. Hall. And we have made great strides in the last 25 
years alone. The number of people who know the pain of severe 
hunger has gone from one in three to one in five. Citizens of 
developing countries have added 20 years to their expected life 
span, increased their literacy rate by one-third, and infant 
mortality rates have been cut by more than half. And the 
percentage of children immunized against killer diseases has 
gone from 5 percent to 80 percent, saving 3 million lives each 
year.
    And it is not that we are doing such a great job. We are. 
We have been a leader in the world. But many developing 
countries are now doing much better at creating the economic 
climate that is needed to ensure jobs and private investment.
    We are the world's indispensable leader. There is no 
question about it. Other nations follow what we do. And when we 
cut, they cut, too. Ironically the World Bank has said 
recently: Just as AID is poised to become its most effective, 
the volume of AID is declining and is at its lowest level ever.
    We are losing a tremendous opportunity I think in this 
country by not funding the programs in the U.N., not funding 
bilateral aid to the point that we used to.
    I mean, this is one thing we know how to do. We know how to 
feed people, shelter, immunize. We know how to create micro 
enterprise, development assistance, all kinds of things. You 
know, we might not know how to work on Kosovo or Middle East, 
Iraq. We have not been able to figure that one out. But this we 
know how to do. It is one of the easiest things we know how to 
do, and it is a time when we could really step up to the bat.
    I think that we need to really reassert our leadership 
position in the world. And first I would say we need to 
increase our overall foreign aid contribution significantly.
    Our investment has dropped by half during this decade. And 
we now contribute just eight-one hundredths of one percent of 
our gross national product if we compare that with the full one 
percent we contributed to fighting poverty and despair during 
World War II.
    Second, we need to pay our bills and our arrears to the 
United Nations. And I know that this Committee is not in charge 
of that appropriation, but I intend to really be involved with 
this one. I know with many of you and with us for too long now, 
we should be separating these issues, especially of population 
and abortion. And we should have separate votes on these. And 
hopefully we will get a clean bill on it this year.
    I do not know. But because we do not pay our arrears and 
our bills, it squanders this tremendous moral high ground that 
America has won. And, yet, we are losing it. And it is 
embarrassing that we do not pay our bills.
    Third, we need to increase the amount of food we donate 
through our Food for Peace and other programs. And we have 
found a way to use American food to promote peace around the 
world, even during recessions. And now when our economy is 
really moving ahead, how can we do less?
    I want to suggest a few places to start the crucial work of 
restoring America's leadership. First, we should reinforce the 
organizations on the front lines of our work with developing 
nations. The administration's budget request proposes cutting 
three of these, the only three U.N. organizations headed by 
Americans--this makes no sense--UNDP, UNICEF, and the World 
Food Program.
    The 20 percent cut to our contribution for the UNDP comes 
with no explanation and makes no sense. And I have seen the 
UNDP at work. I have seen them recently in Burma just about a 
month ago. It is one of the best UNDP projects I have ever 
seen.
    Shaving our support for UNICEF is just the opposite of what 
we should be doing and because our World Summit for Children 
commitments require sustained funding increases. And you 
deserve special thanks, Mr. Chairman, for the increases you 
have won for UNICEF, for child survival.
    And we also do not need to cut the World Food Program and 
funding it. It needs to monitor food and to make sure it is not 
diverted by soldiers.
    Second, I urge you to support and fund the targeted aid 
that has proven it works by restoring a $40 million cut in the 
child survival count. And you have done a tremendous job, this 
whole Committee but especially the Chairman.
    And hopefully you can add $32 million to basic education 
funds, and invest in strategies to stop the spread of 
infectious diseases, including adding 60 million to the fight 
against TB, which is less than what we are spreading to help 
the District of Columbia fight its Y2K computer program.
    I also urge you to support the administration's $161 
million request for debt relief. Two statistics say it all. 
African nations now spend $12 billion a year repaying old debt, 
and just $2 billion would school all African children. Heavily 
indebted countries on average pay twice the amount they receive 
in aid keeping current on their old debt.
    And I would also urge you to add the $29 million needed to 
fund the Peace Corps bill, certainly increase micro credit 
funding to about $160 million, and follow up on our commitments 
relative to Africa, the Seeds of Hope Act of 1998.
    I know that you feel under-appreciated, but your work does 
save lots of lives. And we could really, really be the leader 
by far, I mean, surpass any country in the world. And we have 
the opportunity now to do it. We have cut our appropriations in 
half in this decade.
    You know, as I look at the polls in America--and it is 
interesting; I have seen polls the last couple of years--people 
feel that our food and our programs are getting through. They 
support it overwhelmingly.
    So, with that, I submit my long, very long document that I 
have before you. And I would be glad to try and answer some 
questions.
    [The information follows:]


[The official Committee record contains additional information here.]


    Mr. Callahan. Thank you.
    No one has to be told of your true involvement in making 
life less miserable for millions of people throughout the 
world, sacrifices that you have made, the extent that you have 
gone to to educate yourself and this Congress with respect to 
the need, with respect to the total amount of foreign 
assistance.
    I think under the circumstances, we have been as generous 
as we can be. We have fulfilled all of the requests I think of 
the administration, albeit most of it was done in the 
supplemental last year.
    You say that we cut it back, but the administration has 
come to us with higher priorities with respect to foreign 
assistance. For example, last year they thought $18 billion was 
needed to provide financial relief for many countries in the 
Far East through the International Monetary Fund.
    And I think also the administration is very shrewd. They 
submit to us a balanced budget. And they say: Here is a 
balanced budget. And we are for a balanced budget. And then at 
the same time, they say: Cut child survival or cut the 
immunization programs, cut UNICEF, or cut the basic educational 
part of child survival, you know, they are saying, because they 
know full well we are going to fund them. We are going to do 
the responsible thing there.
    So then it is those of us who are responsible for 
appropriations to bust the budget. So we are disappointed, as 
you are, that the administration recognizes our vulnerability. 
And that is we are not going to deny this historical assistance 
to these agencies. We are going to fund them.
    At the same time, we have to recognize that we are going to 
be allocated only a designated amount of money which we are 
going to have to live with. But I would say 90 percent of the 
programs you mentioned are not going to be decreased, even 
though the administration has requested the cuts.
    We do have a disagreement over debt forgiveness. And 
certainly Nancy and I have the same type of disagreement. But 
what we do not want to do is to give these countries the 
opportunity to have a clean financial statement to be able to 
borrow more money to put in some Swiss bank.
    We are disappointed that some of the leaders of these 
countries whose people are suffering are the ones responsible 
for the suffering because they borrowed money and now they 
cannot show any tracks as to how the money was spent. Now we 
are saying have the United States forgive all of this debt and 
give them an ability to borrow more money. So we have some 
issues that are going to have to be debated with respect to 
debt forgiveness.
    I think when we come before your Committee for an hour, the 
route we are going to take with respect to rules, 90 percent of 
the things that you are interested in are going to receive very 
favorable consideration by this Committee.
    Ms. Pelosi. Thank you, Mr. Chairman.
    Three quick points. First I want to commend Mr. Hall for 
his tremendous leadership. He is indeed the conscience of this 
Congress, and he is so respected that his suggestions carry a 
great deal of weight.
    Second, I want to say how pleased I was to hear his 
courageous statement that he thought we should separate the 
vote on family planning, et cetera, from our funds paying our 
dues to the U.N. and the other international obligations that 
we have. I think that was a very courageous statement for Mr. 
Hall to make knowing where he is coming from on that issue.
    And, third, I want to say that so many times I have said in 
Labor-HHS, my other committee, to the people coming from the 
NIH: What are you doing internationally? And we have U.S. AID 
in here. We say: What are you doing to collaborate with the NIH 
and CDC about these international health issues?
    This morning in the hearing on the National Institute for 
Allergies and Infectious Diseases, we had some breakthroughs 
announced about rotovirus, which kills approximately 130 
million infants and babies a year. The numbers affected are so 
staggering.
    What Mr. Porter who is the chair of that committee, and I 
were suggesting is that perhaps in a child survival account, we 
could take recognition of the scientific breakthroughs that are 
happening with some of these infectious diseases so that we can 
suggest, propose, whatever, to U.S. AID that although they said 
the scientific breakthroughs were a miracle, if we cannot get 
this out to the children, it is really a moral failure on our 
part.
    So hopefully this Committee can be the vehicle, and 
similarly for tuberculosis and others. There have been at least 
two major breakthroughs scientifically where the only obstacle 
now is to spread it out to the children in need in the 
developing world. Fifty thousand people in the United States 
die of one of the rotoviruses alone, matching what it is in the 
developing countries.
    Mr. Hall. You know, part of the program is to fund a good 
portion of the AID and the relationship of the drugs that they 
have helped fund relative to research. And some of our jungles 
and rain forests have really gone to save a lot of lives. And 
there has been tremendous breakthrough.
    I mean, my son had leukemia. And he received a lot of those 
breakthrough drugs. I wish I could say it did him some good, 
but I do know that they have saved many, many children.
    Mr. Callahan. Thank you very much.
    Mr. Hall. Thank you, Mr. Chairman.
    Mr. Callahan. Terry Peel?
    Mr. Peel. Thank you.
    Mr. Callahan. Terry, you have sat on this side of the 
table. You know the five-minute rule and what it means.
                              ----------                              

                                           Thursday, March 4, 1999.

                                 UNICEF


                                WITNESS

TERRY PEEL, SENIOR ADVISOR, U.S. COMMITTEE FOR UNICEF
    Mr. Peel. Thank you very much, Mr. Chairman, Ms. Pelosi. It 
is nice to be back here again. I feel rather nostalgic being 
back on the other side of the table, though. I appreciate you 
letting me testify this morning in my role as a senior adviser 
to the U.S. Committee for UNICEF.
    I want to thank this Committee for the role it has taken 
over the years in making UNICEF a very important issue. Because 
of your leadership last year, for the first time since 1993, 
there was an increase in funding for UNICEF. Funding was 
increased by $5 million.
    I am disappointed to say that the administration did not 
follow through on that and they have actually come in with a 
request for $101 million, or a $4 million decrease. I am hoping 
that during this process, you will rectify that problem, Mr. 
Chairman.
    Mr. Callahan. Probably will.
    Mr. Peel. Good. I am glad to hear it.
    A week ago today I was getting off a plane coming back from 
Colombia. I went down to Colombia to see what were the results 
of what UNICEF is doing down there in terms of the earthquake 
disaster. If I can just take a second, I will show you some 
pictures that I took. I probably should have kept my daytime 
job as an appropriator, instead of a photographer, but we will 
try it.
    [Photograph.]
    Mr. Peel. You can see here this is a boy who is on top of 
what used to be his house. This is in the town of Armenian in 
Colombia. Two hundred, fifty thousand people are homeless in 
this area in Colombia. A hundred thousand of them are children, 
1,000 people are dead, 5,000 people were seriously injured.
    What really UNICEF has been able to do is to come in early 
with projects like this water project here and sanitation. And 
because of the sanitation and water projects, people have not 
come down with cholera, have not come down with other diseases. 
So the good part of this emergency situation is that UNICEF has 
quickly stepped in here.
    [Photograph.]
    Mr. Peel. This is Maria and her brothers and sisters in 
front of a clean water fountain. This is their house in the 
background. But at least they do have clean water.
    One of the projects UNICEF is dealing with is children who 
have been traumatized by this earthquake. They have seen 
families and friends destroyed and killed as buildings came 
down. This photograph shows a program that UNICEF has working 
with these traumatized children.
    [Photograph.]
    Mr. Peel. This is Christian. Christian has drawn a picture 
here that shows a police station across from his house that 
collapsed, killing 40 people; a firehouse that collapsed on a 
woman walking by, killing her; and his vision for a new 
tomorrow, which is the sun and a heart. There is a better life 
ahead for the people in Colombia. Quite a smart kid. And he was 
also working with a UNICEF education project. All of the 
schools were destroyed in that area.
    [Photograph.]
    Mr. Peel. This was a little girl, Sunyiata, who is having 
some milk and bananas. This is a nutrition program that UNICEF 
has. And they are getting supplemental feeding here. It is 
necessary during this disaster period when there is not enough 
of the right kind of food that is available every day.
    [Photograph.]
    Mr. Peel. UNICEF is working with teen volunteers in this 
disaster area. And this happens to be a picture of two Boy 
Scouts. These Boy Scouts are helping to take care of a baby 
that was born in a temporary shelter just a few days before the 
picture took place. And these teens are working with the little 
kids in the area, education, and all kinds of different things 
on a volunteer basis.
    The Girl Scouts, Boy Scouts, and volunteer teenagers wear 
T-shirts, that say, ``Return to Happiness''. So they are trying 
to get people in the right frame of thinking about what happens 
after this disaster is over.
    Well, the reason I brought these pictures to tell you about 
these things is because this is the kind of work that UNICEF is 
able to do because of the United States contribution to UNICEF. 
Without a solid contribution to the general fund for UNICEF, 
UNICEF would not be able to do the kind of operations that you 
see here.
    Mr. Chairman, the American people do not want to see 
children dying of preventable diseases. And even though UNICEF 
has been able to save 2.5 million children a year from diseases 
that are preventable and tens of millions of children have 
better health, the situation is still very dangerous.
    Twelve million children a year die of preventable diseases. 
A hundred, sixty million children are malnourished around the 
world. That is the situation that we need to take care of. And 
that is why I urge you today to consider and to provide UNICEF 
with $110 million this fiscal year so they can move toward 
obtaining the goals of the World Summit for Children. If we 
work together with UNICEF, we can help the most disadvantaged 
children around the world.
    And I think if we do that, we will, in fact, do what these 
teens are saying on their t-shirts. It will give us the 
opportunity to ``return to happiness.''
    Mr. Callahan. I do not know that we can pursue your request 
for 110, but we are going to facilitate your request more 
favorably than the administration did.
    You mentioned Colombia. Just roughly, how much money did 
UNICEF spend in Colombia----
    Mr. Peel. Well, I think----
    Mr. Callahan [continuing]. As a result of the earthquake?
    Mr. Peel. I think that they probably spent less than a 
million dollars on all of these things.
    Mr. Callahan. What about Nicaragua and Honduras?
    Mr. Peel. I do not know how much. I would have to find that 
out.
    [The information follows:]

    As of May 1, 1999, UNICEF had expanded the following 
amounts: Nicaragua $2,800,000; Honduras $1,972,174.

    Mr. Callahan. Were they active there?
    Mr. Peel. Yes. They are active in all locations. In 
Colombia, they were particularly active because they were the 
first people in because they have a very active program in this 
area of Colombia. And they were able to bring in portable 
sanitation facilities and water pipes and help with the housing 
situation.
    People are living in cattle barns there. Whole towns that I 
saw were just completely flat. Just drive into town. It is just 
crumpled buildings.
    Mr. Callahan. Well, we appreciate your testimony and sure 
know you still have great respect, have more respect now than 
you had when you were there. [Laughter.]
    Mr. Peel. Thank you, Mr. Chairman.
    [The information follows:]


[The official Committee record contains additional information here.]


    Ms. Pelosi. Thank you, Terry, for your beautiful 
presentation. Last time, remember, Mr. Chairman, when we went 
to the luncheon, he had the pictures from Africa. I think there 
is going to be a book at the end of this, ``Terry Peel: 
Children of the World.'' It speaks so eloquently to your 
compassion and your great leadership and effectiveness.
    Mr. Callahan. Thank you, Terry.
    Mr. Peel. Thank you.
                              ----------                              

                                           Thursday, March 4, 1999.

                              MICRO CREDIT


                                WITNESS

HON. BILL LUTHER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MINNESOTA
    Mr. Callahan. Mr. Luther? Welcome. As you probably heard, 
we do enforce the five-minute rule, but we are a little bit 
more generous with members. But we do have a long agenda. We 
will accept your written statement for the record.
    Mr. Luther. Thank you very much, Mr. Chairman. I will be as 
brief as possible. And thank you very much, members, for all of 
the good work that you do on this Committee. I am aware of 
that, and I enjoyed listening to some of the testimony here 
today.
    [Photograph.]
    Mr. Luther. I am here today to voice my support for an 
initiative which is funded within this budget. As you know 
better than anyone, micro credit is the process of providing 
very small loans to very poor people for the start-up or 
expansions of small business ventures. And I know you have 
heard it, high repayment rates, 95 percent and above, that 
micro enterprise programs enjoy. And the cost efficiency of the 
program says they recycle previous foreign aid dollars.
    What I want to do is emphasize the fact that micro credit 
allows borrowing families to protect and provide for their 
children, much as child survival funds do. Most micro credit 
borrowers are women who reinvest the money they have saved from 
their micro credit ventures in their family's health and basic 
education.
    Micro credit is a proven method of ending the worst aspects 
of poverty in some of the most destitute places in the world. 
Unfortunately, despite its proven track record, micro credit 
has not been utilized to its full potential.
    Funding for micro credit within the United States Agency 
for International Development has not kept pace with the 
growing capacity to lend. According to a number of 
practitioners, capacity for expanded micro credit work exists 
in Latin America, Asia, and, especially Africa.
    In addition, despite the fact that U.S. AID set the goal in 
'94 of directing half of all overall micro enterprise funds to 
programs serving the poorest people in loans of 300 or less by 
the end of '96, only about 41 percent is currently reaching 
this target population.
    I know you are in a difficult position on this Committee, 
but I ask that you consider protecting and expanding funding 
for micro credit in Fiscal Year 2000 and especially that you 
protect micro credit funding for the very poor in loans of 300 
or less. Specifically, I would ask that you set aside 160 
million for micro credit next year with at least half of that 
amount, again, 80 million, directed toward programs that serve 
the poorest people in the world.
    Thank you, Mr. Chairman, members, for considering my 
request.
    [The information follows:]

[The official Committee record contains additional information here.]


    Mr. Callahan. Thank you, Bill.
    What did the administration request for micro credit this 
year?
    Mr. Luther. Similar to last year.
    Mr. Callahan. One thirty-five? What did we do last year?
    Mr. Luther. One thirty-five.
    Mr. Callahan. One thirty-five last year?
    Mr. Luther. That is correct.
    Mr. Callahan. And then the administration has requested 135 
this year?
    Mr. Luther. That is correct.
    Ms. Pelosi. Mr. Chairman?
    Mr. Callahan. Yes?
    Ms. Pelosi. If I may say that the gentleman's request is, 
an excellent one and a reasonable one because I do believe that 
there is the absorptive capacity among the NGOs serving the 
countries and continents that were suggested to absorb and to 
make these loans. I hope that we could get a higher figure than 
135.
    Mr. Callahan. Thank you.
    It certainly is a program that this Committee is very 
supportive of.
    Mr. Luther. Yes. I am aware of that. And I thank you for 
that. And I think that 50 percent target for the poorest of the 
poor if that could be employed again----
    Ms. Pelosi. Very important.
    Mr. Luther. I appreciate that so much. Thank you.
    Mr. Callahan. Thank you.
    Any questions?
    [No response.]
    Mr. Callahan. Thank you very much.
    Mr. Luther. Thank you.
    Mr. Callahan. No other members are here. All right. We will 
go first to Ms. Austin, Joyce Austin with Helen Keller 
Foundation. Ms. Austin? Good morning to you.
    Ms. Austin. Good morning.
    Mr. Callahan. We will accept your statement for the record.
    Ms. Austin. Thank you very much.
                              ----------                              

                                           Thursday, March 4, 1999.

           FUNDING FOR BLIND CHILDREN AND VITAMIN A PROGRAMS


                                WITNESS

JOYCE AUSTIN, MEMBER, BOARD OF TRUSTEES, HELEN KELLER INTERNATIONAL
    Ms. Austin. Mr. Chairman, members of the Committee, I am 
pleased to be here today representing Helen Keller 
International. The specific purpose of my appearance before the 
Subcommittee is twofold. First, I want to encourage you to 
include language supporting funding for blind children in your 
Committee report. And, second, I want to encourage continued 
funding for Vitamin A programs.
    As a member of the Board of Trustees of Helen Keller 
International, I am also here to illustrate some of the 
important work that we are doing to help blind children around 
the world and to prevent others from going blind.
    Helen Keller International is a United States-based 
private, voluntary organization once guided by and now 
dedicated to the spirit of Helen Keller. It has been a world 
leader in blindness prevention and rehabilitation since 1915 
and currently manages activities in over 30 countries 
throughout Asia, Africa, and the Americas.
    In addition to my service with Helen Keller International, 
I am a lawyer and a retired executive with the NAFTA Process 
Planning and Coordinating Organization in New York City, where 
I still reside.
    Moreover, through my earlier city, state, and federal 
government experience, I have seen great strides in the 
appropriation process. And I am aware of how important it is 
for private citizens to become involved.
    Mr. Chairman, I want to thank the Committee for the 
dedication it has displayed on behalf of children. Your 
previous support of child survival and of blind children, in 
particular, has had a lasting impact on many lives. 
Specifically, as a result of cataract funding received by Helen 
Keller, over 1,000 children have benefitted from sight-
restoring surgeries, which means that you have helped avert 
over 50,000 years of blindness. This important work must 
continue.
    According to the World Health Organization, there are 1.5 
million blind children, 7 million children suffering from low 
vision, and 10 million children with refractive errors 
throughout the world. It is estimated that 500,000 more 
children go blind each year. That is one child for every minute 
of every day. Unfortunately, many of these children also die 
before they reach maturity. The causes of childhood blindness 
vary from place to place and change over time.
    Cataracts and Vitamin A deficiency are among the major 
culprits. Thanks to the Committee's recommendation in previous 
years, progress has been made. For example, Helen Keller 
International was able to help the Ministry of Health in 
Morocco establish two childhood blindness centers. These 
centers have served as a model for 13 additional centers that 
have been established in Mexico, the Philippines, South Africa, 
and Bangladesh, thus serving children on three continents.
    Surgical technology and expertise offer children afflicted 
with cataracts a chance to progress from darkness into the 
light. As parents and their children see the surgical 
interventions and consistent followup care can open up doors to 
mainstream schools and improve quality of life, demand for 
these services will increase.
    In addition to our work fighting cataracts in children, 
Helen Keller also has a long history of partnership and success 
working with U.S. AID to combat nutritional blindness, an 
enormous problem that is prevalent in the developing world.
    It is estimated that 250 million children of preschool age 
around the world lack sufficient Vitamin A in their diet. Two 
million of these children will die each year, and 350,000 will 
become blind.
    This tragedy can be combatted either by distributing 
capsules of Vitamin A, fortifying foods or promoting the 
consumption of Vitamin A-rich foods through gardens and 
education. Restoring adequate Vitamin A stores to these 250 
million children will not only prevent blindness, but it will 
also reduce the numbers who subsequently die of infectious 
disease by almost one-quarter.
    Helen Keller International was instrumental in the effort 
that demonstrated the relationship between Vitamin A, saving 
sight, and saving lives. As a result, we began capsule 
distribution in the 1970s and since 1987 have distributed over 
12 million Vitamin A capsules. Helen Keller International 
continues to remain at the forefront of the development of 
innovative programs to help children save their sight.
    Mr. Chairman, I would like to thank the Committee for your 
attention to this important issue. Together through the 
implementation of these simple, cost-effective health 
interventions, we can dramatically improve the vision and save 
the lives of many children around the world.
    As a member of the Board of Trustees of Helen Keller 
International, I am acutely aware of the need for support of 
blind children. In the past, you have recommended one million 
dollars in child survival funds to be used for children who are 
blind. I respectfully urge you to support that level of funding 
in your Committee report for the year 2000.
    Thank you for your consideration.
    [The information follows:]

[The official Committee record contains additional information here.]


    Mr. Callahan. Thank you, Ms. Austin.
    And thank you for volunteering to serve on this board. As 
you know, Helen Keller has strong roots in Alabama, my home 
state. And this Committee, as you are well-aware, is very 
sympathetic to the causes that you represent. And I see no 
reason why the Committee will not continue to do as it has in 
the past to make the recommendations as to child survival.
    Ms. Austin. Thank you. It is an honor to serve on the Board 
of Helen Keller and an honor to be present today. Thank you.
    Mr. Callahan. I sleep well at night knowing all of these 
people who would be suffering for years to come now have sight. 
And with such rapid advancement of technology and research now 
to correct vision deficiencies, your work is going to be even 
more rewarding in the near future.
    Ms. Austin. Thank you.
    Mr. Callahan. Any questions?
    [No response.]
    Mr. Callahan. Thank you very much.
                              ----------                              

                                           Thursday, March 4, 1999.

                   GLOBAL CAMPAIGN TO ERADICATE POLIO


                                WITNESS

HERBERT A. PIGMAN, ROTARY INTERNATIONAL
    Mr. Callahan. Mr. Pigman, welcome. Good to see you, sir. 
Rotary International. We will accept your statement for the 
record and tell you that I talked the other night with your 
Rotary people in Mobile and former chairman of I guess the 
national Rotary there. And we also have communications 
occasionally with one of your predecessors, Mr. Herb Brown of 
Tampa.
    The Committee is very supportive of your program. It is a 
model for other service organizations to copy. We congratulate 
you.
    And I mentioned the last time I spoke to the Rotary Club in 
Mobile when they gave me the Paul Harris Award, every year you 
come before my Committee you give me a map. And every year, the 
map gets greener and greener because those are the areas where 
you have helped to eliminate polio.
    So welcome to the Committee.
    Mr. Pigman. Thank you, Mr. Chairman and members of the 
Committee.
    I did bring my map.
    Mr. Callahan. Yes, you did. It is not green now; it is red.
    Mr. Pigman. It is diminishing red.
    Well, the global campaign to eradicate polio continues to 
be one of the great success stories in public health. And the 
funding which this Committee has provided to U.S. AID for the 
past three years has played a very significant role in that.
    And I am here on behalf of Rotary and its 400,000 members 
in the United States as well as a coalition here in the United 
States comprising UNICEF, Committee for U.S. AID, March of 
Dimes, Academy of Pediatrics, and the Task Force for Child 
Survival to express the hope that your Committee can provide 
that level of funding for Fiscal Year 2000.
    [Chart.]
    Mr. Pigman. This was the situation in 1988 when the global 
campaign to eradicate this disease was launched, the only polio 
virus circulated on all continents at that time. And after 
concerted effort, here is the picture today with polio 
confined, essentially, to South Asia and to sub-Saharan Africa 
and just one part of Europe, the border at Iran, Iraq, Syria, 
and Turkey. So if the necessary resources are provided on a 
timely basis, it looks very probable that the target year of 
2000 can be achieved.
    [Chart.]
    Mr. Pigman. Here is a brief time line for that. We are 
dealing with some 39 to 50 polio-endemic nations at the moment. 
We expect that by June of this year, polio will be eliminated 
from the last European focus. And that means that the Americas, 
the Western Pacific, China, and all of Europe will be free of 
this virus.
    By the end of '99, we expect it to be eliminated from East 
Africa; by June 2000, West Africa, French-speaking Africa, 
free; and then by December 2000, which is the target date, the 
countries in question are Nigeria, Democratic Republic of 
Congo, and Angola, two of those because of conflict situations.
    [Chart.]
    Mr. Pigman. The major reservoirs today are shown here. They 
are South Asia, Nigeria, Ethiopia, and Democratic Republic of 
Congo. In addition, there are about eight conflict countries. 
But the record shows that in conflict countries, it has often 
been possible to establish cease fires. That has been done on 
15 different occasions, enabling polio vaccine to be 
distributed through national immunization days across the front 
lines. Last year 450 million children were reached by 
immunization days, three-quarters of the world's children under 
5.
    The funding picture for the next three critical years shows 
the very substantial input by the United States. The United 
States is fueling this program from a donor nation standpoint. 
It has provided 40 percent of the external funding needs for 
the past 3 years.
    We expect this shortfall of $370 million to be made up 
through a combination of sources, including the possibility of 
a global appeal to the private sector, corporations, 
foundations, individuals.
    I will leave for you, Mr. Chairman, this chart of polio-
specific grants.
    [Charts.]
    Mr. Pigman. It shows the 40 percent United States 
contribution but also shows that Australia, Belgium, Canada, 
Denmark, Finland, Germany, Italy, Japan, Korea, Netherlands, 
and about six other countries are buying into this global 
strategy.
    There are also very strong indications by the new Director 
General of WHO, Harlem Brundtland, that this is one of her 
priorities, along with malaria and tobacco. And that new 
leadership is having a very positive effect on the accelerated 
strategy to defeat this disease.
    The United States is spending $230 million a year to 
protect its infants against the importation of this virus. That 
money will be saved when we can cease immunization, which is 
expected to be sometime after certification of the demise of 
the virus about the year 2005.
    It will be the second disease to be eradicated from the 
planet. And the first one was smallpox, as you know, 1979. The 
savings from that eradication now approach $20 billion.
    So this is an excellent investment. And we commend to you 
and your Committee continued wonderful support through the U.S. 
AID, which is doing an excellent job deploying its money in 
Asia and in Africa.
    [The information follows:]


[The official Committee record contains additional information here.]


    Mr. Callahan. We thank you, Mr. Pigman. And you may write a 
note to your 400,000 Rotarians and tell them that Mrs. 
Kilpatrick, Mr. Porter, Mr. Lewis, and Mr. Callahan guarantee 
them that continued funding is coming.
    Mr. Pigman. That is very good news.
    Mr. Porter. Mr. Chairman?
    Mr. Callahan. Thank you.
    Yes?
    Mr. Porter. Could I ask Mr. Pigman if any decision has been 
made by Rotary regarding what they are going to target after 
2003, when this long, long project to eradicate polio has been 
finally completed?
    Mr. Pigman. Well, we have been at polio now for 20 years. 
And that question often arises, Mr. Porter. We have diverted it 
because we want to keep our focus on eradicating polio, a 
position which is supported by the medical experts.
    Let us get this job done. Let us establish this victory, 
which is very much needed. I would hope that the tremendous 
volunteer army that Rotary deploys on this will not be disarmed 
after polio is defeated, but I am not prepared at this time to 
say what the new salient will be.
    Mr. Callahan. I am optimistic that it will be.
    Mr. Pigman. Well, there are many challenges out there.
    Mr. Callahan. Yes.
    Mr. Pigman. Thank you, Mr. Chairman.
    Mr. Callahan. Thank you.
    Mr. Pigman. One further thing. Mr. Chairman, members of the 
Committee, we would welcome your participation and observation 
at one of the national immunization days, which there will be 
some 40 in the world. I will provide you with a copy of that 
schedule. I think nothing is more convincing than to see one of 
these.
    In India last January, 133 million children were immunized 
in a single day in a volunteer army that was ten times greater 
than the force that landed on Normandy in one day.
    Mr. Callahan. We welcome the information. I am sure some of 
us would like to attend.
    Mr. Pigman. Thank you.
    Mr. Porter. That was in India?
    Mr. Pigman. In India, yes.
    Mr. Callahan. Thank you very much.
    Mr. Siemens with Kiwanis International.
                              ----------                              

                                           Thursday, March 4, 1999.

                      IODINE DEFICIENCY DISORDERS


                                WITNESS

STEPHEN SIEMENS, KIWANIS INTERNATIONAL
    Mr. Siemens. Thank you very much.
    Mr. Callahan. Thank you, sir.
    Mr. Siemens. The sun is shining, and it is a beautiful day. 
And we are glad to come and share for a couple of minutes the 
international work beings done by Kiwanis International. I am 
happy, Mr. Chairman, to appear before the Subcommittee today in 
support of programs to eliminate the causes of preventible 
mental retardation of children.
    Because of the actions taken last year by this 
Subcommittee, Kiwanis International in partnership with UNICEF 
has been able to take new steps in our efforts to virtually 
eliminate iodine deficiency disorders around the world.
    I am Steve Siemens from Des Moines, Iowa. And I am the 
Chairman of the Kiwanis International Worldwide Service 
Project. Seated beside me today from Natchitoches, Louisiana is 
the President Elect of Kiwanis International, Nettles Brown.
    Mr. Brown is the incoming President of Kiwanis 
International, which has a quarter of a million members in the 
United States, more than 600,000 clubs in every state in the 
nation.
    Today nearly 600,000 young and adult members of the Kiwanis 
family have declared the world their community and have joined 
in partnership with the United Nations Children's Fund to help 
virtually eliminate iodine deficiency disorders around the 
globe.
    In my lifetime I do not know that I will ever have an 
opportunity to change the world. This project is an opportunity 
for me along with others to virtually make a difference. That 
excites me.
    More than 500 million children in more than 115 countries 
are estimated to be at risk of a lack of iodine. Iodine 
deficiency disorder, or IDD, results in high levels of 
stillbirth, mental retardation, physical disabilities, thyroid 
problems, and the prevalence of goiters in children and in 
adults.
     Recent studies have indicated that a lack of iodine in the 
diet can reduce by 15 points the IQ of whole populations. Yet, 
the solution to the iodine deficiency disorder is simple. It 
has been available since the 1920s. IDD was virtually 
eliminated in the United States by iodizing salt.
    Iodization of salt prevents these disorders, reverses many 
existing conditions, and will improve mental capabilities and 
productivity in iodine-deficient populations. For a few pennies 
per person, we are able to iodize salt in other parts of the 
world.
    Kiwanis' contributions to this date have prevented over 
eight million children from being born mentally disabled each 
year. Thousands of Kiwanis clubs have already worked together 
to make gifts totalling--and this has happened in the last five 
years--half of the $75 million that we are committed to raise.
    Countries that eliminate IDD not only help their children 
but also reduce the dependency on the country and foreign 
assistance. It has been estimated that every dollar invested in 
the elimination of IDD will reduce social costs more than $20.
    Mr. Chairman, we have a true working partnership with 
UNICEF. UNICEF has made it possible for Kiwanis members and 
their supporters to demonstrate what the private sector can do 
for children. And because of the actions taken by this 
Subcommittee last year, we are able to welcome the U.S. Agency 
for International Development as another partner in our effort.
    U.S. AID has followed your Committee's recommendations and 
will be announcing shortly that they will provide $2 million 
towards the Kiwanis-UNICEF effort to eliminate IDD. It is also 
my understanding that the U.S. AID is looking at a high-
priority IDD UNICEF-Kiwanis project in the former Soviet Union.
    Mr. Chairman, I would ask the Committee to consider taking 
three actions in support of eliminating the cause of 
preventable mental retardation in children.
    First of all, continue the efforts that were begun last 
year to make it known to the American people the importance of 
eliminating this disorder.
    Second, support our partner, UNICEF, by providing them with 
110 million in funding for their overall programs for the 
upcoming fiscal year.
    Finally, I encourage you to recommend that the U.S. Agency 
for International Development continue to provide additional 
funding to support the Kiwanis-UNICEF iodine deficiency 
program. The more funds that are available for this program, 
the faster we can solve the problem. This year U.S. AID is 
providing two million from the Child Survival and Disease 
Programs Fund.
    Mr. Chairman, I urge you to support the continuation at the 
$2 million level of funding for this project. I also hope that 
you will recommend an additional one million be made available 
from the accounts for the former Soviet Union to provide urgent 
IDD needs in that area of the world.
    You have sitting on the table here a visual. It is a gavel 
that if you use might inflict some pain. I want to show you a 
visual that motivates me. It is children. And it is a person 
that we have been able to make a difference for in her life. 
This is because of the opportunity to iodize some salt and to 
do a very, very simple thing that is within our hands, within 
our grasp.
    I know there are lots of other issues, but that is a legacy 
that we at Kiwanis International want to leave in the lives of 
people. And it is a legacy that you are a part of. I know that 
you and the members of your Committee will share our joy in 
being a part of eliminating the single largest preventable 
cause of mental retardation in the world.
    I thank you very, very much for your consideration and the 
opportunity to share these thoughts.
    [The information follows:]

[The official Committee record contains additional information here.]


    Mr. Callahan. We thank you, Mr. Siemens; you, too, Ms. 
Rosen, for joining us today. And, as you are aware, the 
Committee has in the past been very supportive of your program. 
And we encourage the Kiwanians worldwide to expand their 
program and also encourage other service organizations to join 
with you and Rotarians in providing these worldwide services to 
relieve human misery.
    Thank you very much.
    Mr. Lewis. Mr. Chairman?
    Mr. Callahan. Yes, sir?
    Mr. Lewis. I want to say that I have been off the Committee 
for some time, as you know, and it is a pleasure to be back.
    Picking up on a note that was made by my colleague, John 
Porter, privately a while ago, Rotarians, on the one hand, had 
133 million children in India, the last battle or steps to win 
the battle against polio in this effort to deal with children 
and mental retardation. I wonder why the media just will not 
pay a little bit of attention to these fantastic things that 
Americans like you are involved in.
    I want you to know I appreciate it very much.
    Mr. Siemens. Thank you. And that is a good question and a 
good comment.
    I was governor of our district in Kiwanis. We raised $2 
million in one day to eliminate iodine deficiency disorder from 
the world. We could not get one newspaper, one television 
station to come and to give us any press. Point well-taken.
    Mr. Porter. Mr. Chairman? You say that the goal is 
preventable mental retardation in children. I assume that IDD 
is one part of that goal.
    Mr. Siemens. That is the focus. That is the goal.
    Mr. Porter. What is your timetable?
    Mr. Siemens. Right now we have $20 million worth of 
requests that we would fund today if we had the money. Our goal 
is to raise 75 million by the end of 2000 and virtually get 
it----
    Mr. Porter. And that would do it by the end of 2000?
    Mr. Siemens. Yes.
    Mr. Porter. Are there not other areas where you have 
preventable mental retardation in children besides iodine 
deficiency?
    Mr. Siemens. Probably, but we believe this is one that is 
of utmost importance. It is the leading cause, but it is also 
something that we can do something about that immediately 
changes the lives of those kids.
    Mr. Porter. Well, I commend you for a wonderful job. And we 
should give you all the help we can.
    Mr. Siemens. Thank you.
    Mr. Callahan. Thank you, Mr. Siemens.
    Mr. Hinchey is here. We normally let members, especially 
when we have adjourned for the week. Is he here now? Are you 
here?
    Mr. Hinchey. Yes.
    Mr. Callahan. Yes, sir?
    Mr. Hinchey. Mr. Chairman, thank you.
    Mr. Callahan. We are enforcing the five-minute rule, but 
for you, Maurice, we will expand it but hope you understand 
that a lot of other members have got to get out of town today.
    Mr. Hinchey. Yes, I do, Mr. Chairman, and I will hopefully 
be less than five minutes.
    Mr. Callahan. Good.
                              ----------                              

                                           Thursday, March 4, 1999.

                       UKRAINIAN DEMOCRATIZATION


                                WITNESS

HON. MAURICE D. HINCHEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
    Mr. Hinchey. I very much appreciate the opportunity to be 
able to come before you today and the other members of the 
Committee and talk about an issue that is important to me and I 
think important to the country and important to the world. And 
I do so on behalf of the Congressional Ukrainian Caucus, of 
which I am a member. It is a bipartisan caucus here made up of 
members primarily who have traced their ancestry to the Ukraine 
or who are interested in it for other reasons.
    During the past year, Ukraine has taken a number of 
significant steps toward reforming its economy and establishing 
a strong and stable democratic government. Most recently the 
Ukrainian Parliament adopted a state budget for the year, which 
included the lowest annual budget deficit since Ukrainian 
independence.
    In October of last year, a three-year plan was approved by 
the cabinet ministers to modernize the nation's accounting 
standards. This achievement will remove a major impediment to 
foreign investment to the Ukraine.
    In addition, Ukraine is working to broaden its tax base, 
lower rates on its current system, while at the same time 
legislation has been completed to provide for a comprehensive 
new tax code, which will be presented to the Rada this spring.
    In addition, Ukraine has undertaken a number of efforts to 
streamline its public administration, establish a fully 
functional treasury, increase the number of private 
enterprises, and reform its commercial markets.
    Despite this encouraging progress, I, along with my 
colleagues in the caucus, am fully aware that much still needs 
to be done. Combatting corruption, which persists as a remnant 
to the former Soviet Union, remains a substantial challenge for 
the current Ukrainian government.
    I believe that continued support from the United States 
will provide the best mechanism for addressing these concerns. 
The United States should play a key role in assisting Ukraine 
to further establish a pluralistic and democratic society based 
upon the principles of law and a free market system.
    Last year, Mr. Chairman, as you know, Congress earmarked 
$195 million in foreign assistance to Ukraine. In addition to 
the economic reforms facilitated by this funding, Ukraine has 
reaffirmed its role as a vital strategic partner of the United 
States; evidenced by its refusal to participate with Russia in 
providing nuclear technology to Iran, for example.
    This action along with its history of demilitarization and 
peacekeeping efforts allowed Ukraine to sign the agreement on 
peaceful nuclear cooperation with the United States, thereby 
allowing American companies to consider contracts in Ukraine's 
nuclear fuel industry.
    By continuing our support for Ukraine, we will enhance its 
ability to address many of the remaining issues inherent to 
establishing a solid investment climate in that country. This 
includes public administration reform, which is necessary to 
streamline many of the largely bureaucratic institutions in 
Ukraine, as well as the ability to reform government structures 
which operate to provide services to the population.
    In addition, U.S. foreign assistance will facilitate 
further reform of Ukraine's civil code and commercial law. By 
identifying laws which address the needs of Ukraine's business 
environment, these policies will help to encourage an 
investment climate that attracts foreign as well as domestic 
investors.
    Finally, our actions will be instrumental in developing 
anti-corruption programs, which will provide governmental 
integrity and reduce corruption through initiatives in regional 
and local governments.
    The objectives of peace, stability, and democracy in 
central and eastern Europe have been enhanced particularly 
because our country remains actively engaged through our 
foreign assistance in a bilateral relationship with Ukraine.
    As the Subcommittee continues to work on the Fiscal Year 
2000 foreign operations bill, I and the rest of the 
Congressional Ukrainian Caucus encourage you, Mr. Chairman, to 
demonstrate your continued strong support for Congress' 
successful foreign assistance policy toward Ukraine for an 
additional year.
    Let me just say on my own behalf, Mr. Chairman, I have had 
the opportunity to visit Ukraine. I have been to Kiev. I was 
there, in fact, as an observer during the first election that 
took place. This is a country that has come out of communism, 
come out of communist domination, domination by the tsar and by 
other countries, the Hapsburg empire, in part, before that, and 
is now for the first time having an opportunity to fully 
realize a democratic system.
    It has carried off now successfully two elections. And it 
has been able to do so I think primarily because of the fact 
that we have been behind them, that we have been there, that 
our strong force has been there for them to rely upon. And if 
we take it away, I fear for what might happen.
    Ukraine is a country that can go either way right now. It 
can emerge from this as a strong partner to the United States, 
helping us to stabilize central Europe, or it can just fall 
asunder. It can fall to pieces. And that would not be in our 
interest or the interest of the world.
    So, for these reasons, Mr. Chairman, I appeal to you and 
the other members of the Subcommittee to do what you can to 
help us in this regard.
    [The information follows:]


[The official Committee record contains additional information here.]

    Mr. Callahan. Thank you, Maurice.
    Certainly if we do not, the Senate does through the efforts 
of Senator McConnell. I understand there is also something to 
be submitted for the record by an official of the Ukraine.
    Mr. Hinchey. I thought there was, yes.
    Mr. Callahan. Well, whenever it is, we will accept it for 
the record.
    Thank you.
    Mr. Porter. Mr. Chairman, Mr. Hinchey ought to recognize 
your new gavel.
    Mr. Hinchey. It is very impressive.
    Mr. Callahan. Those people who violate the rule, we are 25 
minutes behind now. Thank you very much.
    Mr. Hinchey. Mr. Chairman, thank you.
    Mr. Callahan. You are welcome.
    Dr. Chaisson? Dr. Chaisson, we will accept your entire 
statement for the record and ask that you abbreviate your 
statement to the Committee.
                              ----------                                


                                           Thursday, March 4, 1999.

                      GLOBAL TUBERCULOSIS CONTROL


                                WITNESS

DR. RICHARD CHAISSON, INTERNATIONAL UNION AGAINST TUBERCULOSIS AND LUNG 
    DISEASE
    Dr. Chaisson. Yes. Thank you, Mr. Chairman. It is a 
pleasure to be back here to talk to you again very briefly 
about global tuberculosis control.
    I am Richard Chaisson. I am Director of Tuberculosis 
Control for the City of Baltimore and a professor at Johns 
Hopkins. We heard a lot about a number of diseases today. I 
would just like to make a couple of brief points about the 
tuberculosis epidemic.
    Tuberculosis, despite having the tools for control for the 
last 50 years, remains the leading infectious cause of death in 
the world. One out of every 25 deaths from any cause in the 
world is from tuberculosis, and a quarter of all premature 
deaths in the world are the result of tuberculosis. It is an 
extraordinary global epidemic.
    Recently the global situation has gotten much worse, not 
better, with the emergence of AIDS-related tuberculosis and 
drug-resistant tuberculosis, particularly in Latin America, the 
former Soviet Union, and Asia.
    Tuberculosis control remains one of the most cost-effective 
approaches to public health. Yet, the global effort has 
faltered. The result of that is here in the United States, is 
quite apparent. We have had success in the last decade in 
turning around our tuberculosis situation, and now we see that 
a growing proportion, 40 percent last year, of all TB in this 
country is from people born in other countries who migrate 
here, this has more than doubled in the last 8 years.
    And foreign cases of tuberculosis are increasing 
dramatically and will soon represent most TB in the United 
States. This is a particular problem in cities with large 
immigrant populations, in states with migrant populations, and 
states along the border with Mexico.
    So there is a clear-cut need to control tuberculosis 
globally if we hope to control it locally. Thanks to the vision 
and forceful leadership of this Committee with this emerging 
and reemerging infectious disease initiative, USAID has made an 
outstanding start to controlling tuberculosis.
    The tools that have worked in this country, which include 
leadership, coordination of a response of the application of 
known principles and innovation, are now being applied to the 
global situation through a global plan that USAID has 
spearheaded, which now other organizations in other nations are 
contributing to.
    So the funds from USAID have leveraged a tremendous 
response from the international community, and a global plan is 
now underway. Perhaps in a few years we will be able to tell 
you success stories such as you have heard with the polio 
eradication.
    To be very specific, what we would like to suggest is that 
a TB-specific appropriation in the amount of $60 million be 
included in the USAID budget to allow for the continued support 
of the global control program in collaboration with the CDC, 
the NIH, and the World Health Organization that additional 
funds be available for country-specific control plans in these 
high-incident countries that surveillance be continued, 
particularly surveillance for drug resistance, and that the 
continued support of training of foreign and domestic TB 
control experts, Fogarty International Center at the NIH, be 
supported.
    And, finally, I will say in answer to a question that came 
up earlier that we have a very good idea of what the Rotary 
International can do in 2003, which is to turn their attention 
from the polio campaign to tuberculosis.
     Thank you.
    [The information follows:]


[The official Committee record contains additional information here.]


    Mr. Callahan. That is a good idea also. If they are as 
successful with their experience, maybe we could eradicate it 
worldwide. We certainly will entertain your suggestions and 
appreciate very much you coming forth.
    Dr. Chaisson. Thank you very much.
    Mr. Callahan. Mr. Kohr. Welcome. We are running short of 
time, and we are requesting that everyone submit their written 
statement and address the Committee. And we will accept your 
written statement.
    I am sure this is not the last interaction we will have 
from you. So there is no need to get it crammed all into today.
    Howard, good afternoon.
                              ----------                              

                                           Thursday, March 4, 1999.

                        U.S.-ISRAEL RELATIONSHIP


                                WITNESS

HOWARD KOHR, EXECUTIVE DIRECTOR, AMERICAN ISRAEL PUBLIC AFFAIRS 
    COMMITTEE
    Mr. Kohr. Good afternoon, members of the Subcommittee. It 
is a privilege once again to be here before the Subcommittee to 
speak in support of a strong U.S.-Israel relationship and the 
assistance the United States provides Israel each year to 
advance our shared goals.
    I speak as the Executive Director of the American Israel 
Public Affairs Committee, a nonpartisan membership organization 
of American citizens interested in promoting a close 
partnership between our nation and Israel.
    In my brief remarks, I want to focus on three key areas of 
concern today: the proliferation of weapons of mass 
destruction, the peace process, and aid to Israel in the Wye 
River supplemental.
    In this post-Cold War world, each year is tragically more 
dangerous than the one before. Each passing year means rogue 
states in the Middle East and elsewhere are closer to acquiring 
and developing weapons of mass destruction and the missiles 
needed to deliver them.
    As DIA Director Lt. General Patrick Hughes recently 
testified, and I quote, ``The proliferation of weapons of mass 
destruction technologies and missiles constitutes the single 
greatest threat to the United States vital national interest. 
Over the next years, several states will likely join the 
nuclear club. Chemical and biological weapons will be widely 
proliferated. And the numbers of medium-range theatre, 
ballistic, and cruise missiles will increase significantly, 
particularly in the Middle East,'' end quote. Those are 
frightening prospects.
    Particularly with the assistance of Russia, China, and 
North Korea, Iran's active nuclear missile program gets that 
much closer to becoming reality. As dangerous as that reality 
is to United States troops and interests in the Middle East, 
imagine what that reality means to Israeli military planners, 
who do not yet have an operational missile defense system in 
place.
    We hope to continue working with you and other members of 
this Subcommittee in trying to find ways to slow down Iran's 
unconventional weapons program and in making sure that Iraq's 
program is not reconstituted.
    On a more positive note, it is important to step back and 
assess all that has been achieved over the past several years 
in advancing peace between Israel and her neighbors. There is a 
real peace between Israel and Jordan marked by close diplomatic 
ties, trade, and tourism.
    With the Palestinians, although the process is slowing down 
for now, a tremendous amount has already been accomplished.
    There is today a vibrant Palestinian Legislative Council, a 
Palestinian Authority which has jurisdiction over 98 percent of 
the Palestinians living in the West Bank and Gaza, a 
Palestinian airport, a Palestinian Broadcast Corporation, a 
Palestinian stamp, to mention just a few. Twenty nine percent 
of the West Bank is under the full civil administration of the 
Palestinian authority.
    And under the Wye Agreement, after full compliance by the 
Palestinians, Israel has agreed to cede an additional 11% of 
West Bank land, thus agreeing to provide the Palestinians with 
either full or joint control of over 40% of the West Bank even 
before the beginning of the substantive final status 
negotiations.
    The one disappointment throughout this process has been the 
Palestinian unwillingness to take its security obligations more 
seriously. Five and a half years after Prime Minister Rabin and 
Chairman Arafat shook hands on the White House lawn, when 
Israel agreed to give up land for security, Israel has signed 
several agreements to give up more and more land, while the 
Palestinians keep promising to live up to the same commitments 
that they have routinely been ignoring.
    Finally, a few words about the importance of the U.S. aid 
program to Israel's security and well being, and to the United 
States' vital national interest.
    The threats of war and the promise of peace that Israel 
faces each day come at a substantial cost. The annual U.S. aid 
package to Israel is a key pillar to help maintaining peace and 
stability in the Middle East by providing Israel with the 
wherewithal to defend itself and maintain its qualitative edge.
    U.S. aid directly strengthens our national security while 
improving the prospects for peace in the region. Economic aid 
has helped Israel repay the large number of military loans she 
had to take out as a result of the Camp David Accords; loans 
which, unlike those of other countries in the region, were 
never forgiven by the United States.
    I want to publicly thank and commend you, Mr. Chairman, for 
the leadership role you took last year in helping to craft and 
implement Israel's aid restructuring proposal. Last year this 
subcommittee took the first step in realizing this ten year 
plan which, as the Prime Minister Netanyahu pledged to 
Congress, will eventually lead to the elimination of the United 
States' economic assistance.
    While Israel will require less and less economic aid over 
time, this package provides additional military assistance to 
Israel, one-quarter of which may continue to be spent for the 
research and development of weapon systems in Israel in 
recognition of its growing and more costly security demands.
    As you well know, this was not an easy or risk-free 
decision for the government of Israel to take, but it did so in 
large part because of its confidence in you, Mr. Chairman, and 
the members of this Subcommittee, that once an agreement was 
reached, it would be adhered to.
    And we believe strongly that the agreement should continue 
to be adhered to. We look forward to working with you to ensure 
this agreement's continued and completed implementation.
    Since that agreement was reached, of course, another 
unexpected agreement was signed last October as a result of the 
Wye River Summit. The so-called Wye River Memorandum was an 
important milestone in getting the stalled peace process back 
on track.
    The United States, in addition to playing a central role in 
negotiating the Wye Memorandum, took a forthright obligation to 
help defray the risks and costs associated with its 
implementation.
    Those risks and costs for Israel are considerable and are 
expected to far exceed the $1.2 billion that the Administration 
has requested. This aid, in additional to fulfilling a 
commitment made by the United States, will be critical to 
ensuring that the peace process is sustained.
    United States diplomacy in the Middle East has been most 
successful when backed up by our financial support, especially 
when helping former adversaries adapt to a new, but risky 
relationship. We hope you will find a way to support the Wye 
package to provide an extraordinary, one shot infusion of 
assistance to those taking risks for peace.
    In conclusion, the world, unfortunately, has not become a 
safer place with the end of the Cold War. In some respects, it 
is now more dangerous than ever. The Middle East, in 
particular, is one of the world's most dangerous areas, and yet 
one of the most important for U.S. interests.
    Each member of this Subcommittee should share in the pride 
we all feel as Israel is completing her 50th year of 
independence because each of you has made a critical 
contribution to ensuring that Israel not only survives, but 
thrives, despite all the odds against her.
    As we look ahead to the next 50 years, your support and 
understanding will be even more important as Israel, together 
with the United States, rises to meet threats and challenges 
far beyond those envisioned by her founding fathers.
    We look forward to working together with you to help 
address those common threats.
    Thank you very much.
    [The information follows:]

[The official Committee record contains additional information here.]


    Mr. Callahan. Thank you. I do not have any questions.
    Thank you very much, sir.
    Ms. Miller. As you know, we are pressed for time and way 
behind, so we will accept your entire statement for the record, 
but we ask you to abbreviate it.
                              ----------                              

                                         Thursday, March 4, 1999.  

                             SEEDS OF PEACE


                                WITNESS

LINDSAY MILLER, VICE PRESIDENT, SEEDS OF PEACE
    Ms. Miller. Good afternoon, Mr. Chairman.
    My name is Lindsay Miller. I'm Vice President of Seeds of 
Peace. I want to thank you and the other members of this 
committee for the opportunity to talk to you briefly about an 
extraordinary organization.
    Seeds of Peace promotes understanding and peace by bringing 
together Arab and Israeli teenagers and youth from other 
turbulent regions for a unique conflict resolution program in 
Maine. In this safe and neutral setting, these youngsters, age 
13 to 15, overcome prejudice, fear and anger and learn to live 
together.
    Seeds of Peace has no political agenda other than to form 
bonds of trust and friendship between young people who have 
been separated by conflict and war. We do not take positions on 
the Arab/Israeli conflict and we are a nonpolitical, nonprofit 
organization.
    Seeds of Peace is changing the future. It is changing the 
attitudes of teenagers caught up in a bitter and historic 
conflict that has persisted for too long and taken too many 
lives. But unless the attitudes and experiences of young people 
are changed and the barriers of suspicion and mistrust are 
broken down, peace will remain elusive.
    Created in 1993 by author and journalist John Wallach, 
Seeds of Peace brought 40 Israeli, Palestinian and Egyptian 
Israeli youth to summer camp in Maine that first year. The 
youngsters lived together, shared their meals, played on the 
same teams and argued with each other.
    Under the guidance of professional facilitators, this first 
group participated in daily two hour sessions of conflict 
resolution. During this process, these youngsters broke down 
the barriers of mistrust and suspicion. They began to see one 
another as people, not as enemies.
    From that modest beginning, Seeds of Peace has established 
itself as an innovative and recognized program for teenagers 
from the Middle East and other conflict areas, including Bosnia 
and Cyprus.
    In the last six years, Seeds of Peace has graduated more 
than 1,000 youngsters from Israel, the Palestinian authority, 
Egypt, Jordan, Morocco, Tunisia and Qatar.
    But let me stress, above all, the experience at camp is not 
just about singing songs around the campfire. What goes on at 
the facilitation sessions is often painful and reflects the 
rawness, hatreds and stereotypes which fuel the conflict.
    But what emerges is something quite remarkable. Arabs and 
Israelis who are willing to listen to one another learn from 
one another and to respect one another. The transformations 
that take place during this summer are only the first steps 
towards educating and nurturing a new generation of 
peacemakers.
    Seeds of Peace is committed to expanding our modest 
regional program to reach as many youngsters as possible. In 
order for Seeds to grow, we need your support. Seeds of Peace 
is seeking $800,000 in U.S. Government funding to expand our 
existing program into a year-round, comprehensive program in 
the region.
    In short, Seeds of Peace is infusing the peace process 
between governments with something that is too often left out: 
the human dimension. For real peace to take root, a new 
generation must be prepared to make it possible.
    Seeds of peace gives the next generation the tools to 
create a better and more secure future. It empowers them to 
lead. It creates hope instead of despair. It plants the seeds 
of peace, real peace, in the real world.
    I could continue to talk about Seeds, but I would never be 
able to convey what we really do. For that, you would have to 
come to camp in Maine. I know that is not possible, so I 
brought a little bit of camp to you.
    [The information follows:]


[The official Committee record contains additional information here.]


    Ms. Miller. I would like to introduce Shoug Tarawneh, a 
freshman at Georgetown University School of Foreign Service and 
a Jordanian graduate of Seeds of Peace.
    Welcome to the committee.
    Ms. Tarawneh. Thank you.
    I was 14 years old when I first went to Seeds of Peace. I 
was really excited about the idea of meeting an Israeli for the 
first time in my life. But, at the same time, I was a little 
bit scared. I remember really well the first discussion group I 
went to.
    Actually, I wrote my college essay about it. We had to play 
a game called Human Knot where each one of us had to hold the 
hand of the person in the front of them and the person on their 
side and form a knot and we had to solve it.
    It took us a while to solve it, but then we realized that, 
in order to solve it, one of us had to sacrifice and we had to 
step on them and move around in a certain way to solve it.
    Eventually it was solved. But afterward, when we started 
discussing the theme of this game, I don't really remember 
whether it was a Palestinian or an Israeli who jumped up and 
said, ``Enough is enough. I am the one who is suffering right 
now and it is your time to sacrifice.''
    As a Jordanian sitting in this discussion group I watched 
Palestinians and Israelis discussing it. They are the people 
who are living the suffering. It helped me so much understand 
where I stand as a Jordanian in this conflict.
    It took us a couple of discussion groups to calm down and 
start listening to each other because, believe me, in the first 
discussion groups none of us wanted to listen to the other. We 
only wanted to convince the other side, whether it was an Arab 
or an Israeli, that I suffer the most and I have the right to 
rule everything right now.
    And I think trying to reach this understanding never ended 
when the camp was over. Because a week ago I was at the Seeds 
of Peace office in D.C. and I was looking at some of the 
pictures. I am 18 years old right now, so most of my Israeli 
friends are in the Army.
    And I saw a picture of a really good friend of mine wearing 
his Israeli Army suit, which always symbolized to me a person 
who wants to take my land and kill my people. This idea would 
never have crossed my mind that I know the individual who is 
wearing this Army suit.
    And I think this is what Seeds of Peace helped me to do. It 
gave me the chance to get to know the other side of an 
individual and to understand their position and why they are 
doing that and understanding why I am doing that and try to 
explain it to them.
    And I understood, and I am sure that my colleague Seeds 
understood that too, that peace is not only the absence of 
hostility, but it is more like understanding and appreciating 
the concept of coexistence and living with each other.
    Mr. Callahan. Well, maybe there is hope for the future 
because there has been a lot of fighting in the Middle East for 
centuries. Maybe the Seeds of Peace can ultimately bring the 
leaders of the countries together as it has students.
    Mr. Knollenberg. Mr. Chairman, if I might, I wanted to 
commend Ms. Tarawnch for being here and talking about the real 
side of this thing. I have had some experience with Seeds of 
Peace. When Ms. Miller made her presentation she made it clear 
that this is really a study in conflict resolution. And I do 
believe the youth is the answer here. It may not be the only 
answer, but it is one that should be advanced.
    And I have been supportive of this in my home area. I do 
not know, Mr. Chairman, if you met this gentleman when you were 
there. I do not think you did. But it is a gentleman who is 
very much involved in the progress of this organization with 
over 1,000 graduates now.
    So I think it is something that deserves attention, and 
obviously we appreciate both of you coming today.
    Thank you.
    Ms. Kilpatrick. I, too, have visited the Gaza Strip, the 
West Bank, and Israel and Egypt. I want to thank Seeds of Peace 
for the work that you do--particularly the young people. I 
think that when our young people across the world have the 
commitment to understanding other people's culture, the world 
is better by it.
    So I want to thank you for your work. In working and 
listening to those young people during my visit, I've seen that 
they really are the key to the American crisis and the world 
crisis as we look to respect one another's culture.
    Thank you very much.
    Mr. Callahan. Thank you.
    Congressman Schaffer.
    Bob, we are letting you jump ahead because we know some of 
you all have to catch a plane, but we are still hoping you will 
respect the fact that we are 20 minutes behind schedule.
                              ----------                              

                                           Thursday, March 4, 1999.

                   U.S. FOREIGN ASSISTANCE TO UKRAINE


                                WITNESS

HON. BOB SCHAFFER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    COLORADO
    Mr. Schaffer. Mr. Chairman and members of the subcommittee, 
I thank you for the opportunity to address you regarding U.S. 
foreign assistance to Ukraine for fiscal year 2000. As co-chair 
of the Congressional Ukrainian Caucus, my goal is to build a 
strong relationship between the United States and Ukraine.
    The United States is well positioned to play a key 
leadership role in assisting Ukraine to further establish a 
pluralistic and democratic society based on the principles of 
law and the free market system.
    Your support for funding for Ukraine will greatly encourage 
the needed progress. During the past year, Ukraine has taken a 
number of significant steps on its path toward reforming its 
economy and establishing a strong and stable democratic 
government.
    Most recently, the Ukrainian Parliament adopted a state 
budget for the year which included the lowest annual budget 
deficit since Ukrainian independence. In October of 1998, a 
three year plan was approved by the Cabinet of Ministers to 
modernize the nation's accounting standards, and this 
achievement will remove a major impediment to foreign 
investment in Ukraine.
    In addition, Ukraine is working to broaden its tax base, 
lower its interest rates in its current system, while, at the 
same time, legislation has been completed to provide for a 
comprehensive new tax code which will be presented to the Rada 
in the spring.
    Finally, Ukraine has undertaken a number of efforts to 
streamline its public administration, establish fully 
functional treasury, increase the number of private enterprises 
and reform its commercial markets.
    Congress has played a key role in positive Ukrainian 
developments. The assistance given to Ukraine by the United 
States has led to historic gains for democracy and stability. 
In the past year alone, despite the near collapse of the 
Russian and Asian financial markets, U.S. foreign assistance 
programs helped Ukraine avert a major crash of its economy.
    Ukraine undertook a successful effort to avoid hyper 
inflation, increase budget revenues, raise reserve requirements 
for commercial banks, and introduce a new currency exchange 
court ordered to prevent dramatic devaluation in the Ukrainian 
currency.
    Discontinuation of the foreign assistance earmark could 
defeat years of progress in this important democracy and weaken 
the aspiring partnership between our two nations.
    And despite these encouragements, we are aware that much 
still needs to be done.
    The Caucus shares the committee's concern over the legacy 
of corruptions throughout the entire former Soviet region. 
Combatting corruption remains a substantial challenge for the 
current Ukrainian government.
    However, earmarking assistance to Ukraine provides the best 
mechanism to address this concern. For example, the House 
Foreign Operations Subcommittee can introduce provisions 
targeting Ukraine's judicial and legal system to help combat 
corruption, as well as to include U.S. law enforcement agencies 
in the fight against it.
    And your support of these proposals will greatly encourage 
the need to reform Ukraine's developing legal and business 
environment. The objectives of peace and stability and 
democracy in Central and Eastern Europe have been enhanced 
particularly because the United States remains actively engaged 
through U.S. foreign assistance in a bilateral relationship 
with Ukraine.
    As Ukraine government continues to reform its internal 
structures and introduce further economic reforms, it is vital 
for U.S. foreign assistance to continue.
    And that concludes my remarks, Mr. Chairman. Thank you.
    [The information follows:]

[The official Committee record contains additional information here.]


    Mr. Callahan. Thank you. That was a nice presentation. We 
appreciate very much your views as well as those of your 
Caucus.
    Mr. Schaffer. Thank you.
    Mr. Callahan. Thank you very much.
    The Ukrainian Congress Committee, Mr. Sawkiw.
    Mr. Sawkiw. Good afternoon, Mr. Chairman, members of the 
subcommittee.
    Mr. Callahan. We will accept your statement for the record.
                              ----------                              

                                         Thursday, March 4, 1999.  

                   U.S. FOREIGN ASSISTANCE TO UKRAINE


                                WITNESS

MICHAEL SAWKIW, JR., UKRAINIAN CONGRESS COMMITTEE OF AMERICA
    Mr. Sawkiw. Yes, please.
    The organization that I represent is the Ukrainian Congress 
Committee of America, the umbrella organization of Americans of 
Ukrainian descent. Mr. Chairman, in my capacity as the director 
of the UCCA's Washington bureau, I would like to commend the 
subcommittee, under your leadership, for its commitment in last 
year's appropriations bill that led to an increased funding in 
the Freedom Support Act.
    This engagement increases America's leadership role in 
sustained economic development and strengthening democratic 
principles throughout the states of the former Soviet Union, 
most notably Ukraine.
    As regards the democratic processes in Ukraine, Ukraine has 
been both a champion and pioneer with a model human rights 
record and, since independence, Ukraine has held four free and 
fair elections with an upcoming presidential election to be 
held in October of this year.
    The exemplary behavior which first manifested itself in 
Ukraine's denuclearization and peace keeping efforts has 
continued during the past year, as illustrated by Ukraine's 
evolving relationship with NATO and its recent refusal to join 
in Russia's ill conceived nuclear cooperation with Iran.
    Progress has been achieved in Ukraine in the reformation of 
the judicial and legal systems as government structures have 
been modified to spur investment opportunities for foreign and 
domestic businesses alike.
    This commitment, however, remains a time consuming process, 
one that deserves the continued support of the United States. 
Corruption, as we all know, was an endemic part of the former 
Soviet governmental system which Ukraine subsequently 
inherited.
    Instead of condemning Ukraine, Congress should mandate 
continued assistance programs to cooperate with Ukraine to 
address the generic problem associated with the resolution of 
most business problems in Ukraine, that being corruption.
    For two years now Ukraine has undergone a certification 
process which has enmeshed U.S. and Ukrainian government 
officials in the arduous process of resolving various 
individual U.S. business disputes in Ukraine.
    To once again enact legislation with certification based 
upon the resolution of business disputes for several American 
investors would paint a distorted picture of Ukraine's 
political and economic landscape.
    Mr. Chairman and members of the subcommittee, we are in a 
race against time. Will the forces of corruption overwhelm 
Ukraine's economy before the rule of law can be 
institutionalized as the guiding principle? I should hope not.
    Let us think of U.S. foreign assistance to Ukraine as an 
investment with a strategic partner in a safe, stable and 
secure democracy in Central Europe. As one of Europe's largest 
countries, the assistance that Ukraine receives from the United 
States would instill economic viability in that country, thus 
eliminating tendencies in neighboring Russia to restore its 
lost empire.
    The Ukrainian Congress Committee of America urges the 
subcommittee to support the Administration's request to provide 
assistance to Ukraine, thus remaining engaged in targeting 
programs in the following areas:
    Legal infrastructure reform with an independent judiciary, 
assistance for the struggle against crime and corruption, 
sector revitalization, as well as the promotion of programs 
geared towards the citizens to actively participate in 
agricultural restructuring and the building of a civic society.
    I thank the subcommittee for your attention and look 
forward to any remarks or questions.
    [The information follows:]


[The official Committee record contains additional information here.]

    Mr. Callahan. We thank you very much. We see some progress 
in the Ukraine, but not with respect to your election process 
and some other areas as well. As you know, we have had some 
problems with American businessmen who are concerned primarily 
about corruption on the local level and more so on the national 
level.
    But the leaders of the Ukraine tell us that they are trying 
to make legislative progress on that regard and we certainly 
hope they succeed because the Ukraine was what we hoped would 
be a shining star.
    Mr. Sawkiw. Still can be.
    Mr. Callahan. Still can be, but you have to make some 
progress.
    Mr. Sawkiw. I agree.
    Mr. Callahan. Thank you very much.
    Mr. Baaklini.
    He is not here?
    Mr. Baaklini is not here, but you are welcome to--we are 
trying to limit our testimony to five minutes per witness 
today, and we will accept your entire statement for the record. 
We ask that you respect that time limitation.
    Mr. Epperly. Thank you, sir.
    Ready?
    Mr. Callahan. Yes, sir.
                              ----------                              

                                           Thursday, March 4, 1999.

                          FREEDOM FOR LEBANON


                                WITNESS

DAVID EPPERLY, AMERICAN LEBANESE INSTITUTE
    Mr. Epperly. Well, my name is David Epperly and I am 
testifying on behalf of the American Lebanese Institute. We are 
a member of the Council of Lebanese American Organizations. The 
institute reflects the interests, sentiments of the three 
million Americans of Lebanese descent.
    We work to further the cause of freedom and sovereignty in 
Lebanon commencing with the immediate and unconditional 
withdrawal of all foreign forces, particularly those of Syria, 
from Lebanon. Both the Institute and the Council act to promote 
ties of friendship, and cooperation between the United States 
and Lebanon based on the principles of democracy and human 
rights.
    With this background information, let me summarize what I 
have stated. We have come here year after year and basically 
said the same thing. Lebanon is an occupied country, occupied 
by Syria.
    Syria is in the process of annexing Lebanon, and it is 
pretty much a known fact throughout the world that nothing is 
being done about it. That annexation is creeping and becoming 
more and more real.
    The Lebanese had a so-called election this year in which 
was nothing more than a changing of the pro-Syrian guard in 
Lebanon. The new president, or so-called president of Lebanon, 
is named Emile Lahoud. He was the former commander of the Army.
    Lebanon is occupied by, as I said, about 40,000 plus Syrian 
troops and an undetermined number of intelligence operatives. 
We see the problems in Lebanon basically as being the four 
areas starting with the Syrian occupation of Lebanon; human 
rights violations, which are rampant in the country; censorship 
of and lack of freedom of the press; and economic 
mismanagement.
    The national debt in Lebanon hovers about $21 million 
dollars and is rising. The gross domestic product is about $15 
billion, so there is a pretty big gap there. They are in the 
process of trying to borrow over $2 billion dollars.
    The basic necessities such as clean drinking water, 
reliable electricity, modern telecommunications and so forth 
are being neglected. There is the--I am painting a pretty bad 
picture, but the picture is pretty bad, obviously.
    The middle class is being squeezed with increased taxation 
and there are huge amounts of corruption and robbery and kick 
backs to the government.
    There are about 1.5 million illegal Syrian workers in 
Lebanon. That is roughly equal to half of the population of 
Lebanon. So with all that in mind, we strongly advise--we 
recommend that the committee not send any taxpayer money to the 
Beirut government, that any aid be funneled through 
nongovernmental organizations, private institutions such as the 
American University of Beirut, other universities and medical 
institutions, Red Cross, Catholic Welfare Society.
    We recommend that Lebanese Army be supported, but as long 
as it is well monitored, any support. And we know that it is 
not your place to do so, but we are advocating and recommending 
that free elections be held in Lebanon in nearest term.
    And we also believe that, as gloomy as the picture may 
appear today, Lebanon's embattled but still resilient civil 
society will undoubtedly be the ultimate salvation of the 
country. All it needs is continued support of the outside 
world, especially the United States.
    I hope that you take this into consideration in your 
deliberations on aid to Lebanon.
    [The information follows:]

[The official Committee record contains additional information here.]


    Mr. Callahan. Well, we certainly will and we support the 
free elections in Lebanon. And certainly it is the wishes of 
all of this committee that--in fact, the entire Congress, that 
Lebanon return to a free state and that the occupation of Syria 
and Israel as well be removed and that they come back to their 
own countries.
    I am sorry to see the problems that have cropped up between 
some groups in Lebanon and the Israeli Army here in the last 
couple of weeks. But it is our dream and goal that someday we 
do see or witness a free election and a free state of Lebanon 
without occupation by any country.
    Mr. Epperly. And the unfortunate thing is, you know, all of 
this is occurring at the expense of the average citizen in 
Lebanon. You know, the average person in Lebanon just wants to 
live and breath just like anybody else and see their children 
have an opportunity to have something a little bit better than 
they did.
    And that is becoming increasingly difficult there, 
particularly for the middle class. There is an upper class in 
Lebanon that seems to be living okay. And if you would take a 
look at what is going on over there behind the scenes, there is 
an awful lot of poverty and hardship occurring there.
    So that is what we try to do. We try to, you know, bring 
that message out and make sure that everybody does not forget 
the average person.
    Mr. Callahan. We will take your advice. And any assistance 
given to Lebanon probably will be through, for example, 
American University or private volunteer organizations.
    Mr. Epperly. Appreciate it, Congressman.
    Thanks for having us again here. Thank you.
    Mr. Callahan. Give my regards to our mutual friends.
    Mr. Epperly. I will. Thank you, sir. Thank you.
    Mr. Callahan. Chris Hekimian. We will accept your written 
statement for the record, which we already have, and ask that 
you respect our five minute----
    Mr. Hekimian. I will do my best.
                              ----------                              

                                           Thursday, March 4, 1999.

SECTION 907 RESTRICTION ON AID TO THE GOVERNMENT OF AZERBAIJAN AND U.S. 
                ASSISTANCE PROGRAM FOR NAGORNO KARABAKH


                                WITNESS

CHRIS HEKIMIAN, ARMENIAN NATIONAL COMMITTEE
    Mr. Hekimian. Thank you, Chairman Callahan, for your 
principal leadership of the Foreign Operations Subcommittee and 
for this opportunity to appear before your panel on behalf of 
the Armenian National Committee of America, the Nation's oldest 
and largest Armenian American grassroots advocacy organization.
    I have submitted my full testimony for the record outlining 
our committee's views on a range of issues under the 
jurisdiction of your subcommittee. Today I would like to focus 
on just two of these issues.
    First I would like to discuss the necessity of maintaining 
the Section 907 restriction on aid to the government of 
Azerbaijan. As you are well aware, last September Congress 
debated this issue on the House floor for almost three hours 
and voted decisively to maintain this ban until Azerbaijan 
lifts their blockades.
    Since that vote, Azerbaijan has continued down the path of 
autocratic rule. Presidential elections held last October were 
roundly derided by international election observers as being 
undemocratic and below international standards.
    As an example, 855,000 ballots, roughly 25% of all the 
ballots cast, were considered spoiled by election officials and 
were not included in the final vote count. Three percent is 
considered normal in developing nations.
    Immediately following these elections, the Aliyev 
government implemented a severe crackdown on all opposition 
groups. Soon thereafter, the Azerbaijanian government rejected 
the OSCE peace plan, effectively stalling the peace process and 
hindering the prospects for long term stability and economic 
development.
    It should be clear that the reasons for the ban on U.S. 
assistance to the government of Azerbaijan continues to exist 
as compellingly as ever. Any effort to circumvent the intent of 
this provision of law, particularly during the ongoing 
negotiations, will be viewed by the Azerbaijan government as a 
clear signal for renewed aggression.
    This is particularly true given Azerbaijan's refusal to 
agree to the OSCE peace plan. And let me just note very 
recently, within this past week, President Aliyev, in a news 
story, was quoted as threatening to again solve the conflict 
militarily rather than at the negotiating table.
    The other issue I would like to focus on is the U.S. 
assistance program for Nagorno Karabakh. Let me begin by 
thanking you and your colleagues on this subcommittee for 
allocating U.S. assistance to Nagorno Karabakh for fiscal years 
1998 and 1999.
    Until this decisive action on your part, Nagorno Karabakh 
was the only population in the Caucasus to have been denied any 
United States assistance. Unfortunately, fiscal year 1998 ended 
without any of the $12.5 million dollars of aid allocated by 
Congress having been spent in Nagorno Karabakh.
    As a result, Congress recommended that a total of $20 
million dollars of assistance be spent in Nagorno Karabakh as 
part of the fiscal year 1999 Foreign Aid Bill. As of today, 
USAID has obligated only $8.3 million dollars for projects in 
Nagorno Karabakh.
    The remaining $11.7 million has yet to be obligated, 
despite the fact that, according to the fiscal year 1999 
Congressional Report language, USAID should request all 
proposals for funding by March 30th of 1999.
    We are deeply troubled by the slow pace of implementation 
and the efforts by some in the Administration to divert funds 
allocated by Congress from their intended purpose. As a result, 
we ask that Congress once again include language recommending 
$20 million for the people residing in Nagorno Karabakh.
    During a visit to the U.S. one year ago, Nagorno Karabakh's 
Foreign Minister, Minister Naira Melkumian, who met with 
yourself, Mr. Chairman, and, in fact, the other members present 
here on the committee, stressed during a speech at CSIS, the 
Center for Strategic and International Studies, that, quote, 
``the people and the government of the Republic of Nagorno 
Karabakh are committed to peace, and that they remain willing 
to reach a settlement based on realistic compromises and mutual 
concessions.''
    Having accepted, together with Armenia, the most recent 
proposal by the OSCE, the people and the government of Nagorno 
Karabakh have shown that they are truly willing to make 
compromises in an effort to find peace.
    Azerbaijan, unfortunately, has rejected this plan, 
insisting instead on unilateral concessions and one-sided 
compromises by Nagorno Karabakh.
    Mr. Chairman, you have often stated the importance of both 
sides being willing to compromise in order to achieve peace. As 
you can see, Nagorno Karabakh and Armenia have proven their 
willingness to do so, just as Azerbaijan has proven its 
willingness not to.
    I hope both Congress and the Administration take note of 
this fact and urge Azerbaijan to reconsider their intransigent 
position and work in good faith to bring an end to the conflict 
which has already claimed too many lives.
    Thank you.
    [The information follows:]


[The official Committee record contains additional information here.]

    Mr. Callahan. We thank you for your testimony. I guess much 
of the thanks you gave to the committee must go to Congressman 
Knollenberg because he has been our resident expert on that 
region, as well as Congressman Porter and Ms. Pelosi.
    They, more so than anyone else, are responsible for the 
huge amount when you consider the--I guess Armenia just last 
year was the third in line or the fourth in line for U.S. 
assistance simply because of the interest on the part of 
members of this committee.
    I do not know why the Administration is dragging their feet 
on the balance of the money that could be spent. We hate to 
tell them in what month the money must be spent. We want them 
to be responsible programs so we can continue to fund them.
    It is difficult for us to say spend it all in October or 
spend it all in January. I am pleased to see that at least a 
great portion of it is now obligated. And I am optimistic there 
will be full obligation of the funds before the end of the 
fiscal year.
    Mr. Hekimian. Would that--according to the report language, 
they are supposed to obligate it all by March 30th. Is there 
some delay----
    Mr. Callahan. That report language is report language, 
precisely that. That is the suggestion of the committee. We are 
sending them a message that we think they should obligate this 
money.
    But at the same time, we do not want to unnecessarily 
burden them. We want them to be responsible. And rest assured 
that Mr. Knollenberg stays on top of them as well.
    Mr. Hekimian. Well, I would share your concern that the 
programs that are implemented are good programs, and we are not 
trying to actually push, you know, those programs more quickly 
ahead. More that it took about a year and a half before any of 
the money actually ever got obligated.
    And a lot of these programs had been planned in the past, 
and for some reason it took a very long time for them to 
actually ever get their funding.
    Ms. Pelosi. If I may, Mr. Chairman. I want to join you in 
commending our colleague, Mr. Knollenberg, for his leadership 
in dealing with this issue because it has been a challenge to 
our committee.
    I will say that if the Administration repeatedly and 
continually does not heed the report language of the bill, then 
the committee may have to, at some point, speak in stronger 
language to that----
    Mr. Callahan. I guess what we have to do is wait until 
closer to the end of the year to see if, indeed, there is a 
plan. Maybe we can make an inquiry and find out what is in the 
pipeline and what is their intention.
    So maybe we can contact them and ask them what their 
intentions are to fulfill the suggestions of the report.
    Mr. Knollenberg. Well, Mr. Chairman, I think we intend to 
oversight them very, very closely. And obviously I want to 
commend everybody on the panel here who has been helpful in the 
original architecting of the idea of the funding for Nagorno 
Karabakh.
    And there is a problem. We know it is there. It has been a 
foot dragger from way back. We will continue to watch that and 
hope that they can put more dollars in the field where it 
belongs rather than just having it available, which is kind of, 
you know, the story.
    Mr. Hekimian. The programs that are scheduled are actually 
very good programs, but just one concern. The State Department, 
as an example, very recently threatened to stop all programs 
because of a tax issue problem. Karabakh had yet to exempt all 
organizations from taxes in Karabakh.
    This is the first time that monies had been spent there--
they had not been made aware that this was an issue they needed 
to work on. I do not understand why it was not made an issue 
back in October of '97 when AID knew they were going to be 
implementing, in the near future, programs in Karabakh and tell 
them you need to address this issue, you need to, exempt all 
organizations from taxes.
    They have done that, but it got to the point where they 
actually were threatening to, within a week's time, to stop all 
programs.
    Mr. Callahan. Well, we do not want to discourage or to 
direct USAID when and how to spend the money. We do not want to 
tell them how to spend it, and we want them to utilize this 
availability of money on programs or directions that the United 
States feels is in the long term interest of the region.
    I can assure you that the money will be spent. But we want 
them to be able to go to the government, to the leaders of 
those communities, and say we want to spend this money that 
Congress has given us, but you are going to have to comply with 
some of our wishes to promote democracy.
    Mr. Hekimian. Of course.
    Mr. Callahan. But we appreciate very much your testimony.
    Mr. Hekimian. Thank you.
    Mr. Callahan. Congressman Lewis, we know you are in route 
to Alabama and we do not want to delay you.
    Mr. Lewis. Well, thank you very much, Mr. Chairman, and 
Ranking Member----
    Mr. Callahan. First of all, I know he is from Georgia, but 
he is going to Alabama this weekend.
                              ----------                              

                                           Thursday, March 4, 1999.

                   INTERNATIONAL CHILDREN'S PROGRAMS


                                WITNESS

HON. JOHN LEWIS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF GEORGIA
    Mr. Lewis. Well, thank you very much, Mr. Chairman. You are 
very kind. Thank you and Ranking Member Pelosi and other 
members of the committee for allowing me to come before you and 
to testify.
    I want to thank you for your support of international 
children's programs including children's survival activities 
such as immunizations, the work at Unicef and other critical 
health education and nutrition programs.
    Mr. Chairman, I am here today to urge your continued 
support for the Children's Survival Programs, as well as the 
Microcredit Program, and to urge an increase in U.S. investment 
in tuberculosis control.
    As you well know, these programs can make a critical 
difference in the end of poverty and promoting peace and 
prosperity worldwide. I know that many members want to testify, 
and so I will briefly summarize my written testimony.
    I ask that my written testimony be added or included to the 
record.
    Mr. Callahan. It shall.
    [The information follows:]

[The official Committee record contains additional information here.]


    Mr. Lewis. On the issue of tuberculosis control, I want to 
thank you, Mr. Chairman, and Ranking Member Pelosi for leading 
this effort. I urge your continued support. As you know, 
tuberculosis is the biggest infectious killer of adults in the 
world.
    TB is the biggest killer of people with AIDS and a great 
killer of women and mothers. TB rages countries from South 
Africa to Thailand, from Ethiopia to the Philippines. And as we 
know, TB has recently had a resurgence here in the United 
States where it has had a disproportionate impact on the poor 
and minorities.
    Second, Chairman Callahan, I know you are very much aware 
of the effectiveness of the Microcredit Program which provides 
loans to the very poor to help start or expand small 
businesses. U.S. Microcredit helps tens of millions of very 
poor families worldwide.
    It helps poor families lift themselves out of poverty, 
which has strengthened economic stability, health, education 
and democracy in the developing world.
    I know this subcommittee has many competing priorities. 
However, I believe that we must find a way to increase funding 
for this worthwhile and needed program.
    Finally, Mr. Chairman, I want to commend the subcommittee's 
work in strengthening and protecting international children's 
programs. I can tell you that I have long shared your strong 
support and your compassion for children who suffer or perish 
needlessly as a result of preventable diseases and hunger.
    It is a travesty that more than 12 million of the world's 
children die every year from these causes. As a wealthy and 
powerful Nation, we can and we must do more to advance 
international efforts to combat child mortality worldwide.
    I agree with many of you that regardless of pressures to 
limit foreign aid spending, we must never, never cut spending 
at the expense of children, children struggling to eat, to be 
healthy, and to survive in developing nations.
    To this end, I urge the subcommittee to support an increase 
in funding for the child survival and disease programs.
    Mr. Chairman, Ms. Pelosi, thank you once again for making 
children a priority, for combatting worldwide poverty and for 
targeting resources toward the eradication of preventable 
diseases such as tuberculosis.
    I look forward to working with you and other members of 
this committee in the 106th Congress to advance these goals.
    And Mr. Chairman, I look forward to going to our native 
state sometime tomorrow.
    Mr. Callahan. I thought it was this weekend.
    Mr. Lewis. It is this weekend.
    Mr. Callahan. Yes, I thought it was.
    Mr. Lewis. It is this weekend.
    Mr. Callahan. Well, we look forward to you coming there. 
And you can look forward to our bill coming out which will 
facilitate most of the requests you have made. We are very 
disappointed that the Administration has requested a reduction 
in child survival.
    And we want to assure you that we are going to ignore that 
portion of the President's request and we are going to 
adequately provide for child survival worldwide.
    Mr. Lewis. Well, I would appreciate it very much, Mr. 
Chairman. You will have my support in anything I can do to be 
helpful.
    Mr. Callahan. I appreciate that very much. Thank you.
    Ms. Pelosi. I, too, Mr. Chairman, want to join you in 
thanking the distinguished Mr. Lewis for his testimony and 
adding considerable authority to those requests. Certainly they 
are priorities the committee has shared.
    Our Chairman, as you know, has been the champion for this 
Child Survival Account in the bill. But we want more than what 
the Administration asks for, so we will need your help to get 
that.
    Thank you, Mr. Chairman.
    Mr. Lewis. Well, you will have my help. Thank you very 
much.
    Mr. Callahan. Thank you, Mr. Lewis.
    Mr. Ardouny. We will accept your full written statement for 
the record and ask that you abbreviate your address to the 
committee and contain it to the five minutes or less.
    Thank you very much.
                              ----------                              

                                           Thursday, March 4, 1999.

                      ARMENIA AND NAGORNO KARABAKH


                                 WITNESS

BRYAN ARDOUNY, ARMENIAN ASSEMBLY OF AMERICA
    Mr. Ardouny. Mr. Chairman, Ranking Member Pelosi and 
Congressman Knollenberg, I want to thank you for the 
opportunity to be here on behalf of the Armenian Assembly. The 
Armenian Assembly is a national, nonprofit, nonpartisan 
organization, which promotes public understanding and awareness 
of Armenian issues.
    Our primary purpose is to strengthen the U.S. relationship 
with Armenia and Nagorno Karabakh. I realize that time is 
limited, so I will be brief.
    First, in order to facilitate greater cooperation, regional 
cooperation, the Assembly strongly encourages the committee to 
embrace the current OSCE compromise peace plan and to encourage 
parallel confidence building measures via legislative language 
in the fiscal year 2000 Foreign Operations Bill.
    Mr. Chairman, despite serious reservations, Armenia and 
Nagorno Karabakh accepted the current OSCE compromise peace 
plan as a basis for direct negotiations among the three 
conflicting parties. However, Azerbaijan summarily rejected it.
    To date, the Assembly has seen no evidence of U.S. pressure 
to reverse Azerbaijan's rejection of the proposal. On the 
contrary, the Administration has requested an increase in U.S. 
aid for Azerbaijan and a decrease in aid for Armenia.
    The Administration also continues to push for the Baku-
Cehyan pipeline, despite continued reluctance of major U.S. oil 
companies to finance it and the precipitous downward revision 
of oil reserve estimates in the Caspian Basin.
    Finally, the Administration has renewed its request to 
repeal Section 907, the only U.S. instrument in place to 
address Azerbaijan's continuing blockade of Armenia and Nagorno 
Karabakh.
    Based on the above, Azerbaijan has no reason to conclude 
that the United States Government is serious about its desire 
for peace in the region. It is imperative that U.S. policy 
goals regarding this region specifically address Azerbaijan's 
continued intransigence in the peace process and refusal to 
open its borders with Armenia.
    Second, the Assembly recognizes the current budgetary 
restraints under which the committee must operate. Therefore, 
we recommend that the committee ensure that the NIS account 
receive the same percentage of funding as it did in fiscal year 
1999.
    And as for the South Caucasus generally and Armenia 
specifically, we request that the percentage received in fiscal 
year 1999 be maintained for fiscal year 2000.
    Third, we strongly oppose any efforts to weaken Section 907 
of the Freedom Support Act. In its current form, Section 907 
constitutes a focused, appropriate message to the government of 
Azerbaijan that the U.S. will not support efforts to 
marginalize, via blockade, entire populations of neighboring 
states.
    The blockade by Azerbaijan to the east and Turkey to the 
west leave Armenia with only north-south options. This is 
contrary to Armenia's stated multi-polar foreign policy. 
Armenia recognizes that it lies at the crossroads of three 
large powers.
    Since independence, Armenia has consistently sought east-
west relations and has been rebuffed. Any attempt to repeal or 
further weaken Section 907 legitimizes Azerbaijan's blockade 
and rewards its rejection of the compromise peace plan.
    Finally, the Assembly strongly encourages the committee to 
include last year's House report language recommending $20 
million for the people of Nagorno Karabakh in the fiscal year 
2000 Foreign Operations Bill.
    As a de facto and not a de jure government, Nagorno 
Karabakh lacks access to, and hence cannot fully engage in, 
traditional international markets and mechanisms established 
for recognized states.
    Therefore, continued U.S. assistance to Nagorno Karabakh is 
critical to ensure that all subsets of the Caucasus develop 
generally at the same time and in the same direction. Winners 
and losers in the Caucasus will increase instability.
    In addition, late implementation by the Administration 
should not be visited upon the U.S. PVOs contracted by USAID to 
implement the $8.3 million in obligated funds. These 
humanitarian organizations should not be held accountable to 
play catch up for the Administration's delays.
    In conclusion, Mr. Chairman, on behalf of the Armenian-
American community, I would like to express our deep and 
sincere gratitude to Congress for its steadfast support of U.S. 
assistance to Armenia. With the support of the United States, 
Armenia will be able to accomplish its objectives: regional 
peace and stability, a successful transition to a pre-market 
economy, and a flourishing democracy.
    We appreciate your attention to these matters and look 
forward to working with all members of the committee.
    Thank you.
    [The information follows:]

[The official Committee record contains additional information here.]


    Mr. Callahan. I assume you were here when we talked earlier 
about Armenia?
    Mr. Ardouny. Yeah.
    Mr. Callahan. The committee has expressed, and probably 
will continue to express, our hope that there is a peace. Some 
of us have different views as to the best route to take, but 
all of us want to get to the same exact destination, and that 
is peace in the area and prosperity and democracy.
    Thank you very much.
    Mr. Ardouny. Thank you.
    Mr. Callahan. Mr. Manatos.
    Andy, we will accept your entire statement for the record, 
but we must ask you to please respect the five minute rule 
since we are way behind.
    Mr. Manatos. Yes, Mr. Chairman, I will be very brief. And I 
do not see any red lights this year, but I did notice the mace.
    Mr. Callahan. Did you see this, Andy?
    Mr. Manatos. I did see that. And it is the first thing I 
noticed when I entered the room, Mr. Chairman.
    Congresswoman Pelosi.
    Ms. Pelosi. Mr. Manatos.
                              ----------                              

                                           Thursday, March 4, 1999.

              UNITED STATES, GREECE, AND TURKEY RELATIONS


                                 WITNESS

 ANDREW E. MANATOS, THE NATIONAL COORDINATED EFFORT OF HELLENES
    Mr. Manatos. I would like to just bring you up to date on 
an issue I know that you are interested in, and that is the 
situation in the Eastern Mediterranean. There have been some 
very unique developments that are very positive.
    The first, I think, that you would be interested in is what 
the government of Cyprus did recently. As you know, it was 
exercising its defensive right, as any country can, and had 
ordered defensive missiles to be put in to protect themselves 
against the Turkish overflights they had had which were a 
problem.
    Because the government of Turkey had indicated that it 
would strike these missiles if they were put in, even though 
they were strictly of a defensive nature, in cooperation with 
the United States, the government of Cyprus decided to remove 
these missiles.
    Many people, as you can imagine, many of the Cypriots, were 
very concerned and very upset about this, as any Americans 
would be if we were to remove defensive missiles of ours.
    The government of Greece worked very closely with the 
American Government to move those missiles from Cyprus, and 
this was all done as an effort to get the Cyprus negotiations 
moving and I think it has had some success.
    I am sorry to report that the government of Turkey has, 
even though these missiles are now on the Island of Crete, 
which is where my family comes from in Greece, the government 
of Turkey has again threatened to strike the missiles even on 
Crete or has threatened military action.
    The second dramatic event that occurred was in the United 
Nations where two resolutions were adopted very recently which 
address exactly the Cyprus issue. And they reiterate that 
Cyprus has to be solved in a way that has a sovereignty and 
international personality--not only a single sovereignty, but a 
single citizenship, independence, territory integrity on a bi-
communal, bi-zonal federated nation.
    They also, in another resolution, specified some 
suggestions as to how this could move forward and presses for 
the new sides to refrain from the threat or the use of force, 
to substantially reduce all levels of armaments, to take 
measures aimed at reducing tensions and for substantial 
progress toward the core aspects of the Cyprus problem, and 
additionally to build trust and cooperation.
    As you know, on the build trust and cooperation issue, the 
President's emissary, Richard Holbrooke, after an extended 
period of time and effort to try to solve the Cyprus problem, 
identified very dramatically and publicly the Turkish side as 
the roadblock to the problem.
    And in that regard, you will notice that the second point I 
mentioned in the U.N. resolution talks about armament levels. 
And our Government has recently discovered, and they are going 
to be reporting to the Congress very soon, that unfortunately 
the government of Turkey has directly violated a law that was 
passed by the Congress in the late 80s specifically prohibiting 
American military equipment that we send to Turkey from being 
transferred to Cyprus.
    And those arms have been transferred, in large amounts, as 
you will see, so large that the Secretary General described the 
northern part of the island as ``one of the most heavily 
militarized areas in the world.''
    Now, Greece, which has a contingent legitimacy and legally 
on Cyprus, may also have had a small amount of arms go. And, if 
that is the case, they are happy to withdraw any of these minor 
amounts. The focus here is to get Turkey to withdraw its 
armaments.
    And I say that--if I were a Turkish American, I would say 
the same thing. And I should tell you that I know many Turks in 
that country and in this country who feel that the best thing 
for them is to move away from this policy and to move forward.
    On another subject, the Patriarchate,--as you know, the 
Pope of the three hundred million Greek Orthodox around the 
world--I use that analogy very loosely--our Patriarch in 
Istanbul, Turkey has had terrible problems.
    And as you recall two and a half three years ago, there was 
a bomb that was defused just before it went off. Had it gone 
off, the Patriarch would have been killed and the Patriarchate 
destroyed.
    Well, in October of this year, you and the Congress passed 
legislation which expressed the sense of the Congress that the 
Patriarchate should be appropriately treated in Turkey, and 
that was very helpful.
    The fourth point of that legislation was to reopen the 
Ecumenical Patriarch's Halki Patriarchal School of Theology in 
Istanbul. That was in October. In November, the government of 
Turkey, we are sorry to say, moved and summarily removed the 
Board of Trustees from the Theological Seminary.
    But I have to tell you, I have got a positive report that 
the American Government, working with international agencies 
and very closely with the people in Turkey, were able in a few 
weeks to reverse that decision and the Board of Trustees were 
put back in the Halki Seminary.
    And so we are still hopeful, and we have a number of people 
in our government who are working very hard to try to get the 
seminary reopened.
    As you know, the Patriarch, who visited the Congress 
relatively recently, speaks eight languages. He is a tremendous 
force for peace in the world. You may recall that Congress gave 
him the Congressional Gold Medal.
    His Congressional Gold Medal received more co-sponsors than 
any other gold medal in history. He is an extraordinary person. 
And to focus and enhance the Patriarchate does as much good for 
Turkey and the people of Turkey as it does for anyone.
    And finally, if I might close, Mr. Chairman--uh, oh, I just 
realized I better keep my eye on the mace. [Laughter.]
    If I might close very quickly, Mr. Chairman, by saying 
Ambassador Burns is in town, U.S. Ambassador Nick Burns to 
Greece, and can tell you that relations between the United 
States and Greece are probably as positive as they have ever 
been.
    And as you know, Greece is one of only three countries 
beyond the British Empire that has been an American ally in 
every war this century. So that is saying a great deal.
    In summary, in one sentence, things are in pretty good 
shape. We have a real opportunity for a breakthrough on Cyprus 
this year. And whatever this committee can do in its 
legislative report to press for such a settlement will be of 
great value to everyone concerned.
    [The information follows:]


[The official Committee record contains additional information here.]


    Mr. Callahan. I hope too that the situation in Cyprus soon 
will be resolved. We expressed our disappointment to the 
Turkish government, even though we recognize they are an ally 
of the United States. And currently they are being very helpful 
to us in some of our maneuvering in the Middle East to protect 
Greece, to protect Cyprus, to protect Israel, to protect all of 
the other countries from Iraq.
    But we share your views. When the subcommittee was in 
Constantinople--I think that is the correct word--we met with 
the Patriarch and we expressed to the Turkish president and to 
the leadership there our concern about inability of the church 
to fully operate in that area of the world.
    We are distressed to hear the problems that came up. We are 
glad to hear today they are being relaxed somewhat. But thank 
you very much for your testimony.
    Mr. Manatos. Thank you, Mr. Chairman.
    Ms. Pelosi. I want to join you in thanking Mr. Manatos, Mr. 
Chairman, for his excellent efforts to keep us informed on some 
of what is happening there because we are all at the mercy of 
the news media and we hear different, differing views.
    I, too, am pleased about Resolution 1218, if we can only 
really and truly enforce it. Thank you once again for your 
testimony and your leadership.
    Mr. Manatos. Well, thank you. We are very lucky to have a 
talented subcommittee like this one, as I think anyone would 
agree with me. [Laughter.]
    Mr. Callahan. Mr. Rossides.
    I suppose you heard my directions to your predecessor.
                              ----------                              

                                           Thursday, March 4, 1999.

           UNITED STATES, GREECE/CYPRUS, AND TURKEY RELATIONS


                                 WITNESS

EUGENE T. ROSSIDES, AMERICAN HELLENIC INSTITUTE
    Mr. Rossides. Mr. Chairman, Ms. Pelosi, I am pleased to be 
here to present testimony to the subcommittee on behalf of the 
organizations listed in my written statement.
    We support the amount of $15 million as humanitarian aid 
for Cyprus. The 1999 Greek American Policy Statements highlight 
the positive contributions and opportunities deriving from the 
close U.S. relationship with the vigorous and stable 
democracies of Greece and Cyprus.
    Greece is a member of the European Union and NATO. It is 
the economic and strategic key for the U.S. in Southeastern 
Europe. And at this time currently, NATO troops are passing 
through Greece on their way to a peacekeeping mission.
    Now contrary to some other's views, my view regarding the 
role of Turkey, is sharply different. Turkey contrasts the 
positive contributions of Greece and Cyprus and plays a 
negative role in the area and is the prime cause of many of the 
region's problems, including those dealing with Azerbaijan and 
Nagorno Karabakh.
    The kidnapping of the Kurdish leader, Abdullah Ocalan, has 
put Turkey's oppression of its Kurdish citizens on the front 
page and illuminated the anti-democratic role of the Turkish 
military under its constitution.
    Military control leads to lawlessness. Turkey's violations 
of international law exceed those of Iraq under Saddam Hussein. 
It is also a government wracked with corruption. The State 
Department's country report on Turkey issued just last week, 
Mr. Chairman, to read that paragraph is just devastating 
regarding Mr. Yilmaz stated commitment that human rights would 
be his government's highest priority in '98.
    Serious human rights abuses continue, according to the 
report. ``Extra judicial killings including deaths and 
detention from excessive use of force. Mystery killings and 
disappearances continue. Torture remains widespread.''
    This horrific account of oppression of its own citizens 
pains us, as we have no quarrel with the Turkish people. Our 
dispute is with the Turkish military. And Mr. Chairman, we have 
to confront the grisly reality that in their 15 year war 
against its Kurdish minority, the Turkish military has killed 
over 25,000 Kurds.
    Death squads have assassinated hundreds of Kurdish leaders. 
Military campaigns have destroyed 3,000 villages creating over 
two million Kurds forced from their homes. The terrible part of 
this is that the Turks have done so, in large part, using U.S. 
supplied arms such as attack helicopters and armored personnel 
carriers.
    These horrors far exceed anything that has happened in 
Kosovo.
    Mr. Chairman, our Nation's involvement in these terrible 
acts is an affront to American values which we fought for in 
World War II and against Soviet communism. This is a scandal 
far exceeding those with which we in Washington have been so 
narrowly concerned over the past year.
    A critical review of U.S. policy needs to focus on the two 
prime determinants: the career officials and Turkey's U.S. 
agents of influence. While the President has the final 
authority, of course, he does not drive this policy.
    It has been driven by a handful of career foreign service 
officers together with their counterparts in defense and NSC. 
Instead of open government, we have witnessed a cover up of the 
State Department's accessory role in Turkey's 1974 invasion of 
Cyprus and its pro-Turkish tilt.
    It has led to an overwhelming denial that the Cyprus 
problem is one of aggression and occupation by Turkey. Mr. 
Holbrooke was over and starts to talk about we are going to be 
the honest broker, instead of the fact that the State 
Department caused the problem and continues to be the problem 
with its pro-Turkish tilt.
    And it is lack of political will to solve it. The problem 
is in the State Department. It is a failure of the United 
States' clear moral responsibility to address the problem. It 
has made our country a direct accessory in Turkey's aggression, 
crimes against humanity, ethnic cleansing and genocide.
    And Mr. Chairman, it has cost the U.S. Treasury billions of 
dollars in wasted military and economic aid to Turkey. The 
second determinant of this policy is Turkey's paid U.S. agents 
of influence on whom Turkey has spent three to four million 
annually for over a decade.
    I urge the members of this committee to take the lead in 
congressional action to mandate a halt to arms sales and 
transfers to Turkey, to freeze any loan programs for Turkey, to 
eliminate any trade preferences to Turkey, and to instruct U.S. 
representatives and international agencies to vote against aid 
to Turkey.
    Cyprus and in the rule of law. My written statement points 
out that it is the lack of political will on the State 
Department's part to get this problem settled. The idea of 
saying--the President says we are having trouble getting Greece 
and Turkey together.
    Turkey is the aggressor. Cyprus is the victim. My written 
testimony cites 11 examples of the State Department's not 
applying the rule of law to Turkey, all to the detriment of 
U.S. interests.
    You remember, Mr. Chairman and Ms. Pelosi, 35,000 troops 
invading northern Iraq. It got Senator Pell so upset that he 
introduced a Congressional resolution condemning the genocide 
against the Kurds by the Turks.
    NATO can play an extraordinarily important role. We have 
called for NATO peacekeeping force on Cyprus. Only the U.S. can 
do it, but no one seems to want to push that. Demilitarize, 
have the NATO force come in, and no one--everyone sits around 
because of the Turkish military.
    Now NATO's toleration, Mr. Chairman, of the aggression 
against Cypress and violation of its own treaty, together with 
its silence on Turkey's oppression of the Kurds while it is 
supporting Albanian autonomy in Kosovo is a stain on NATO's 
honor and a double standard pure and simple.
    Mr. Chairman, as I've said, Turkey is the main threat to 
U.S. interest and to Greece and Cypress in the region. A close 
U.S. relationship with Greece and Cypress represents the best 
counter to this threat to U.S. interest.
    Thank you, Mr. Chairman.
    [The information follows:]

[The official Committee record contains additional information here.]


    Mr. Callahan. We thank you for your testimony and remind 
you this is the Appropriation Subcommittee. We do not dictate 
foreign policy. We try to fulfill the request of the 
Administration's request for money for foreign policy, but we 
do appreciate very much your testimony.
    Mr. Rossides. Right. I appreciate those comments, sir. But 
on the suggestion regarding congressional actions on freezing 
loans and trade preference, is that----
    Mr. Callahan. We suggest that you go to the International 
Relations Committee.
    Mr. Rossides. We will, we will. But we know that this 
committee has played a great role in human rights, particularly 
with yourself, Ms. Pelosi and----
    Mr. Callahan. Not our responsibility. We are sometimes 
forced to.
    Ms. Pelosi. Thank you, Mr. Rossides, for your important 
testimony.
    Mr. Rossides. Thank you.
    Mr. Callahan. Mr. Lucas. Mr. Lucas, we are running far 
behind schedule and we would ask you to limit your testimony to 
five minutes. We will accept your entire statement for the 
record.
                              ----------                              --
--------

                                           Thursday, March 4, 1999.

                            FUNDING FOR UNDP


                                WITNESS

C. PAYNE LUCAS, U.S. COMMITTEE ON UNDP
    Mr. Lucas. Thank you, Mr. Chairman and Congresswoman 
Pelosi.
    I am not going to read my testimony. I am going to give you 
back a couple of minutes.
    Mr. Callahan. I will read your testimony.
    Mr. Lucas. I do want to say I am here not so much as an 
expert witness, though I have worked at the Peace Corps for 12 
years since the beginning--I was there at the beginning and 30-
some years working for Africare in some 40-some African 
countries, and now on the new U.S. Committee for UNDP, which 
I'm sure this committee can understand because the U.S. 
Committee for UNDP is out looking for money that we have not 
been able to get from the donor countries.
    And the reason that I asked today to come is because we 
have asked this committee for $110 million dollars and the 
Administration has asked for only $80.
    And I am not here to speak for the Administration, but we 
are terribly disappointed about that because, at the end of the 
day, when you are talking about Africa where we work and where 
most of UNDP's money is spent, unless UNDP is supported, all 
the talk about foreign trade and stability and bringing Nigeria 
to some sort of sense and finding some sort of stability in the 
Congo is really not going to happen.
    Because at the end of the day, UNDP is the coordinating 
agency abroad that prevents all the duplication. It is the 
principal agency involved in governance and democracy in 
Africa. It is the principal agency which is motivating the 
private sector development and the privatization of the African 
economies which was reflected in the GAO report and which, by 
the way, Senator Helms endorsed wholeheartedly.
    So we have a track record and we have reduced the cost of 
running--all the criticisms about UNDP not being run properly 
may have been corrected through the outstanding, stellar 
leadership of Gus Speth. So it is this agency which has paid 
its dues, which is working on democracy, which is rooting out 
corruption all across Africa, which is pushing good governance, 
which is pushing the rule of law.
    It is every reason why we ought to support UNDP. And we are 
talking about $110 million dollars for UNDP, which is not a 
large sum given its mandate of working in 167 countries. And I 
think it would be a national tragedy if we did not restore this 
$20 million dollars.
    And by the way, this is less money than we had in the old 
days of--during the Reagan Administration when they said that 
President Reagan was not even supporting you and we were 
getting $137 million back in those days.
    And I am not satisfied with the $800 million that the 
committee is--we hope will entertain for our whole aid program 
for Africa. And I hope that will stand. I am not arguing for 
any cuts anyplace because we need every nickel we can get in a 
continent where there are 55 countries, 800 million people.
    And now, Mr. Chairman, when we start to talk about oil and 
oil resource, when we look along the west coast of Africa, most 
of the oil is there. And for these countries to be stable has a 
lot to do with the future of our trade and development with 
Africa, which I want to compliment you for the support you have 
given our Trade Bill.
    So whatever you do when you are divvying up the pie, please 
restore the $20 million.
    [The information follows:]

[The official Committee record contains additional information here.]


    Mr. Callahan. I wish you had had the opportunity to present 
your case to the President before he made his request. We do 
not know why the Administration did not fulfill what we think 
is something that should be funded, but we know the President 
was anxious to submit a balanced budget.
    And you know Senator Helms' position on this. You know this 
committee's position and so does the President. So he says 
well, what can we do? We know they are going to go in and fund 
these X, Y Z program. We know they are going to give money to 
child survival.
    We know they are going to do all those things no matter 
what we say. So he balances the budget and then he tells me you 
break the budget. Because he takes money away from your program 
and is giving it to someone else.
    So we have to take it away from someone else, which is what 
we are going to do.
    Mr. Lucas. I hope you do not--I really hope--I really hope 
that you do not take it from Africa.
    Mr. Callahan. We have to take it from somewhere.
    Mr. Lucas. Do not take it from Africa, please, whatever you 
do. This is a desperate situation. You see what is going on in 
Sierra Leone. We see what has to happen in Nigeria.
    Mr. Callahan. Would you suggest that I take it from Israel?
    Mr. Lucas. No, I would not do that because--I cannot 
recommend that because some of our strongest supporters----
    Mr. Callahan. Neither will Bill Clinton. [Laughter.]
    Mr. Lucas. Well, but there are some places--if you want me 
to send you a little letter, a private letter where I think you 
can take that money, I will be happy to do that. Do you see 
what I mean?
    Mr. Callahan. We hear your message and we are disappointed, 
too, that the President did not make the request. But we will 
entertain your suggestions.
    Mr. Lucas. Thank you, sir.
    Ms. Pelosi. Thank you, Mr. Lucas, very much for your 
eloquent testimony.
    Mr. Callahan. Mr. Lowman.
                              ----------                              --
--------

                                           Thursday, March 4, 1999.

          FUNDING FOR MIGRATION AND REFUGEE ASSISTANCE ACCOUNT


                                WITNESS

SHEP LOWMAN, REFUGEES INTERNATIONAL
    Mr. Lowman. Thank you, Mr. Chairman, Ms. Pelosi. I 
appreciate the opportunity to be here and to present Refugees 
International's suggestions for the President's proposal on the 
migration and refugee assistance account.
    And maybe to put the bottom line summary at the top and say 
that we urge you to consider an increase in the President's 
recommendation of $660 million for migration and refugee 
assistance to $700 million, an increase of $40 million, of 
which we would suggest $25 million to be added to the overseas 
assistance part of that account.
    And in particular, to focus that additional amount on 
repatriation programs since those are the part of that activity 
that is going unfunded or insufficiently funded by the 
international community, and yet it is a vital part of sort of 
the end of solving a refugee crisis.
    The other $15 million we suggest be added to the refugee 
admissions side to include a number of different groups that 
need to be considered for admission, including additional 
Bosnians.
    And also including our former U.S. Government employees in 
Vietnam who have had a rather badly handled resettlement 
situation for quite a number of years and that is now being at 
least discussed in Washington and there is some possibility of 
some action being taken, but they are going to need some 
admission numbers as well.
    Now, Refugees International is an advocacy organization and 
we do our work by sending our advocates to many parts of the 
world to take a look at situations that we find there, refugee 
emergencies, and to try to recommend how to help these folks' 
situation.
    In doing that job, we have brought to us everyday the depth 
of the misery that exists out there in this post-Cold War world 
and the extent of the need. Now, the President has suggested 
$463 million for overseas assistance.
    That seems like a generous amount. It is a generous amount. 
But when you really look at it, it ends up that it is working 
on refugee problems on the cheap. That is what it comes down 
to. And when you do that, like in most other areas of human 
endeavor, it is not cost efficient.
    It is not humane efficient either, by the way.
    One of the most important parts of dealing with the refugee 
crisis is getting folks home. If the situation in their home 
country changes and they can finally go home, you want, maybe, 
you hope you will have funds for this--the United Nations High 
Commissioner for Refugees has been operating on about a two-
thirds level, two-thirds steam, for the last few years, year 
and a half.
    Contributions have gone down, and yet the need has stayed 
up. They have been able to fund refugees in the camps. They get 
shelter and food and some medicine. But when it comes time to 
go home, the repatriation programs are not well funded.
    A couple of quick examples. In both Cambodia and Burundi 
recently, there were returns in which the returnees found that 
there was very little--if anything, in the way of rural health 
or water. In Rwanda recently, this past year, I guess, there 
were something like 300 school rooms with no roof. No roof, no 
funding. Not cost efficient and not humane efficient.
    Now if these folks come back into that kind of a situation 
and there is not the infrastructure or the ability to come back 
into the mainstream of society, they remain an indigestible 
lump in the body of politic and they sit there. It is bad for 
them; but they also form, and too often become, the source of 
conflict and tension, renewed violence and renewed waves of 
flight.
    So it is not a cost efficient way to deal with it. And we 
urge that you consider an increased appropriation that would 
focus on that part of the problem.
    Another piece of repatriation is particularly important, 
the situation of the child soldiers. Mr. Chairman, there is 
something like 250,000 child soldiers, many of them under the 
age of 15 fighting in 33 wars around the world.
    We recently read of some of these kids in the low teens 
doing really terrible things in Sierra Leone. Now what they did 
was horrific, but the effect on them is also horrific. And 
there are programs to help them, and they have to be brought 
back into the society both in humane and humanitarian terms for 
them, but also in prudential terms.
    Because if they are not brought back in, they are going to 
remain a serious element of violence in that society for the 
rest of their lives. And yet, in Liberia where this is an 
important problem, UNICEF has some well regarded programs to 
work on this problem.
    But they are only working in two out of four areas that 
they wanted to work. Question of funding. Not cost efficient, 
not humane efficient.
    Briefly, with respect to admissions, the President's budget 
will fund 80,000 admissions. That is a level--33% below the 
beginning of the Clinton Administration. In 1993 they had 
132,000 admissions. There is no real reason for this drop.
    New programs have come along. The Bosnian program is the 
biggest program now; in the biggest element of the U.S. Refugee 
Program. Many members of Congress, on a bipartisan basis, have 
suggested a range of refugee admissions between 90,000 and 
110,000.
    We are suggesting that you add 10,000 to that 80,000 
budgeted by the President, which would cost an extra $15 
million. We believe that that would take care of some important 
pieces. Maybe not every piece, but especially our former 
employees and some additional Bosnian members.
    [The information follows:]

[The official Committee record contains additional information here.]


    Mr. Callahan. Thank you, Mr. Lowman, for your testimony.
    Mr. Lowman. Thank you.
    Mr. Callahan. Thank you very much.
    Mr. Hartke.
                              ----------                              

                                           Thursday, March 4, 1999.

                   UNITED NATIONS DEVELOPMENT PROGRAM


                                WITNESS

JAN HARTKE, EXECUTIVE DIRECTOR, EARTH VOICE
    Mr. Hartke. As you said, my name is Jan Hartke. I am 
Executive Director of Earth Voice. I also serve as the co-
chairman of the Alliance for United Nations Sustainable 
Development Programs which now--since my last time to testify 
in front of you, it now has over 70 national organizations to 
do education and monitoring.
    Not lobbying, but education and monitoring on those issues. 
And in our membership of constituents, we are over eight 
million people in this country. So we have tried to gain some 
public support for the kinds of leadership that this 
subcommittee is taking.
    And I just want to say that your leadership, Congressman 
Pelosi's leadership, and the subcommittee's leadership on these 
matters is tremendously appreciated.
    In the communities that I work with, the nongovernmental 
organization community, it is sincere. Your steady support for 
the kinds of things that need to be done are affecting real 
situations around the world.
    So I want to turn to three examples, if I could.
    Earth Voice now, with our partner organizations, operates 
in 110 countries. I want to give you three examples. When I am 
in a country, among other projects, I always have made an 
effort to try to stop in to see the projects of three different 
institutions that my testimony relates to today and I would 
like to have incorporated into your record.
    First is the United Nations Development Program which Mr. 
C. Payne Lucas has already alluded to and I want to concur with 
all of his remarks on that. Second, the Global Environment 
Facility. And third, the International Fund for Agricultural 
Development.
    First let me direct your attention to Central America. In 
Belize, the Prime Minister Said Lusa has been very supportive 
of an effort to try to help create a corridor from the sea near 
the Port of Honduras in the southern part up into the Maya 
Mountains, and connecting up to the Meso-American Biological 
Corridor for all of Central America.
    In that country, the United Nations Development Program 
resident representative proposed that we try to create this 
corridor with everybody weighing in to help: government, 
private sector people, nongovernment people, community people.
    And they said that the multilateral institutions could help 
do a lot of sustainable development work, but they were not 
allowed to buy land, which was at the hub of this particular 
corridor. And so I said well, how much do we need? They said a 
million dollars.
    In the course of that last year, we have now raised a 
million dollars to buy that land to work in conjunction with 
multilateral institutions. A million dollars is not a lot 
necessary to Congress, but it is hard out there in the world 
for folks like us to raise land for--money for Belize.
    So what has happened? Why are we buying this land? It is 
one of the principal lowland tropical forest regions left in 
Belize, number one. Number two, we come from a perspective that 
the biodiversity of the world is an extraordinary thing to 
lose, and I would hate to stand and watch while the great 
creatures of the world disappear.
    In that region we have the largest concentration of jaguars 
in Central America, for example, pumas, marges, tapirs, howler 
monkeys, unbelievably rich wildlife. So this whole concept was 
created by the United Nations Development Program, an on the 
ground program working with peoples and communities.
    We participate as a partner of this Congress, an 
extraordinarily minor partner, but a partner nonetheless. We 
get no money from the United Nations Development Program, nor 
do we ask for any.
    Second area of concern in the Central Asian area. Half of 
the Aral Sea, the fifth largest sea in the world, is gone. It 
is disappearing from the map. If you take your own globe and 
look at it and put your thumb on it, there it is.
    And it is disappearing, an area that size. Now, of course, 
everybody in the world blamed it on the--and properly so--on 
the old Soviet Union, who took the two rivers that fed the sea 
and diverted them to be able to plant cotton in a desert.
    Well, it has become a disaster. The whole world condemned 
it as an old failure of communism. But the question is now that 
communism doesn't prevail: Are we going to be able to start to 
save the sea and be able to do something about it?
    In that region of the world again, it is the United Nations 
Development Program that is spearheading the only leadership in 
terms of trying to pull together the region to, one, push the 
rivers back into the sea so it does not disappear in our 
lifetime.
    Restore a fishing industry that used to be vibrant and 
powerful and fed Russia and now has collapsed. So here again, 
we have an area where UNDP's leadership on the ground I have 
seen is absolutely crucial.
    The third region of the world, and I would just share this 
with you, is about the second institution I mentioned, the 
Global Environment Facility. Down in Patagonia off the coast of 
Argentina, you stand on the beach and you look at an area from 
that end of the room to this end of the room and you see great 
southern right whales lolling off the shore with their calves.
    This is their breeding ground. This is where they take 
their calves. Without a Global Environment Facility plan, those 
southern right whales would all be destroyed. Not only are we 
saving the whales, but they are creating an economic future for 
the people because the tourism industry is growing in the 
region.
    In the International Fund for Agricultural Development, my 
last comment would be they are doing an extraordinary effort of 
trying to save half of the continent of Africa from becoming a 
desert. They and the UNDP are the best in the world at that. 
That is a significant effort.
    C. Payne Lucas has already talked about that. I very much 
appreciated your remarks and your leadership. I do not see how 
America can expect to become and stay as a leader in the world 
if we are going to let our guard down and only adhere to the 
Administration's $80 million request.
    It simply is not worthy of a U.S. power. And I hope that 
the Congress here will continue the leadership you have 
manifested in the past.
    [The information follows:]

[The official Committee record contains additional information here.]


    Mr. Callahan. Thank you for your testimony. How is that 
tree coming along?
    Mr. Hartke. It is still growing, sir. It is coming along in 
wonderful shape. And we are hoping to have leaves in it in a 
month. [Laughter.]
    Mr. Callahan. Mr. Watson.
    Mr. Watson. Thank you very much, Mr. Chairman.
    Mr. Callahan. Thank you, sir. I guess you have heard my 
admonition to the panelists today. We are going to have to 
request that you submit your testimony for the record and limit 
your remarks.
                              ----------                              

                                           Thursday, March 4, 1999.

                         THE NATURE CONSERVANCY


                                WITNESS

ALEXANDER F. WATSON, THE NATURE CONSERVANCY
    Mr. Watson. Thank you very much, sir. Thanks for the 
opportunity to present the views of The Nature Conservancy on 
assistance for fiscal year 2000.
    The Nature Conservancy's mission is to protect plants and 
animals that make up the natural world, primarily by protecting 
their habitat. Our budget is approximately 92% from private 
sources.
    Our operations in the United States center on creating and 
running the world's largest system of private park reserves and 
also working with local communities and government 
organizations at every level to try to find the most efficient 
ways to protect valuable areas.
    We also work in more than 30 foreign countries in Latin 
America, the Caribbean, now in Canada, Asia and the Pacific. 
Overseas we help local organizations improve the effective 
level of biodiversity protection mainly in existing parks and 
protected areas by strengthening local institutional 
capacities, building infrastructure and engaging local people 
in community-based conservation.
    We help protect more than 74 million acres in Latin America 
and the Caribbean alone. And we are also working at critical 
sites in Asia and the Pacific like Indonesia and Papua New 
Guinea.
    It has become increasingly apparent, I think, that the 
destruction of natural ecosystems can be a major threat to 
political and economic stability in the developing world, and 
hence the concern not only to environment--to conservationists 
and environmentalists, but also to the broader public.
    In the Convervancy's international program, we receive the 
support of the Agency for International Development. It is the 
primary instrument by which the U.S. Government contributes to 
biodiversity conservation globally.
    The Conservancy's Parks in Peril Program, which is the 
flagship of our efforts in Latin America and the Caribbean, 
helps of paper parks--that is to say parks that exist only on 
maps become genuinely protected areas with assistance from 
multi-year cooperative agreement with AID.
    We are certainly grateful for that support. Currently, 
while continuing to implement the Parks and Peril Program, we 
are designing an improved program which we are calling at this 
point Parks and Peril 2000, for want of a better term.
    And the core of that program is projected to be to work at 
a number of large platform sites from which we expect to 
influence conservation practices in the broader system level by 
national park authorities and others and private citizens as 
well in the countries where we work.
    Aid commitment to international conservation leverages 
resources from non-U.S. Government sources. For example, the 
$32 million that Parks and Peril has received since 1990 from 
AID has leveraged more than $180 million from a wide range of 
donors, including the multilateral banks, the GEF as well as 
private donors in the U.S. and local governments and local in-
country partners.
    This committee traditionally has a record of recognizing 
the importance of defending biodiversity and approving funding 
for it. We certainly appreciate these past endorsements and 
urge the committee once again to strongly support funding for 
Parks in Peril, as well as the rest of AID's biodiversity 
programs in the fiscal year 2000 appropriations process.
    In recent years, biodiversity funding has typically totaled 
between $50 and $70 million annually. We recommend that it be 
continued at the high end of that range.
    We also endorse the proposed appropriations to two other 
items of great potential for international conservation. First, 
we strongly support full funding of the Administration's $50 
million request level for the Tropical Forest Conservation Act, 
which is an innovative measure that emerged from a bipartisan 
consensus in the Congress last year. I believe Congressman 
Portman has already testified before this committee today on 
that issue.
    I would assume the leverage of about two or three to one in 
these kinds of debt-for-nature swap deals. So this could 
leverage between $100 and $150 million in the first year of 
activity to protect tropical forests around the world.
    And, secondly, we endorse appropriation at the $143 million 
level requested by the administration of the Global 
Environmental Facility (GEF). It is projects to help 
biodiversity conservation in developing countries that are the 
largest single beneficiary of GEF funds.
    We have appended to the statement submitted for the record, 
with your permission, some report language, suggested report 
language that may be useful, we hope, in your consideration of 
these matters.
    That concludes my statement.
    [The information follows:]

[The official Committee record contains additional information here.]


    Mr. Callahan. Thank you, Mr. Watson. We appreciate very 
much your testimony.
    Ms. Pelosi. I want to thank Mr. Watson also for his 
leadership and his excellent testimony.
    And he did not use up all of his time, let the record show, 
Mr. Chairman.
    Mr. Callahan. Certainly, we will give you some money.
    Mr. Watson. Thank you very much.
    Ms. Pelosi. Thank you, Mr. Watson.
    Mr. Callahan. The less time they take, the more money they 
get, is that----
    [Laughter.]
    Mr. Callahan. Ms. Fitzhugh.
                              ----------                              

                                           Thursday, March 4, 1999.

                   INTERNATIONAL CONSERVATION PROGRAMS


                                 WITNESS

ESTRELLITA JONES FITZHUGH, WORLD WILDLIFE FUND
    Ms. Fitzhugh. I represent World Wildlife Fund, known 
worldwide by its panda logo. WWF is the largest international 
conservation organization with 1.2 million members. We work in 
over 100 countries to protect and save the earth's rich 
biological diversity.
    Today we are witnessing a conservation crisis. During our 
tenure as the dominant species on this planet, we are causing 
the loss of plants and invertebrates at an extraordinary rate. 
We are losing forest cover at an astounding rate of over an 
acre a second. This loss of species and their habitat is our 
loss. Some 950 million people depend on fish as a major source 
of protein, yet 60 percent of the world's major fisheries are 
overfished. As forest destruction and degradation increase, our 
protection against CO<INF>2</INF> emissions decreases. The 
Central African chimpanzee being hunted into extinction, is now 
potentially an important source of the AIDS cure.
    This disturbing stress on biodiversity goes largely 
unnoticed in our daily lives. Societies have second chances to 
bail themselves out of financial crises. We do not get second 
chances when plants, animals, and their habitats disappear.
    WWF believes the subcommittee can help address this 
conservation crisis in four ways:
    One, direct USAID to adequately fund its conservation 
programs, and, where appropriate, restore funds to these 
programs. Why is this necessary? Mounting anecdotal evidence 
suggests that AID's commitment to conservation and natural 
resource management has been seriously compromised in the last 
few years.
    This is distressing, given the fact that USAID has been the 
world's premier bilateral agency in integrating biodiversity 
conservation and sustainable use of natural resources in its 
development programs. Yet, in the past few years, USAID has 
whittled down its funds for biodiversity and natural resource 
management, seriously undermining the staff's ability to carry 
out initiatives noted above.
    The reasons for those reductions are unclear. Some at AID 
argue that faced with congressionally-mandated overall budget 
cuts they are forced to cut conservation funding to fulfill 
congressional priorities in other areas.
    On the other hand, some in Congress contend that the 
agency, in its rush to be responsive to this legislative body, 
overreacts by slashing other programs' budgets. A strong 
subcommittee directive to USAID, as noted above, would 
considerably clarify this situation.
    I have attached to my testimony examples of AID's proposed 
budget cuts in biodiversity conservation.
    The subcommittee's directive to USAID is critical and 
timely. Why? Many countries today facing fiscal crises are 
tempted to accelerate environmental degradation for quick 
financial gain. The subcommittee, therefore, must make clear to 
AID it is especially vital at this time to stay engaged in 
these countries.
    Two, urge AID to update its action plan on biodiversity.
    Three, support full U.S. contributions to the global 
environment facility. WWF urges both the Congress and the 
administration to remove GEF as a hostage to the Kyoto Protocol 
debate and allow the facility to continue its valuable work in 
conservation.
    Four, provide full funding for the Tropical Forest 
Conservation Act.
    Finally, Mr. Chairman, and members of the committee, we 
urge you all and your staff to visit these natural resource 
management projects around the world. It is the only real way 
to really experience the world's great natural systems and to 
understand the programs that are there to address the threats 
to those systems.
    Thank you very much. I hear you are taking a plane, Mr. 
Chairman. So for your reading pleasure, I would like to give 
you a copy of our annual report, and National Geographic's 
February Publication. [Laughter.]
    The February issue was entirely devoted their whole issue 
to biodiversity. I would like to also give copies to the 
gentlewoman from California as well.
    Ms. Pelosi. Thank you.
    Mr. Callahan. Thank you very much.
    Ms. Fitzhugh. Thank you.
    [The information follows:]

[The official Committee record contains additional information here.]


    Mr. Callahan. David Nemtzow.
                              ----------                              

                                           Thursday, March 4, 1999.

                        U.S. AID ENERGY PROGRAMS


                                WITNESS

DAVID NEMTZOW, PRESIDENT, ALLIANCE TO SAVE ENERGY
    Mr. Nemtzow. Thank you, Mr. Chairman. Thank you for the 
opportunity to testify today. I am here to testify in strong 
support of the administration's fiscal year 2000 request for 
USAID's energy programs. And if time permits, Mr. Chairman, I 
will respond to the question you asked to Mr. Lucas about how 
you can find some money, as well as how to spend some. So stay 
tuned.
    I am David Nemtzow. I am President of the Alliance to Save 
Energy. We are a bipartisan nonprofit coalition of business, 
government, environmental, and consumer leaders dedicated to 
energy efficiency. We were founded by Senator Charles Percy in 
1977. We are chaired by Senator Jeff Bingaman today and co-
chaired by your colleagues, John Porter and Ed Markey. Over 70 
companies participate in the Alliance to Save Energy's 
programs.
    I am here today, Mr. Chairman, to testify in strong support 
of USAID's energy efficiency programs, and to thank you for 
your past support of these invaluable activities. We believe 
that USAID plays a vital and a unique role in promoting the 
development of sustainable and rational energy policies in 
developing countries.
    These are countries, of course, that typically lack 
reliable supplies of electric power and other forms of energy 
AID spurs the transfer of U.S.-made energy efficiency 
technologies and services to the countries. AID is also helping 
to leverage millions of dollars from The World Bank, from 
foundations, corporations, and other agencies.
    By working with the private sector, AID has also been 
instrumental in expanding markets for U.S.-made products. You 
know, Mr. Chairman, from your service in Congress that energy 
is an international issue. It is inherently international, and 
we all learned that from the Arab oil embargo and the Gulf War.
    And a barrel of oil saved in Bombay helps world oil 
markets, much as a barrel saved in Birmingham. It helps 
decreased world demand keep prices down. So by helping the 
international environmental equation, we are helping our own at 
the same time.
    And we have had a lot of success working at the Alliance 
with AID in Ghana, Mexico, Russia, Hungary, India,and elsewhere 
to get this message across of creating jobs, reducing energy 
costs, and protecting the local and global environment.
    So, in short, Mr. Chairman, energy efficiency is a very 
attractive approach in the developing world to solve energy 
problems. There are lower costs in building power plants in 
many cases, and they reduce the risk of electric shortages 
throughout the developing world.
    I would like to offer four concrete suggestions for your 
consideration and for the subcommittee's consideration as you 
work on the AID budget.
    First, I strongly and respectfully urge you to provide 
continued support for USAID's energy programs. And I ask you to 
ensure that the agency continues to include efficiency 
prominently throughout all its work. This can only succeed if 
efficiency is fully integrated into their work.
    This is really the heart of the problem with the agency, 
Mr. Chairman. For the different bureaus and missions, energy is 
rarely at the top of the list. Hunger or population or these 
other issues are at the top of the list. But energy is always 
on the list. And unless this subcommittee continues to provide 
direction to the agencies, energy will get cut off. It is never 
at the top, but it is always on the list, and you need to 
remind them of that.
    Secondly, I urge you to work with the agency to undertake 
the same kind of bold initiatives in the energy sector that you 
have done in child survival and in biodiversity and the other 
areas. With direction from this subcommittee, the agency can 
raise the profile of energy and infrastructure issues, and that 
is very important to the missions in the bureaus.
    Three, we see disasters increasing worldwide, Hurricane 
Mitch being the most recent example. And to rebuild from those 
disasters is, of course, a terrible burden to the local 
population and to governments who want to help. But at least it 
provides us an opportunity to rebuild sustainably, to use 
energy wisely for future generations. And our chairman, Jeff 
Bingaman, recently wrote to USAID asking that efficiency in 
renewable and coal technologies be built into redevelopment 
efforts.
    And, fourth--and this is the area, Mr. Chairman, where you 
can save some money, not just spend it--AID, as well as the 
State Department, for that matter, and other agencies under 
your jurisdiction, have a great opportunity to provide 
leadership in this area by incorporating energy efficiency into 
the construction and retrofit of their own buildings.
    The missions overseas, the embassies, should be built 
energy efficiently for two reasons. It helps showcase U.S. 
technologies. And we are rebuilding in Nairobi and Dar es 
Salaam, of course, as well as a new AID mission in Cairo. But 
it also helps to cut the agency's utility bills.
    The Alliance to Save Energy recently did a study. I do not 
know if you know, but the Federal Government owns 500,000 
buildings worldwide--Army barracks to embassies abroad. The 
U.S. Federal Government spends $8 billion a year on energy 
bills. At least a billion and a half of that is wasted.
    So by directing the agency--I know you will have Secretary 
Albright, Administrator Atwood before you. I hope you will ask 
them what they are doing to cut their own energy bills, so you 
can spend the money on UNDP or biodiversity or Israel or 
whatever the subcommittee's higher priorities are.
    And so while I recognize that AID's broad mission makes 
your challenge so great about finding support for their 
different activities, I hope you will continue your work in the 
past to send a message to the agency that energy matters. And 
by helping nations cut their energy bill, they will help 
promote their local development, they will help promote the 
sale of U.S.-made products and services, and they will help 
protect the local and global environment.
    So I thank you again, Mr. Chairman, for providing us the 
opportunity to testify before you today.
    Mr. Callahan. We thank you for coming.
    [The information follows:]


[The official Committee record contains additional information here.]

    Mr. Callahan. Mr. Derrick.
                              ----------                              

                                           Thursday, March 4, 1999.

                INTERNATIONAL ENERGY PARTNERSHIP PROGRAM


                                WITNESS

JOHN DERRICK, VICE PRESIDENT AND TREASURER, U.S. ENERGY ASSOCIATION
    Mr. Derrick. Good afternoon. I appreciate the opportunity 
to appear before you to represent the United States Energy 
Association, of which I am First Vice Chairman and Treasurer, 
and I am also the President and Chief Executive Officer of 
PEPCO.
    I would like to first begin by stating that our 
association, the U.S. Energy Association (USEA), considers the 
International Energy Partnership Program to be one of the most 
effective and cost efficient foreign assistance programs of any 
sector. Evidence of this fact is that the Europeans have 
replicated this program in the energy sector specifically, as 
well as other sectors.
    Perhaps most compelling is the continued participation of 
the United States private sector participants, electric 
utilities, and others who contribute their time and expertise 
toward meeting the partnership goals. None of these companies 
would continue to invest their time and resources if they were 
not convinced of the value of our program.
    USEA's partnerships are also recognized as being in the 
strategic interest of the United States by promoting economic 
stability, democracy, environmental protection, and market 
economies. Our very national security is enhanced by these 
efforts.
    In 1992, utilizing the experience and resources of the U.S. 
energy industry, USEA launched our International Energy 
Partnership Program. To date, USEA has established 45 utility 
and regulatory partnerships in 22 developing countries or 
countries in economic transition. Over 5,000 utility and 
regulatory executives have participated in USEA partnerships 
since 1992.
    Since the inception, 35 U.S. electric and gas utilities and 
eight U.S. regulatory commissions have participated. Examples 
of these include the Alabama, Mississippi, and Georgia Power 
companies, the California Public Service Commission, Public 
Utilities Commission, Pacific Enterprises, Sacramento Municipal 
Utility District, and the Independent System Operator of 
California. And from Texas, Central Southwest, Houston Power 
and Light, and Texas Utilities. And there are many, many more.
    USEA receives funding support from three sources--first, 
the USAID Office of Energy, Environment, and Technology of the 
USAID Global Bureau; secondly, the USAID Bureau for Europe and 
New Independent States; and, thirdly, the Overseas USAID 
Missions.
    The goal of these partnerships is to promote more 
efficient, environmentally sound supply and use of energy by 
transferring commercially viable, market-oriented approaches to 
overseas electric and gas utilities. Additionally, these 
partnerships help to enhance opportunities of U.S. investment 
and trade in international energy markets.
    The partnerships are very cost effective. On average, every 
dollar of USAID funding leverages two to three dollars from the 
U.S. and overseas utility partners.
    We understand that in last year's report this subcommittee 
urged the USAID to stress particular matters in its energy 
programs, including power sector and energy use efficiency, 
collaboration with U.S. Industry, host country institutional 
capacity building, legal or regulatory reform, trade and 
technology transfer.
    From the following abbreviated list of results emanating 
from USEA's International Energy Partnership Program, I believe 
you will see the usefulness of this collaborative approach to 
foreign assistance. In India, the Southern Company of Atlanta, 
Georgia, has been short-listed to participate in a joint 
venture with their partner, Calcutta Electric Supply Co., to 
build, own, and operate a 700-megawatt independent power plant 
in India.
    The Columbia Gas Distribution Company helped its Russian 
utility partner establish an automated customer information 
system and direct access payment centers that is projected to 
save $61 million.
    Niagara Mohawk Power Corporation's international subsidiary 
has signed a joint venture to market solid state electric 
meters, made under a Niagara Mohawk patent, in India to replace 
the unreliable mechanical meters used by most utilities.
    And moving to modern technology, microchips, and so forth, 
we essentially are able to take a system like India's and just 
leapfrog several generations that America has gone through to 
reach this point. So it is a great leap forward kind of an 
approach. Plus, it provides business for U.S. companies.
    USEA established the U.S. Caspian Oil and Gas Environmental 
Program to join U.S. oil and gas companies with the nations 
bordering the Caspian Sea to solve critical environmental 
problems.
    In India, Pennsylvania Power and Light helped its partner 
to improve the generation efficiency of coal-fired power plants 
and utilize fly ash waste. in Senegal, GPU--General Public 
Utilities--from New Jersey helped to redraft the electricity 
laws and regulations to permit private sector participation in 
its power generation and distribution system.
    It seems like a bureaucratic thing to do, but I have come 
to learn how fundamentally important it is to get the laws and 
regulations in these evolving overseas economies straight, so 
that there can be maximum opportunity for others to help out.
    USEA would like to thank you for this opportunity the 
subcommittee has given us, and for USAID for supporting our 
International Energy Partnership Program, and we would like to 
make three requests.
    The first request is that the Subcommittee on Foreign 
Operations support continued or increased funding for the 
energy programs of USAID Global Bureau and USAID Bureau for 
Europe and the New Independent States, especially for the 
international energy partnerships.
    Secondly, we would urge your support for the lifting of 
sanctions on India to enable our program to continue to 
assisting the electric utilities and regulatory commissions of 
that important nation.
    And, finally, we would urge you to encourage USAID to 
support a Central American utility partnership to enable U.S. 
utilities to provide management assistance to the utilities in 
Central America that were devastated by the impact of Hurricane 
Mitch.
    Thank you very much.
    Mr. Callahan. Thank you, Mr. Derrick. And your entire 
statement shall be inserted into the record.
    Mr. Derrick. Thank you.
    [The information follows:]

[The official Committee record contains additional information here.]


    Mr. Callahan. Dr. Guthrie.
    Good morning, Doctor. I guess you heard me admonish people 
about taking more than five minutes?
    Dr. Guthrie. I caught on. [Laughter.]
                              ----------                              --
--------

                                           Thursday, March 4, 1999.

            INTERNATIONAL AGRICULTURE AND RURAL DEVELOPMENT


                                WITNESS

DR. RICHARD L. GUTHRIE, INTERNATIONAL AGRICULTURE AND RURAL DEVELOPMENT 
    GROUP
    Dr. Guthrie. Mr. Chairman, and distinguished members of the 
committee, thanks for letting me speak today about 
international agriculture and rural development. I am speaking 
on behalf of an informal coalition of universities that are 
interested in international agricultural development and 
research.
    The group is led by Peter McPherson, President of Michigan 
State University and a former administrator of the Agency for 
International Development.
    And so I think you know I represent one of the 22 
universities that are involved--Auburn University in Alabama. 
And there are 22 universities informally involved in this 
coalition, 22 of the finest land-grant universities in the 
United States.
    Let me briefly explain why we think agricultural 
development is a key to overall economic development, including 
our own in the U.S. As the per capita incomes rise above the 
subsistence level in many of the developing countries, people 
spend more of their income on goods and services other than 
food.
    Resources have to be shifted out of the agricultural sector 
to produce the goods and services, as that demand is 
increasing. Modernization of agriculture--obviously, 
introduction of new technologies, enhancing productivity--
accelerates that process, while at the same time inducing 
broad-based growth.
    A food system that produces nutritious, safe, and 
reasonably priced food is essential to addressing health 
problems, especially for children in the developing world. Two-
thirds of all of the children in developing countries live in 
rural areas, and their families primary source of income comes 
mainly from agriculture.
    Agriculture production patterns, processing, marketing, 
educational efforts, and increasing purchasing power are all 
keys to improving the nutritional status of people in 
developing countries. Therefore, it is essential that 
agriculture and food systems development be a primary concern.
    We live and work back home, in your districts. How does 
international ag development help the farmer in your district? 
For example, we believe that assistance provided from 
agriculture development in developing countries is one of the 
best ways to boost U.S. farm exports. We have seen it 
happening.
    It tends to generate the broad-based income growth that 
those countries need to become better customers--customers for 
agricultural products, but not limited to agricultural products 
by any means, and enhances the exports of many other U.S. 
commodities.
    What about universities? I know you are familiar with the 
Collaborative Research Support Program, the CRSP program, which 
was developed and supported by USAID and land-grant 
universities in the U.S. There are nine of them--nine--
involving about--a number of universities in 35 states and 
land-grant universities and the District of Columbia.
    It is a very efficient research--collaborative research--
program that has been leveraged, really, because of the 
contribution from the universities themselves--a minimum of 25 
percent cost sharing or matching, and contributions from host 
government institutions in other countries, too. We linked 
together our scientists through the CRSPS.
    Our bottom line is really simple. Ag development is very 
important, benefitting institutions and people here in the 
U.S., as well as in developing countries. It deserves adequate 
funding.
    We have been working through this coalition since 1997, 
following the '97 appropriations process. By fiscal year 1997, 
the funding for ag development had dropped to about $240 
million, and I know you know these numbers--a major decrease 
from a decade earlier; in fact, a 75 percent decrease.
    We worked with your subcommittee and Mr. Atwood and AID, 
and we are pleased to see that there has been some recent 
increase over the past two years to about $305 million for 
overall ag research and development. And we are certainly very 
appreciative and grateful for the support of this subcommittee 
for what has happened there.
    And in the fiscal year 1999 foreign ops bill, 
appropriations bill, there was some strong language there 
directing the agency to, you know, keep on track here. We 
welcome that increased funding; however, we do not really 
believe that it has come that close to where it should be. And 
we are saying we believe these activities should be funded at a 
minimum of $500 million a year--ag research and development--up 
from the $305 million.
    We do not yet know exactly what is in the USAID's fiscal 
year 2000 budget request but have some reason to believe that 
that number has gone back down again instead of increasing.
    Furthermore, we really believe--in the universities that we 
are directly involved in in CRSPs--we would like to see the 
funding for those CRSP programs go to $34 million a year. It 
would be, you know, an increase of $17 million. That would put 
it back close to where it was quite a few years ago, and it 
certainly is no major increase.
    Thanks for the time, and the opportunity. It has been a 
privilege for me to be able to be here and make this 
presentation, and we certainly want to thank the subcommittee.
    Mr. Callahan. We certainly hope that our messages will have 
had some impact on their decision. My daughter Kelly graduates 
March 19th. You lose your number one lobbyist. But if she 
graduates cum laude, you will have a strong lobby in the form 
of----
    [Laughter.]
    Dr. Guthrie. I will bet she does. [Laughter.]
    Mr. Callahan. She has a 4.0 at this point. Do not mess her 
up this last week. [Laughter.]
    Thank you, Doctor.
    Dr. Guthrie. Thank you.
    [The information follows:]

[The official Committee record contains additional information here.]


    Mr. Callahan. Mr. White. Peter, it is good to see you. I 
guess you have been here long enough to hear me admonish 
everyone else about the time constraints. We are glad to have 
you here.
                              ----------                              

                                           Thursday, March 4, 1999.

             THE SOUTHERN CENTER FOR INTERNATIONAL STUDIES


                                WITNESS

PETER C. WHITE, THE SOUTHERN CENTER FOR INTERNATIONAL STUDIES
    Mr. White. Mr. Chairman, I think it is a little difficult 
to be threatened with a death sentence if you run over five 
minutes. [Laughter.]
    I will do the best I can.
    I just wanted to say that The Southern Center for 
International Studies is a nonprofit, non-partisan educational 
institution that is now 38 years old whose purpose is to try to 
broaden the knowledge of Americans about international affairs.
    Through the years, we have done hundreds of conferences and 
seminars and meetings. Sixteen years ago, we began convening 
for the first time in American history the former secretaries 
of state. Twelve years ago, we did the same with the 
secretaries of defense. Those programs continue.
    We have also organized meetings with the secretaries of 
education, treasury, world leaders. These meetings have been 
held around the United States and overseas. All of them have 
been televised by PBS. We edit and produce our own television 
programs.
    Some years ago it became apparent that there was an 
interest and a need in the educational world to supplement 
courses in international affairs because of the growing lack of 
interest among Americans in foreign policy. We, as a result, 
developed a teaching package entitled ``The End of the Soviet 
Union,'' tested it in Virginia, North Carolina, and Georgia, 
and got such a positive response we expanded the program to 
include several more additions, one on the Middle East, one on 
Latin America, Asia, and there is one on Africa coming out 
soon.
    What has happened is that Americans have never been very 
knowledgeable about international affairs. At no time since the 
period before the second World War have Americans been, in 
fact, disinterested, as they are today. We conclude that this 
disinterest is the result of a lack of opportunity for learning 
about international affairs at the elementary and secondary 
levels of our schools.
    We are finding, for example, that social studies teachers 
are not necessarily people who have even studied social studies 
in college as undergraduates. And, in fact, with the boom in 
educational enrollments, uncertified teachers are being added 
to the teacher core every day in very large numbers, who have 
not had any courses in any of the social studies i.e. 
economics, politics, at all. So you have got a real problem.
    It is compounded by the fact that 80 percent of all 
Americans get all of their news from television, and the 
television people only devote on a daily basis two and a half 
percent of their domestic broadcasts dealing with international 
affairs. So we have got a problem to address.
    We have developed these educational materials, we have 
tested them in states like North Carolina, Alabama, Florida, 
Virginia, Georgia, South Carolina. We now have major university 
centers that are designed to distribute these materials. The 
idea is to train a core of master teachers in each of these 
states who then go out and train other teachers. These are 
multi-media packages, which you have seen so I do not have to 
describe them to the committee.
    We have had now a very encouraging report from North 
Carolina. The University of North Carolina-Chapel Hill has just 
completed--is completing a Ph.D. study on the impact of these 
materials, and they are finding that they improve teaching, 
teacher morale, and what the students are learning about these 
issues.
    Interestingly enough, one of the things that is coming out 
of this is that students are becoming more interested in 
economics, politics, foreign cultures, and that sort of thing, 
but they are also showing great interest and curiosity about 
their own country, until you get to the point of civics, as you 
have mentioned a few times, about being something that 
Americans are not very much interested in or informed about.
    By the end of next year, we expect to have a similar study 
from the State of Alabama. As you know, we have a very well-
defined program in Alabama through UAB-Birmingham. These 
materials are designed to educate people about the world, and I 
think that they are being very effective. They are updated, by 
the way, on a quarterly basis on our web site.
    I think that if the United States of America is to be 
successfully competitive in the global economic environment, 
our high school graduates have got to know more about world 
affairs. And that is what the end purpose of the project is.
    To date, this project has been supported exclusively with 
funds from the private sector, private foundations, 
corporations, and states. And my purpose here is to really 
inquire as to whether or not we could possibly find funding for 
this project in other states. Currently, we are involved, as I 
have said, in Georgia, Alabama, North Carolina, South Carolina, 
Florida, and Virginia.
    Mr. Chairman, thank you very much for allowing me to come 
here today.
    [The information follows:]

[The official Committee record contains additional information here.]


    Mr. Callahan. Well, thank you very much. And as you well 
know, in Alabama, as far as Brian Rich had knowledge, he 
briefed me before I had the opportunity to meet with you to be 
briefed on your program. You know, you were not specific in 
your request. I think you were rather general. Have you 
discussed this with USAID?
    Mr. White. No, I never have. I have discussed it with the 
Department of Education and found that the only money available 
in the Department of Education budget is through the Eisenhower 
grants, which were designed after Sputnik, basically, and they 
have been pretty much centered toward the education of people 
in science and mathematics.
    States can get an exemption from it, but the reality is 
that it is difficult, if not impossible, for social studies 
people to get any help from that area.
    AID people, I do not know. I have not contacted them.
    Mr. Callahan. Well, you know, I do not even know that it 
would come under the purview of the USAID, or even the State 
Department. But, certainly, there would be an association 
there.
    Part of the problem with getting adequate funding for 
international affairs is a lack of understanding on the part of 
the American people. I get very few people in my district who 
call me and tell me, ``Give more money to foreign assistance.'' 
You know, they are all telling me just the opposite. That is 
simply because they are not educated because there is no way 
they can be adequately educated on the needs of foreign 
assistance.
    We have been over the studies that have been made, and the 
lack of knowledge that they have, not only in foreign affairs 
but in basic civics as well.
    I still encourage you to look at basic civics and continue 
to look at that, because I think that that is a shortage that 
we have here in this country.
    Thank you very much.
    Mr. White. Well, thank you very much, Mr. Chairman.
    Mr. Callahan. Congressman Pallone, you are late. 
[Laughter.]
    Mr. Pallone. I am sorry, Mr. Chairman.
    Mr. Callahan. Well, we are going to let you testify anyway.
    Mr. Pallone. Thank you.
    Mr. Callahan. Provided you do not take more than five 
minutes.
    Mr. Pallone. Oh, no, I am going to be very brief and 
summarize my testimony, which I have submitted for the record, 
if that is okay.
    Mr. Callahan. Thank you.
                              ----------                              

                                           Thursday, March 4, 1999.

                   ARMENIA, INDIA, CYPRUS AND ISRAEL


                                WITNESS

HON. FRANK PALLONE, JR., A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY
    Mr. Pallone. Mr. Chairman, I wanted to just briefly go over 
Armenia, India, Cyprus, and mention something also about 
Israel. You have been--you and the committee have been very 
cooperative, as you know, with regard to assistance to Armenia. 
And, basically, what I am asking is that the amount provided--
or the percentages that are indicated for the newly independent 
states in the former U.S.S.R. stay the same.
    I know that you are probably going to tell me that the 
amount of the allocation overall is less than last year, but 
what I just do not want to see is an increase in the amount of 
aid that goes to Azerbaijan and the decrease that goes to 
Armenia, which I know the administration has requested, because 
I think that sends the wrong signal.
    If we had the same percentages as we did last year, you 
know, I would be very happy. And, you know, I leave that to you 
because I know that, you know, things are getting tougher all 
the time with the numbers.
    I also wanted to mention that I appreciate your continued 
support of assistance to Nagorno Karabakh. There was language 
in last year's bill that says that over the two-year period 
that ends in September of 2000 that $20 million in humanitarian 
assistance be provided to the victims of the Nagorno Karabakh 
conflict residing in Nagorno Karabakh.
    If that is not reinstated, then, theoretically, it would 
expire at the end of this fiscal year. We want that to be a 
two-year program, as it was stated in the last year's bill.
    I have to be a little critical of the State Department 
because they really have not moved on this very much, which is 
why we need this two-year period. And, you know, we maybe even 
could put some language in there recommending that the deadline 
be extended for U.S. aid for initial requests of funding, 
because, frankly, a lot of this funding just has not gotten 
through.
    But I want to thank you for your support on that.
    Mr. Callahan. You have many allies on the committee who 
share your views, and we have instructed the staff to contact 
the administration to find out why more of the money has not 
already been allocated.
    Mr. Pallone. And you have had some hearings on it--not 
hearings, but briefings on it.
    Mr. Callahan. We do not want to tell them to spend the 
money immediately. We want them to spend it responsibly.
    Mr. Pallone. Sure.
    Mr. Callahan. But at the same time, we want to make certain 
that they do have pipeline ideas at least.
    Mr. Pallone. Exactly. I appreciate that.
    The other thing, of course, is with regard to Section 907 
of the Freedom Support Act. I would, obviously, like to see no 
change in that--you know, no--I know that there are some 
exemptions that are put in there, and they are likely to be put 
in again. But I did not want to see it extended any more with 
any other exemptions.
    And I was hoping we could get some language in the bill 
calling on the administration to report to Congress on what 
steps it is taking to ensure that Azerbaijan complies with the 
conditions of 907. If you would consider that.
    The Humanitarian Aid Corridor Act, you always put that in 
every year. I would like to see continued strong enforcement of 
that.
    And the last thing on Armenia--if we could get some 
language supporting the Minsk Group negotiations. I know you 
are very supportive of that, and you have constantly pushed the 
parties to try to do more to come to an agreement on Karabakh.
    But if we could put something in there urging the State 
Department to stay the course and press Azerbaijan to come back 
to the negotiating table--as you know, they have not been 
supportive of the latest proposal on the common states, which I 
think is a good idea. And if they could come back and consider 
that again, and get the committee to say, ``Look at that 
again,'' that would be helpful.
    I wanted to mention briefly about India. Last year, there 
were major efforts that were successful to ease the sanctions 
against India as a result of the nuclear tests. And there has 
been a lot of progress. The Prime Minister of India went to 
Pakistan. There has been a lot of good feeling that has come as 
a result of that.
    Both parties have made statements about trying to not 
conduct nuclear tests and possibly sign the test ban treaty. I 
think it is time to just basically eliminate these sanctions 
that are not military related.
    We still have some sanctions, for example, where the U.S. 
is opposed to lending by international financial institutions, 
which I think makes no sense. So if you would consider using 
the appropriations bill as a vehicle to try to eliminate some 
of those sanctions, I would appreciate it.
    And on Cyprus, I am asking for $15 million in aid to 
Cyprus, also to insulate that from the politics of the 
situation. I know there was an effort in the past to link this 
aid to a resolution of the dispute over these missiles that 
were coming from Russia. But those missiles are not going to 
Cyprus now, and so I really do not see any reason why we have 
to link the aid to anything--any kind of political statement 
like that.
    And finally, just, again, to urge the subcommittee to 
approve the $2.88 billion in assistance to Israel, which is 
actually a decrease in economic aid, but that, of course, is 
something that the Israeli government is willing to go along 
with in their ongoing efforts to try to, you know, be more 
helpful in terms of the amount of assistance that we provide.
    But thank you again for all of your efforts.
    [The information follows:]

[The official Committee record contains additional information here.]


    Mr. Callahan. Thank you.
    Mr. Pallone. Loved working with you.
    Oh, let me ask you one more thing. I know that after me 
there is going to be testimony by my medical school. They have 
a proposal, and I just want you to know that I am very much 
supportive of that. They are going to be up here later.
    Mr. Callahan. Well, they do not need to testify, if you 
request it. I give it the numbers----
    [Laughter.]
    Mr. Pallone. Thanks.
    Mr. Callahan. As long as they do not vote against any 
amendments to cut back in my bill and provided----
    Mr. Pallone. You will not see that from me. [Laughter.]
    Mr. Callahan [continuing]. Provided they do not offer any 
amendments to cut----
    [Laughter.]
    Mr. Pallone. Take care.
    Mr. Callahan. Thank you.
    Former Congressman Moody. How are you, Jim?
                              ----------                              --
--------

                                           Thursday, March 4, 1999.

                      NON-GOVERNMENT ORGANIZATIONS


                                WITNESS

JIM MOODY, INTERACTION
    Mr. Moody. How are you, sir? Mr. Chairman, nice to see you. 
I admire your stamina and patience and good humor.
    Thank you for having me today.
    I wanted to just not come up here and ask for more money 
for NGOs for AID. That is what usually happens. I thought I 
would just share with you a couple of concepts I have that I 
think may be more helpful.
    I would like to relate the work we do with the NGO 
community and with the wider concept of security, global 
security. Most of the likely and frequent threats to global 
security in today's world, go far beyond the reach of our 
traditional military security apparatus. And I think we need to 
integrate our foreign policy objectives around that new 
reality.
    As we struggle to put together a foreign policy framework 
in the post-World War period, I think we need to realize that a 
number of issues impinge on each other, and that there is a 
sort of continuum of issues which I think are particularly 
relevant to developing countries where our members work, and I 
think therefore, relevant to American NGOs working overseas.
    Let me mention points that I think are relevant. One, 
economic prosperity worldwide. I think that has to be a key 
economic and foreign policy objective. Poor countries with 
large populations produce huge future markets for U.S. 
products, and, therefore, affect our own prosperity. For this 
to happen, the economic growth must be equitable, not 
concentrated in a few families, so that a middle class emerges.
    Number two, the marketization of human rights. Democratic 
societies are better at resolving social and ethnic conflicts, 
at distributing food supplies more equitably, and at protecting 
the citizens and Americans, visiting and working in these 
countries from politically motivated violence. We have seen 
that in the last few days.
    Further, Democracies seldom, if ever, start wars with their 
neighbors and are better at protecting human rights. And 
democratically-governed societies with transparent rules of law 
and accountability make better decisions that affect us all, 
including Americans.
    A third point, I would say, is that another goal of our 
foreign policy perhaps should be the absence--strive, 
specifically, for the absence of social, economic, and 
political turmoil. We have seen the fruits of ethnic turmoil in 
the Middle East, the causes in the Balkans.
    We have seen the results of economic turmoil in Indonesia, 
Malaya, and other Asian countries, and on our own farm economy 
right here at home, as farm prices plummet for items that used 
to be exported to that region.
    Prospering democratically-governed countries that allow 
space for a vibrant civil society are better able to make 
transitions required in the rapidly changing global economy. 
Therefore, that I think should be high on our list.
    Number four, containment of infectious diseases with 
exponential growth in global travel, exchanges, migration, 
etcetera. This will become increasingly important.
    Number five, and lastly, protection of the global 
environment. From protecting the oxygen-producing forests in 
the Amazon, Africa, Southeast Asia, and elsewhere, to 
protecting the coral reefs, which start the food chain for rich 
fish resources, to combatting growing dryness and the spread of 
the desert--in all three continents, American citizens, 
consumers, and taxpayers all have a stake in that battle.
    I recently attended a teleconferencing event with five 
former secretaries of state, Mr. Chairman--George Schultz, Mr. 
Kissinger, Cyrus Vance, Jim Baker, and Madeleine Albright also 
spoke. And they all agreed on one thing--that the threats 
facing America post-Cold War are not predominantly military but 
are predominantly in political turmoil, economic turmoil, 
transnational crime, terrorism, drugs, poverty, and the spread 
of infectious diseases.
    All of those things are not well suited to what we spend a 
lot of our money overseas on, combatting those and dealing with 
those. Those are the challenges.
    I think it is fair to say that from several decades of on-
the-ground experience in these countries--I myself have served 
in Pakistan, Bangladesh, Iran, Tunisia, Yugoslavia, and Central 
America--that NGOs can make a vital and, in fact, an 
indispensable contribution on these fronts, often in 
partnership with AID or other forms of U.S. Government 
assistance.
    I think our NGOs have some advantages, special advantages. 
Primarily, American NGOs are very good in this way. They tend 
to have low overhead, they have flexibility, a lot of 
dedication, and people work for very low or almost no wages. 
Also many of them are religiously- or morally-based, and that 
gives them a moral credibility. And they reach out for local 
partners to work with, which often extends the effect and 
impact, and leaves lasting institutions which remain behind 
them as they go.
    So a final thought would be that we should think of the 150 
account, including humanitarian, environmental, human rights, 
and democratization accounts as separate from our global 
security accounts, export promotion accounts.
    I think they all work together, and they all need each 
other. They are complementary and reinforcing of our military 
spending, our military security, our export promotion, and our 
other accounts for global security. They are, in effect, 
investments in our children's future.
    And, perhaps even more importantly, they are reinforcing 
America's traditional and historic commitment to fairness, 
human rights, dignity of the individual, and prosperity that is 
equitably shared. So I am very proud of what the NGOs have 
done, and I think they are well positioned to continue that 
work.
    Thank you very much, Mr. Chairman.
    [The information follows:]


[The official Committee record contains additional information here.]

    Mr. Callahan. Thank you, Jim. I think you know the feeling 
on this committee about the effectiveness of NGOs and they do a 
great job.
    Mr. Moody. Thank you, sir. And thank you for your support.
    Mr. Callahan. Thank you.
    Cyrus Jollivette.
                              ----------                              --
--------

                                           Thursday, March 4, 1999.

 DANTE B. FASCELL NORTH-SOUTH CENTER, AND THE INTERNATIONAL CENTER FOR 
                            HEALTH RESEARCH


                                WITNESS

CYRUS JOLLIVETTE, UNIVERSITY OF MIAMI
    Mr. Jollivette. Good afternoon, Mr. Chairman, and thank you 
very much for letting me appear. It is good to see you again.
    And I am very mindful of the time constraints that you 
have, and I just want to present a brief statement today and 
ask that the testimony that I submitted be included in the 
record.
    And I wanted to talk with you today about two important 
nationally recognized centers housed at the University of 
Miami--the Dante B. Fascell North-South Center, and, at our 
School of Medicine, the International Center for Health 
Research.
    The Dante B. Fascell North-South Center is permanently 
authorized in Public Law 102-138, and it is the only research 
public policy study and information center of its type that is 
exclusively dedicated to finding practical solutions to 
problems in policy issues facing the Americas.
    The center works to carry out a congressional mandate to 
promote better relations among the United States and the 
nations of Canada, Latin America, and the Caribbean. The 
Fascell North-South Center combines programs of public policy, 
cooperative study, research, and training.
    The Fascell Center's priority research agenda focuses on 
what we consider to be vital American issues such as trade and 
investment, migration, security, democratic governance, civil 
military relations, corruption, institutional reform, civil 
society participation, and sustainable development.
    The findings of the center's research reach scholars, the 
policymakers, and opinion leaders in the nation and throughout 
the hemisphere through a variety of publications, including 
scholarly books and monographs.
    We have a wide amount of expertise at the center, and it 
has distinguished itself as an invaluable national resource for 
identifying, analyzing, and understanding the myriad of issues 
that have the potential to impact the United States' future 
prospects in a region of growing importance or economic 
competitiveness and security.
    We believe that the Dante B. Fascell Center is a vital 
national resource, and it is uniquely positioned geographically 
and academically to create constructive input and play an 
important role in these processes.
    With a firm research base, and an ever-widening network of 
public and private partnerships in the U.S. and the rest of the 
hemisphere, the Fascell Center is uniquely placed to facilitate 
the constructive development and evolution of cross-border 
relationships among the nations and peoples of the Americas.
    Respectfully, Mr. Chairman, we are seeking $1.75 million to 
ensure that the Dante B. Fascell North-South Center can fulfill 
its mandate.
    I would like to take a moment, too, to commend you for your 
leadership and significant and invaluable efforts in providing 
continuing support for the communicable disease initiative in 
USAID. Like the subcommittee, my colleagues at the university 
believe that it is imperative that the U.S. address the threat 
of infectious diseases by responding to the dramatic increase 
in the resurgence of communicable diseases affecting children 
and adults.
    And we need to assist developing countries to strengthen 
their ability to protect and care for their people and to stop 
the spread of communicable diseases.
    For a long time, we thought that emerging and reemerging 
diseases would sharply decrease around the world, but the 
increase now is for multidimensional reasons, including 
population growth and increased mobility, environmental and 
climate changes, urbanization, the evolution of microbes, drug-
resistance organisms, modern travel and trade, and 
international commerce, travel, migration within the Americas, 
which are creating new opportunities for disease reemergence 
and greater spread.
    The University of Miami is uniquely located in Miami, the 
major gateway city to Latin America and the Caribbean. And the 
major goals of the International Center for Health Research are 
to investigate the biological characteristics of cognitive 
microbiologic agents to study the risk factors related to the 
spread of these infections, including interactions between the 
nutritional status and susceptibility, as well as to develop 
innovative, preventive strategies.
    One of the important roles of the Health Research Center 
involves collaborative infectious disease control and 
prevention efforts to broaden the expertise of indigenous Latin 
American and Caribbean health professionals, and to link 
laboratory science and epidemiology with public health 
strategies and policymaking processes.
    Our health center's priority is to strengthen programs for 
the control of major infectious diseases, particularly malaria, 
dengue, TB, and cholera. We also place emphasis on programs 
aimed at preventing the spread and reducing the impact of HIV 
infection and other sexually-transmitted diseases.
    We believe that there is an urgent need to strengthen the 
existing research infrastructure and a close collaboration 
between U.S. and Latin American and Caribbean scientists and 
policymakers. This enhanced research will lead to development 
of new effective strategies for control and prevention of the 
emerging and reemerging diseases in the Americas.
    We hope, Mr. Chairman, that the subcommittee would 
encourage USAID to expand its resources beyond its traditional 
outlets. And, respectfully, we seek $1 million in order to play 
an even far more active role in the necessary and continuing 
fight against infectious disease.
    I want to thank you very much for allowing me to appear 
here today on behalf of the University of Miami.
    [The information follows:]

[The official Committee record contains additional information here.]


    Mr. Callahan. Thank you, sir. Former Congressman Larry 
Smith stopped by and said that you would be coming and told me 
to treat you nicely. Commerce/Justice funds the Dante B. 
Fascell Center----
    Mr. Jollivette. Yes.
    Mr. Callahan [continuing]. We fund infectious diseases 
through USAID. But in any event, we appreciate very much your 
testimony.
    Mr. Jollivette. Thank you, sir.
    Mr. Callahan. Thank you, sir.
    All right. Mr. Robert Manoff. How are you this morning, 
sir?
    Mr. Manoff. Mr. Chairman, it is good to see you again.
    Mr. Callahan. Nice to see you.
                              ----------                              

                                           Thursday, March 4, 1999.

                   NATIONAL PRESS INSTITUTE OF RUSSIA


                                WITNESS

ROBERT MANOFF, NEW YORK UNIVERSITY
    Mr. Manoff. Mr. Chairman, members of the committee, I am 
the Director of the Center for Peace and News Media at New York 
University, which runs the National Press Institute of Russia, 
NYU's flagship initiative in that country. I would like to 
thank you, Mr. Chairman, and the committee, for your previous 
support for our work and for your support for independent media 
in Russia and the NIS, in general.
    I am submitting written testimony, and I would like today 
to underline and draw attention to five specific points which 
have been included in that testimony.
    First, even before the crisis, the Russian independent 
media were in jeopardy. They faced daunting political, 
economic, professional challenges, and renewed government 
efforts to restrict their independence and their ability to 
operate as a tribune of the people.
    However, there was progress being made, partly through the 
efforts of NGO's like the National Press Institute, and largely 
through the efforts of the journalists and the publishers 
themselves, especially in Russia's regions where the oligarchs 
had not yet successfully penetrated and bought up the newspaper 
system, as they have in Moscow. That was the circumstance on 
the eve of the crisis.
    The second point I would like to make is that the crisis 
that began on August 17th, and in which we still find 
ourselves, has been devastating for the independent media in 
Russia, and notably for the independent newspapers with which 
we mostly work.
    Circulation has plummeted. Subscription income, which is 
the main source of support, has evaporated in many cases. 
Advertising revenue has fallen 70 percent. (And, as you know, 
in the United States, and in all systems where commerce and not 
state subsidies support newspapers, advertising is the primary 
source of revenue.) Paper and printing costs have increased by 
100 or 200 percent in some cases. I could go on. The list is 
stunning.
    The consequences for citizens and Russian democracy are 
also very fateful. Papers have become smaller. They have 
shrunken in the number of pages. They come out less frequently, 
if at all. Staff cuts have been made, cuts in news budgets, 
wire services.
    In a nutshell, there is less news and less serious 
reporting at a time when a crisis in the country and the 
economic and political issues really require the informed 
consent and participation of the Russian public and policy 
elites.
    Regional newspapers that once circulated widely now only 
circulate within individual cities, leaving much of the country 
in an information black hole. News quality is down. The 
aggressiveness of reporting is down. Therefore, the role that 
newspapers can play in ensuring government accountability is 
not being played.
    Finally, there is now more government control of the news 
media, more government control of all of the information that 
flows to the public.
    Third--and I want to underline this point--newspaper 
publishers and journalists belong to the emerging class of 
Russians who neither seek nor expect assistance from the state. 
Their confidence has been shaken by the crisis, but their 
determination remains strong. In fact, they merit our support--
we might say--a new post-Leninist anti-communist vanguard. They 
are really leading the way.
    Fourth, the independent print media in the regions are 
responding rationally and effectively to the crisis. But they 
do not have the resources or know-how to survive on their own. 
They are resisting government subsidies. The newspapers with 
which we work do not want to be subsidized.
    They understand the strings that come with government 
funds. They are cutting costs. They are rationalizing 
circulation. They are seeking advertising aggressively. They 
are improving the quality of their product, which is ultimately 
the point of the whole exercise.
    Fifth, assistance to the independent media in Russia is a 
great investment for this country. The independent media are 
the backbone of democracy and free markets, as you know. The 
media provide extraordinary leverage and a multiplier effect 
that impacts all aspects of American policy. A little bit of 
help to the media goes a long way. Media assistance funds are 
not wasted funds.
    Finally, assistance, however, cannot be piecemeal, 
halfhearted. As we argue in the written testimony, it needs to 
be sectoral. It needs to be strategic. It needs to be long-
term. Just as it is said that a woman cannot be half pregnant, 
it might also be said that the media sector cannot be half 
fixed.
    Thank you very much.
    Mr. Callahan. Thank you very much for your testimony, sir. 
Your entire testimony will be submitted for the record.
    Mr. Manoff. Yes, Mr. Chairman. Thank you very much.
    Mr. Callahan. We thank you very much.
    [The information follows:]


[The official Committee record contains additional information here.]

    Mr. Callahan. Dr. Feldman. How are you, Doctor?
    Dr. Feldman. Fine. How are you?
    Mr. Callahan. Fine. Thank you.
                              ----------                              

                                           Thursday, March 4, 1999.

           UNIVERSITY OF MEDICINE AND DENTISTRY OF NEW JERSEY


                                WITNESS

DR. LAWRENCE A. FELDMAN, UNIVERSITY OF MEDICINE AND DENTISTRY OF NEW 
    JERSEY
    Dr. Feldman. Mr. Chairman, I respectfully present testimony 
of the University of Medicine and Dentistry of New Jersey, 
UMDNJ, the largest public health sciences university in the 
nation.
    The UMDNJ statewide system is located on five academic 
campuses and consists of three medical schools and schools of 
dentistry, nursing, health-related professions, graduate 
biomedical sciences, and our newest school, the School of 
Public Health.
    UMDNJ also comprises a university-owned acute care 
hospital, three core teaching hospitals, an integrated 
behavioral health care delivery system, a statewide system for 
managed care, and affiliations with more than a hundred health 
care and educational institutions statewide.
    UMDNJ is the home of the International Center for Public 
Health and the Center for Disease Control's Center for 
Tuberculosis Research, Education, and Training, both of whom 
have established major international collaborations in 
infectious diseases research.
    No other institution in the nation possesses resources 
which match our scope in higher education, health care 
delivery, research, and community service initiatives with 
state, federal, and local entities.
    I appreciate this opportunity to bring your attention to a 
priority project of UMDNJ that is consistent with the mission 
of this committee to counter the threat of chemical and 
biological terrorism.
    In our complex world of instant communication and ease of 
global transportation, disaffected individuals or political 
groups have access to highly destructive weapons of terror. 
With our open society, the United States is particularly at 
risk to an individual with a grudge, a band of ideologically 
motivated fanatics, or to nations seeking revenge.
    The possibility of the employment of weapons of mass 
destruction on an innocent population has already become a 
reality with the Sarin nerve gas attacks in the subways of 
Tokyo. State and local governments and health organizations 
need reliable information upon which to develop and coordinate 
response plans for contingencies due to weapons of mass 
destruction. They need programs to educate planners and 
response teams on the public health aspects of these threats 
and how to recognize and respond to them.
    In addition, they need to understand both the short- and 
long-term implications for human and ecologic health. Such a 
plan requires a broad base of scientific and educational 
expertise which has an international scope in order to devise 
approaches or to early detection and treatment of biological 
and chemical weapons of terror.
    As citizens of the nation's most densely populated state, 
we in New Jersey have a particular concern about being targets 
of violent chemical terrorist activities. Our communities abut 
each other, and our traffic patterns are statewide, making us 
especially vulnerable to infectious diseases.
    There are no obvious geographical boundaries to readily 
institute a quarantine. Our central location as a 
transportation hub for the populous northeast also makes us a 
prime target.
    Terrorists have three types of weapons available to them. 
For the first, explosive devices, although increasingly deadly 
we have developed responses and have become all too familiar 
with their form of terror and chaos. The other two types of 
terrorist weapons are relatively new and present particular 
challenges to our normal response processes.
    These are chemical weapons of terrorists, such as nerve 
gas, and biological weapons of terror, such as anthrax 
bacillus. Chemical and biological weapons differ dramatically 
from explosions in that for these newer threats early 
recognition and diagnosis is crucial for both those initially 
infected and for others who might yet be affected through the 
spread of infection or contact with the chemical.
    Education of emergency responders to correctly identify 
these threats, whether they occur here or abroad, is crucial to 
minimize the impact of biological and chemical weapons, as well 
as to protecting the emergency responders themselves. 
Compounding our problems is the need for a better understanding 
of the effects of likely chemical and biological agents of 
terrorism, development of the means to prevent their spread, 
and to rapidly treat their victims.
    We respectfully make four recommendations for the 
committee's consideration. One, provide funding for a major 
program aimed at improving the recognition of the effects of 
chemical and biological terrorism weapons by community 
emergency response elements.
    Two, unify the approaches to educating emergency responders 
about chemical and biological terrorism.
    Three, provide multi-agency funding to force the 
international research efforts to identify, understand the 
pathogenicity, and learn how to neutralize agents being 
developed by terrorists intent on using biological and chemical 
agents.
    Four, provide funding for research designed specifically at 
understanding the health effects of chemical and biological 
agents on large populations, so that early diagnosis and 
treatment becomes more likely.
    The nation's foremost program in education and training 
concerning chemical and physical threats is headed by a UMDNJ 
faculty member, Dr. Audrey Gotsch, who is currently President 
of the American Public Health Association. Among her programs 
is the Center for Education and Training, which provides 
training concerning chemical and physical agents to more than 
1,600 police, firefighters, municipal and state employees, as 
well as to physicians, nurses, and industrial hygienists.
    Because of its scientific expertise, UMDNJ is uniquely 
qualified to develop a program to educate state and municipal 
governments, emergency responders, and health and hospital 
professions on planning for response to terrorism and training 
personnel to deal with threats of terrorism and how they affect 
the public.
    UMDNJ also has the international collaborative studies in 
infectious disease and health education, and is uniquely 
positioned to study these problems and to provide solutions. We 
respectfully seek $1.5 million through the USAID to expand our 
research, education, and training programs in response to 
threats of chemical and biological terrorism.
    A more detailed statement has been submitted to the 
subcommittee. I would like to commend the committee on the 
important work they are doing into looking into these very 
complex and potentially devastating biological threats to our 
society.
    Thank you on behalf of all us, and my personal thanks for 
allowing me to testify today.
    Mr. Callahan. Thank you, Dr. Feldman.
    Dr. Feldman. Thank you.
    [The information follows:]

[The official Committee record contains additional information here.]


    Mr. Callahan. John A. Donnelly. We will submit your entire 
statement for the record. There is no real need to read it to 
us.
    Mr. Donnelly. Okay. I was not intending to.
    Mr. Callahan. I appreciate that. [Laughter.]
                              ----------                              

                                           Thursday, March 4, 1999.

                        CATHOLIC RELIEF SERVICES


                                WITNESS

JOHN A. DONNELLY, CATHOLIC RELIEF SERVICES
    Mr. Donnelly. I am John A. Donnelly, and I am a 
representative of Catholic Relief Services, the international 
relief and development agency of the United States Catholic 
Conference of Bishops. We are positioned in approximately 83 
countries around the world for over 50 years. We have developed 
meaningful, interactive relationships with communities, which 
has generated sustainable success stories, and, equally 
important, has affected a high degree of accountability.
    We believe that the money spent on development today does 
have success when used properly. In our written statement, we 
have made adequate comments about that, and I would really just 
like to add a few additional points or highlights, if I may.
    One of the, I think, great success stories among the PVO 
community today is small enterprise development. Anyone who has 
visited these sites, read these reports, and I know some 
members of this committee have merited this as a documented 
success. CRS, for example, is reaching over 150,000 
participants who otherwise would be shut out from any 
opportunity to start small businesses.
    The criteria that CRS employs is using loans in the area of 
$100 to $300. On the face of that, that is almost 
insignificant. But it actually does create small capital to 
start build--to start businesses. This leads to additional 
jobs, and does not create a debt service problem on the part of 
the participant.
    We would ask this committee to continue to support 
legislation on behalf of small enterprise development, and we 
are suggesting in the area of $160 million. We would also ask 
special consideration be given to targeting a portion of that 
money to the poorest countries, so that the small-type loans 
that the PVOs are employing can continue to be.
    I would also like to talk a bit about child survival, which 
also has been another proven winner. It is documented so by the 
World Health Organization. And, again, anybody who has visited 
these sites, the difficulty with child survival to date has 
been--from a PVO perspective, has been that less than three 
percent of the overall monies flow through PVO communities.
    This is despite the fact that PVOs make a matching 
contribution to any Federal Government monies that flow through 
the PVO. The requirement is 25 percent. Since the inception of 
this program, PVOs have contributed over 50 percent. They do 
this voluntarily, and I think it speaks to the deep commitment, 
not only of the voice but also of the pocketbook.
    We would ask this committee, as it has in the past, to look 
carefully at this and see if a higher percentage of the money 
could not be earmarked for the PVO community.
    Debt relief is an issue that we all agree must be faced, 
and the administration and the Congress is certainly taking a 
leadership role in that, and we applaud that. We would only 
ask, as a thought now, that following Hurricane Mitch special 
consideration be given to put increases into the Central 
American trust fund.
    Finally, CRS would request that special consideration be 
given to the basic humanitarian assistance to the very poor. 
The efforts of community development through child survival, 
small enterprise, education, cannot truly be considered a 
success, if a segment of that population is being left behind.
    Pope John Paul II, on his visit to St. Louis, reminded us, 
once again, that the responsibility of leadership and 
compassion falls to those with the power and the resources.
    With this in mind, we would ask that the committee seek to 
not lose sight of this segment of the population, take the 
necessary steps to ensure that there is room in the budget for 
those who are simply in need.
    I have got a lot of time left over, do not I? [Laughter.]
    I was so concerned on getting through my five minutes and 
what I wanted to say that I----
    Mr. Callahan. Not if you want to hear from me. [Laughter.]
    Mr. Donnelly. Mr. Chairman, I do want to hear from you. 
[Laughter.]
    Mr. Callahan. Well, I just want to say, with respect to the 
small enterprise fund, the committee is very supportive of that 
and will continue to be. With respect to the $100 to $300 
loans, that is what it is all about. And we should hope that 
the priorities would be given to the smaller, poorer countries. 
We assume that is taking place.
    Child survival is going to survive. It is going to probably 
increase, even though the administration, just as they did for 
the small enterprise fund, have requested less. Both are going 
to be given more, not less.
    PVOs are favored by me and this committee because we get 
more bang for the buck out of PVOs. I mean, you can take monies 
from them. Catholic service organizations can do more with $10 
than any government can do with $100. So we are supportive of 
that.
    Debt relief--I disagree with you there, but that is not 
bad. You are doing pretty good to get----
    [Laughter.]
    Central American trust fund--I do not know where you all 
came up with that, but we are going to look closely at that 
request. But I am not real sure about it.
    Nevertheless, all of those things that you mentioned that 
there is a direct humanitarian relief capability through 
Catholic services you are going to get.
    Mr. Donnelly. Thank you, Mr. Chairman.
    Mr. Callahan. Now you can give me absolution. [Laughter.]
    Thank you.
    [The information follows:]

[The official Committee record contains additional information here.]


    Mr. Callahan. Tim Dickinson.
    Mr. Dickinson. Good afternoon, Mr. Chairman.
    Mr. Callahan. Good afternoon.
                              ----------                              

                                           Thursday, March 4, 1999.

                        AMERICAN BAR ASSOCIATION


                                WITNESS

TIM DICKINSON, AMERICAN BAR ASSOCIATION
    Mr. Dickinson. My name is Timothy L. Dickinson. I am the 
immediate past Chair of the Section of International Law and 
Practice of the American Bar Association. On behalf of our 
President, Phillip Anderson, I want to thank you for providing 
me the opportunity to testify today.
    The American Bar Association, with its over 400,000 
members, is the largest professional organization in the world. 
Over the last decade, the ABA has participated in pro bono 
projects around the world with the goal to strengthen democracy 
and free market economies.
    We believe as a result of these programs, U.S. foreign 
policy objectives have been advanced in the most cost-effective 
manner.
    The events of the last decade verify that one of the most 
crucial aspects of democratization is the development of 
credible and dependable legal institutions rooted in the rule 
of law. It is the objective of the American Bar Association to 
embrace these views, and these are the bases for all of our 
programs.
    All ABA programs are guided by three principles. First, the 
projects are designed to be responsive to the needs and 
priorities of the host countries. The countries, not the ABA, 
define these needs.
    Second, the design of these programs recognize that the 
U.S. legal experience and traditions offer only one approach 
that participating countries may wish to consider.
    Third, these projects are for public service endeavors, not 
devices for business development. The goal of these programs 
has always been to take a modest grant and leverage those sums 
to yield a much greater benefit for the host government and its 
people.
    The most comprehensive technical assistance project of the 
ABA is the Central and Eastern European Law Initiative, CEELI. 
Shortly after the fall of the Berlin wall in 1990, CEELI was 
organized by our section to provide technical assistance to the 
emerging democracies in Central and Eastern Europe, and, later, 
to the newly-independent states.
    To date, CEELI has conducted over 500 technical assistance 
workshops, assessed approximately 400 draft laws, placed over 
200 long-term liaisons and 200 legal specialists in the region, 
hosted almost 50 Central and Eastern European law school deans, 
sent dozens of U.S. legal reform experts to assist in law 
school reform, and placed a variety of students from the NIS 
and LLM programs in the U.S.
    These programs have involved over 5,000 U.S. attorneys from 
across the country and has yielded over $55 million of pro bono 
service by ABA members.
    In conjunction with the Superior Court of the District of 
Columbia, our section has undertaken a three-phase U.S.-Africa 
legal exchange. The program focuses on Malawi, Tanzania, 
Uganda, and Zambia, and seeks to assist these countries in 
creating a legal environment conducive for investment and the 
provision of efficient legal services.
    In addition to this program, the ABA has a number of other 
programs in Africa under various stages of development, 
including a legal exchange in West Africa, a new project in 
Liberia, and, with funding from USIA, the ABA continues to 
assist 12 law schools and eight African countries with over 30 
U.S. law schools participating.
    The ABA has also provided leadership in fulfilling the 
agreement between President Clinton and President Zemin, with 
cooperation in the field of law. The ABA signed an agreement 
with the All China Lawyers Association last May, which will 
provide for lawyer training, bar organization and management 
continuing legal education, legal information exchange, and law 
practice management.
    And the ABA recently completed a large trial demonstration 
hosted by the National Judges College of the Supreme Peoples 
Court in Beijing, comparing the common law and the civil law 
systems.
    I would also like to take a moment to talk about the ABA's 
collaboration with the UNDP. The ABA and the UNDP share the 
common belief that sustainable development must be based on the 
rule of law that fosters democratic institutions, respect for 
human rights, and a vibrant private sector.
    The ABA and UNDP have recently agreed to establish a 
jointly funded legal resource unit to provide advisory 
assistance to UNDP's 132 country offices on the legal dimension 
of good governance and adoption of sound macroeconomic 
policies.
    I have great respect and admiration for UNDP and hope that 
the subcommittee will be able to support UNDP at the level it 
has also requested.
    In conclusion, the ABA encourages continued support for 
global rule of law projects that promote democracy around the 
world. Our programs encourage respect for the rule of law and 
build free markets, free trade, combat corruption, which, in 
turn, supports the ability of emerging markets to purchase U.S. 
products, thus also supporting our own economy.
    I believe that all of these projects that I have described, 
and all of those under consideration, we believe that these 
provide the bedrock of development, and we hope that the 
Congress will continue to support our programs, which, in turn, 
support U.S. foreign policy to bring peace and sustainable 
development to the world.
    Mr. Callahan. Thank you very much. I agree with your 
testimony on this educational process of law, and it is so 
needed in many of these countries that are having trouble 
establishing democracy. It is a vast undertaking to begin with, 
but we appreciate the ABA's involvement with that process.
    Mr. Dickinson. And we appreciate your support.
    Mr. Callahan. Thank you.
    Mr. Dickinson. Thank you.
    [The information follows:]

[The official Committee record contains additional information here.]


    Mr. Callahan. Dr. Lintner. According to my list, you are 
the last one. Maybe we left someone out.
                              ----------                              

                                         Thursday, March 4, 1999.  

              FAITH ACTION FOR PEOPLE-CENTERED DEVELOPMENT


                                 WITNESS

 REV. DR. JAY LINTNER, DIRECTOR, WASHINGTON OFFICE UNITED CHURCH OF 
    CHRIST, OFFICE FOR CHURCH AND SOCIETY
    Reverend Lintner. Your powers of endurance are 
overwhelming. I have been sitting here saying I do not believe 
this.
    Good afternoon. I am----
    Mr. Callahan. Good afternoon.
    Reverend Lintner [continuing]. The Reverend Jay Lintner. I 
am the Director of the Washington Office for the United Church 
of Christ, Office for Church and Society. I am speaking today 
on behalf of Faith Action for People-Centered Development, 
which is an informal working group of about 20 religious 
denominations and faith-based groups who have a long history of 
working all around the world for many years.
    We are deeply disturbed by public debate that characterizes 
foreign aid as an unaffordable luxury. We see a troubling 
tendency to justify foreign aid in terms of the narrow and 
immediate economic and security dividends that it provides the 
U.S.
    Since the psalms were written almost 3,000 years ago, we in 
the religious community keep trying to point out that 
governments define security too narrowly. Chariots alone will 
not protect us and give life to the people. Producing justice 
is the first task of government.
    We now know a great deal about what produces workable 
development for people. We know what programs work--I have been 
watching this for 25 years, helping to shape our testimony in 
different ways, and we know what programs I am not sure we did 
25 years ago, but we have learned a lot in the past 25 years as 
to what really works to make gains against global poverty and 
end starvation. And we know that it is in our long-term self-
interest to do this.
    It is also clear over the 25 years I have been watching 
this that we are in a zero-sum game, pitting humanitarian and 
development assistance against economic and security 
assistance. And the interests of the church keep losing out to 
the interests of military and economic leaders.
    As a result of these trends, the U.S. is now dead last 
among the donor countries in official development assistance as 
a percentage of GNP. We are not the most generous country among 
rich nations. We are the least generous, and only the U.S. 
public seems to think otherwise.
    Allow me to highlight several areas which we think deserve 
priority attention this year. I really appreciate your comments 
to Catholic Relief Service.
    However, my main point is the one you dismissed. The 
biggest priority for us this year is debt cancellation. The 
development prospects of many of the world's poorest countries 
are being mortgaged to a crushing debt burden. As we, in many 
different denominations, have our missionaries come back to 
this country, or we talk to partner churches overseas, or we 
have the World Council of Churches or the Anglican world 
meeting, everyone is clear that this is the number one 
priority.
    It is the common perception among our partner churches and 
people overseas--that this is the essential thing that needs to 
be changed, that this is what is killing their people. That is 
the perception, and we really believe it needs to be addressed.
    Therefore, we are urging the committee to appropriate 
sufficient funds to cancel the bilateral debt owed to the U.S. 
by all of the highly indebted IDA-only countries by the end of 
the year 2000. And this is spelled out in greater detail--to 
provide funding for the HIPC trust fund at a level commensurate 
with our nation's compassion, wealth, and influence; to direct 
the administration to use its voice and vote in the multi-
lateral lending institutions to reform the HIPC process, so as 
to provide deeper and more rapid debt relief for many more 
heavily-indebted poor countries without current forms of 
structural adjustment and conditionality.
    Our second priority, the thing we would stress the 
heaviest, is to give priority to sub-Saharan Africa and Central 
America. Faith Action believes that support for people-centered 
development in sub-Sahara Africa and reconstruction in Central 
America should be the top priorities for U.S. assistance.
    Inasmuch as Central America reconstruction efforts are 
being dealt with elsewhere, we will focus our comments here on 
programs primarily related to Africa, except for one brief 
comment, which is that if the money for Central America is not 
taken out of supplemental aid, we would really urge that 
tradeoffs not be made which pit the poor of Central America 
against the poor of this country.
    Last year Congress recommitted the U.S. Government to 
strengthen Africa agriculture and food security and to follow 
people-centered principles in the process of passing the Africa 
Seeds of Hope Act. We applaud Congress. This is the kind of 
development we know works, and we urge you to watch what it can 
do.
    We continue to call for transfer of resources from the 
Middle East to regions where human development needs are 
greater. We commend the committee and you personally for 
establishing a ceiling earmark on fiscal year 1998 for funding 
for the Middle East region.
    Additionally, we are encouraged by the decision of Israel 
and Egypt to accept annual reductions of economic assistance 
over the next nine years, and by the administration's proposal 
this year to accelerate this process.
    However, we would like to see the full amount of these 
reductions rededicated to development programs and oppose the 
proposal that half of Israel's reduction in economic assistance 
be redirected into military assistance for that state. We do 
not need more chariots.
    Specifically, here are some programs that work. Let me 
mention them just very briefly. The Development Fund for 
Africa--the administration request for $745 million, and 
reestablished Development Fund for Africa, and support the 
International Development Association.
    We think that the International Fund for Agricultural 
Development, IFAD, is very worthy and are disturbed that it has 
been challenged. We think the African Development Foundation 
deserves more support and would urge you to increase that 
funding up to $17 million, which was the 1995 levels.
    We also want to thank you for support in Congress for 
eliminating land mines, and we want to register our concern 
about the anti-narcotic programs, which we think are not 
producing what they should.
    Thank you.
    [The information follows:]

[The official Committee record contains additional information here.]


    Mr. Callahan. Thank you very much. I cannot believe that 
your organization prioritizes debt forgiveness at such a high 
level when you must recognize that the debt was created by 
corrupt politicians and did not go into services for citizens.
    And what they are attempting to do is to eliminate the debt 
for one purpose--so they will be financially, sufficiently 
stable enough to borrow more money to go into Swiss banks. And 
you must know that takes place. You must know that Haiti is a 
classic example of the billions of dollars we have spent where 
there has been no significant evidence of improvement.
    To recommend that we relieve their debt so they can borrow 
more money is not going to bring one loaf of bread to a 
starving person in any country. It is just going to enable them 
to borrow more money to do the same things they did with the 
last money they borrowed that created the debt. So----
    Reverend Lintner. We believe that----
    Mr. Callahan [continuing]. I respectfully disagree with----
    Reverend Lintner. No. We believe that that is true in 
certain circumstances.
    Mr. Callahan. Well, I do not know--where you are talking 
about debt forgiveness, it might not be the current regime. But 
it was their predecessor, and you cannot put safeguards in 
there to say----
    Reverend Lintner. We do think you can have criteria which 
will be----
    Mr. Callahan. Well, I think if you said they could never 
borrow any more, that would be all right. But when you simply 
are opening up the door for them to borrow more, by forgiving 
debt, it costs me money. I get allocated a certain amount of 
money every year. And you want me to feed the starving and to 
provide medicine and care and educational opportunities and 
health care opportunities for the world.
    And yet you are telling me to take part of the money I am 
going to use for child survival, for example, to eliminate 
polio, for example, and forgive debt of corrupt politicians. I 
do not think that should be a priority, and I think your 
organization ought to look again at what you are saying, 
because you have to take away from the needy in order to score 
it to the point that it has to be scored in order to forgive 
debt.
    Reverend Lintner. I can appreciate your anger at past 
regimes which were corrupt which borrowed the money. The poor 
in many of these countries have the perception that they are 
now being penalized for those past corrupt regimes.
    Mr. Callahan. They are.
    Reverend Lintner. They are being penalized, and they are 
very angry about it, and they feel that their educational 
needs----
    Mr. Callahan. But most of the ones that owe money are still 
not sufficiently honest, in my opinion. Haiti is a classic 
example.
    Reverend Lintner. We want criteria. We want criteria, and 
we are not in favor of giving it to the corrupt regimes.
    Mr. Callahan. Thank you for your time.
    Reverend Lintner. Yes.
    Mr. Callahan. All right. The subcommittee is adjourned.
    [Statements for the record follow:]

[The official Committee record contains additional information here.]




                           W I T N E S S E S

                              ----------                              
                                                                   Page
Andrews, Hon. Robert.............................................   464
Ardouny, Bryan...................................................   161
Austin, Joyce....................................................    51
Bonior, Hon. D. E................................................   460
Brown, Hon. Sherrod..............................................   458
Buteiko, Anton...................................................   544
Chaisson, Dr. Richard............................................    88
Crow, Dr. M. M...................................................   515
Daulaire, Nils...................................................   510
Derrick, John....................................................   316
Dickinson, Tim...................................................   420
Donnelly, J. A...................................................   412
Drinan, Father Robert............................................   465
Epperly, David...................................................   137
Feldman, Dr. L. A................................................   398
Fitzhugh, E. J...................................................   290
Fornos, Werner...................................................   546
George, Father W. L..............................................   473
Gilman, Hon. B. A................................................   460
Giulietti, Father Julio..........................................   473
Guthrie, Dr. R. L................................................   335
Gutierrez, Hon. L. V.............................................   460
Hall, Hon. T. P..................................................    24
Hartke, Jan......................................................   242
Hekimian, Chris..................................................   145
Hellman, R. A....................................................   524
Hinchey, Hon. M. D..............................................84, 460
Horn, Hon. Stephen...............................................   460
Jollivette, Cyrus................................................   368
Kaptur, Hon. Marcy...............................................   460
Kohr, Howard.....................................................    96
Levin, Hon. S. M.................................................   460
Lewis, Hon. John.................................................   156
Lintner, Rev. Dr. Jay............................................   443
Lowman, Shep.....................................................   231
Lucas, C. P......................................................   218
Luther, Hon. Bill................................................    47
Manatos, A. E....................................................   176
Manoff, Robert...................................................   386
Marvin, M. L.....................................................   520
Miller, Lindsay..................................................   109
Moody, Jim.......................................................   358
Nassif, T. A.....................................................   501
Nemtzow, David...................................................   308
Pallone, Hon. Frank, Jr..........................................   349
Pascrell, Hon. Bill, Jr..........................................   460
Peel, Terry......................................................    37
Pigman, H. A.....................................................    62
Portman, Hon. Rob................................................     1
Quinn, Hon. Jack.................................................    00
Rossides, E. T...................................................   186
Sadik, Nafis.....................................................   551
Salzberg, J. P...................................................    18
Sawkiw, Michael, Jr..............................................   128
Schaffer, Hon. Bob.............................................124, 460
Siemens, Stephen.................................................    73
Slaughter, Hon. L. M.............................................   460
Stabenow, Hon. Debbie............................................   463
Visclosky, Hon. P. J.............................................     8
Walsh, Hon. J. T.................................................    12
Watson, A. F.....................................................   260
White, P. C......................................................   344
Worthington, B. K................................................   333

                                <greek-d>

</pre></body></html>
